<html>
<title> - OPTIONS FOR HUBBLE SCIENCE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                       OPTIONS FOR HUBBLE SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 2, 2005

                               __________

                            Serial No. 109-2

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
98-396                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            ZOE LOFGREN, California
JO BONNER, Alabama                   BRAD SHERMAN, California
TOM FEENEY, Florida                  BRIAN BAIRD, Washington
BOB INGLIS, South Carolina           JIM MATHESON, Utah
DAVE G. REICHERT, Washington         JIM COSTA, California
MICHAEL E. SODREL, Indiana           AL GREEN, Texas
JOHN J.H. ``JOE'' SCHWARZ, Michigan  CHARLIE MELANCON, Louisiana
MICHAEL T. MCCAUL, Texas             VACANCY
VACANCY
VACANCY


                            C O N T E N T S

                            February 2, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    17
    Written Statement............................................    18

Statement by Representative Bart Gordon, Ranking Minority Member, 
  Committee on Science, U.S. House of Representatives............    19
    Written Statement............................................    20

Statement by Representative Ken Calvert, Chairman, Subcommittee 
  on Space and Aeronautics, Committee on Science, U.S. House of 
  Representatives................................................    21
    Written Statement............................................    22

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    23

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    23

Prepared Statement by Representative Mark Udall, Member, 
  Committee on Science, U.S. House of Representatives............    24

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science, U.S. House of Representatives............    24

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    24

                               Witnesses:

Gary P. Pulliam, Vice President, Civil and Commercial Operations, 
  The Aerospace Corporation
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................    41

Dr. Louis J. Lanzerotti, Chair, Committee on Assessment of 
  Options to Extend the Life of the Hubble Space Telescope, 
  National Research Council, The National Academies; accompanied 
  by General Charles F. Bolden, Jr. (Ret.), Senior Vice President 
  at TechTrans International, INc., and Joseph H. Rothenberg, 
  President and Member, Board of Directors, Universal Space 
  Network
    Oral Statement...............................................    41
    Written Statement............................................    44
    Biography....................................................    49
    Financial Disclosure.........................................    50

Dr. Joseph H. Taylor, Jr., Co-Chair, Astronomy and Astrophysics 
  Survey Committee, National Research Council, The National 
  Academies
    Oral Statement...............................................    53
    Written Statement............................................    54
    Biography....................................................    57

Dr. Steven V.W. Beckwith, Director, Space Telescope Science 
  Institute
    Oral Statement...............................................    57
    Written Statement............................................    58
    Biography....................................................    63

Dr. Paul Cooper, General Manager, MDA Space Missions
    Oral Statement...............................................    63
    Written Statement............................................    66
    Biography....................................................    88

Dr. Colin A. Norman, Professor of Physics and Astronomy, Johns 
  Hopkins University
    Oral Statement...............................................    88
    Written Statement............................................    90
    Biography....................................................   101

Discussion
  Webb versus Hubble.............................................   101
  Cost and Schedule of a Robotic Servicing Mission...............   102
  A Hubble Servicing Mission's Effect on Other Science Missions..   105
  The Cost of a Shuttle Servicing Mission........................   109
  The Rehosting Option...........................................   112
  The Manifesting of a Shuttle Servicing Mission.................   114
  Rehosting Continued............................................   115
  Risk and a Shuttle Servicing Mission...........................   116
  Shuttle Servicing Options......................................   119
  The Hubble Space Telescope's Projected Life Expectancy.........   120
  Cost of Rehosting..............................................   120
  The Hubble Space Telescope and Dark Energy.....................   121
  Aerospace Corporation Analysis Assumptions versus Reality 
    Regarding a Robotic Servicing Mission........................   122
  Value of a Robotic Servicing Mission to Exploration............   123
  Safe Haven and a Shuttle Servicing Mission.....................   124
  The ``Science Gap'' and Rehosting..............................   126
  Safety.........................................................   128
  Hubble Servicing and Its Relation to Exploration...............   129

             Appendix 1: Answers to Post-Hearing Questions

Dr. Louis J. Lanzerotti, Chair, Committee on Assessment of 
  Options to Extend the Life of the Hubble Space Telescope, 
  National Research Council, The National Academies..............   134

Dr. Joseph H. Taylor, Jr., Co-Chair, Astronomy and Astrophysics 
  Survey Committee, National Research Council, The National 
  Academies......................................................   139

Dr. Steven V.W. Beckwith, Director, Space Telescope Science 
  Institute......................................................   141

Dr. Paul Cooper, General Manager, MDA Space Missions.............   144

Dr. Colin A. Norman, Professor of Physics and Astronomy, Johns 
  Hopkins University.............................................   148

             Appendix 2: Additional Material for the Record

Statement by the Institute of Electrical and Electronics 
  Engineers--United States of America (IEEE-USA).................   150

 
                       OPTIONS FOR HUBBLE SCIENCE

                              ----------                              


                      WEDNESDAY, FEBRUARY 2, 2005

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:03 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       Options for Hubble Science

                      wednesday, february 2, 2005
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose and General Background

    On Wednesday, February 2, the Committee on Science will hold a 
hearing to examine the options for the future of the Hubble Space 
Telescope.
    Launched in 1990, the Hubble is, according to the National Academy 
of Sciences, ``arguably the most powerful single optical astronomical 
facility ever built'' and ``a uniquely powerful observing platform'' 
that has made ``profound contributions'' to the human understanding of 
the universe.
    The Hubble was designed at a time (before the 1986 Challenger 
accident) when it was assumed that the Space Shuttle would be used 
regularly to launch and service satellites. As a result, the Hubble was 
launched by the Shuttle (rather than by an expendable rocket) and was 
designed to require periodic servicing by astronauts to remain aloft 
and functioning. Four missions have serviced the Shuttle (including one 
that was not originally planned to correct a flaw in the Hubble's 
mirror). A fifth and final mission was scheduled for 2004 both to 
replace the batteries and gyroscopes the Hubble needs to continue to 
function and to add new scientific equipment. (That scientific 
equipment has already been built and is at the Goddard Space Flight 
Center in Maryland.) Without servicing, the Hubble will cease 
functioning as early as 2007 when the batteries run low; the exact 
timing is uncertain.
    The demise of the Space Shuttle Columbia in February 2003 
necessitated a change in the plans for the Hubble. At the very least, 
the loss of the Columbia meant a significant delay in Hubble servicing. 
(The Shuttle will not return to flight earlier than May 2005 and has a 
backlog of missions to construct and service the International Space 
Station (ISS).) But last January, NASA Administrator Sean O'Keefe ruled 
out any servicing mission, announcing that the Shuttle would no longer 
fly to destinations other than the ISS, citing safety concerns. That 
decision appeared to doom the Hubble.
    But the Hubble was given a new lease on life, when, responding to a 
public outcry and pressure from Congress, NASA proposed last year to 
develop a robot to perform the necessary servicing. NASA also 
contracted with the National Academy of Sciences to review its 
decision.
    In December, the Academy issued a report that took issue with every 
aspect of the NASA approach and recommended a Shuttle servicing 
mission. The Academy concluded that the likelihood of NASA's robotic 
plan succeeding was ``remote.'' The Academy also found that a Shuttle 
sent to the Hubble faced risks similar to those faced by a Shuttle sent 
to the International Space Station. (NASA plans to send the Shuttle to 
the Space Station as many as 30 more times.)
    Two additional studies funded by NASA, one performed internally and 
the other performed by The Aerospace Corporation, similarly concluded 
that a robotic mission to service the Hubble would not be ready in time 
to save the Hubble before its batteries died. (The Aerospace 
Corporation is a Federally Funded Research and Development Center that 
works primarily for the Air Force.)
    The Aerospace Corporation additionally found that a new telescope 
built from the instruments NASA originally planned to install on the 
Hubble would provide the greatest value to NASA in terms of risk and 
cost. NASA has received a proposal, known has the Hubble Origins Probe, 
to build such a telescope from the instruments that already exist at 
Goddard and some additional new equipment.
    Recent press reports have suggested that in its Fiscal Year (FY) 
2006 budget request, the Administration plans to cancel the robotic 
mission to service the Hubble, presumably because of the costs and 
uncertainty about success, once again dooming the telescope.
    This hearing will help the Committee prepare for the debate over 
Hubble that will come to a head once the budget request is released 
Feb. 7. There are basically four options available with regard to the 
Hubble, each of which is discussed in greater detail later in this 
charter and in Attachment A:

        <bullet>  Do not service the telescope. The telescope will then 
        cease to function as early as 2007. NASA does have other space 
        telescopes in orbit and others are planned to be launched in 
        2011, but none has the same capabilities as Hubble.

        <bullet>  Send the Shuttle to service the telescope. Like any 
        Shuttle mission, this would put astronauts at risk. It would 
        also delay completion of the ISS.

        <bullet>  Send a robotic mission to service the telescope. The 
        studies mentioned above have raised grave doubts as to whether 
        this mission could be ready in time. The contractor designing 
        the robot takes issue with those studies.

        <bullet>  Launch a new ``platform'' with the equipment that was 
        designed to be added to the Hubble (this is sometimes called 
        ``rehosting'') and perhaps include new equipment as well (the 
        proposed ``Hubble Origins Probe'' or HOP). This would leave a 
        gap in Hubble science, as the new platform would probably not 
        be ready until after the Hubble stopped operating.

    All of these options raise questions about cost as well as risk. 
But arguably (see below), they all cost in the range of $2 billion to 
complete. Any option, therefore, raises questions about whether Hubble 
servicing is a high enough priority to proceed even if it would take 
funds away from NASA's other science plans and its exploration mission.
    Finally, regardless of which option is chosen, NASA will have to 
send a robot up to the Hubble around 2013 to de-orbit it. Otherwise, 
the telescope will re-enter the Earth's atmosphere uncontrolled, 
potentially causing death and destruction upon landing. Designing a 
robot for de-orbiting the Hubble is much less complicated than 
designing one to service the telescope, and much more time is available 
for the project as the Hubble is not expected to fall out of orbit for 
many years.

2. Overarching Questions

    The Committee plans to explore the following overarching questions 
at the hearing:

        1.  How important are the contributions that would be expected 
        from extending the life of the Hubble Space Telescope to the 
        continued advancement of our understanding of the cosmos?

        2.  What are the comparative costs, strengths, and weaknesses 
        of a Shuttle servicing mission, a robotic servicing mission, 
        and a mission to fly elements of a Hubble servicing mission 
        rehosted on a new telescope?

        3.  Should either a Hubble servicing mission (whether by robot 
        or by Shuttle) or a new Hubble-based telescope be a higher 
        priority for funding than other astronomical programs at NASA?

3. Witnesses

Mr. Gary Pulliam is Vice President for Civil and Commercial Operations, 
Aerospace Corporation.

Dr. Lou Lanzerotti was Chair of the National Academy of Sciences study 
on the Hubble, known officially as the Committee on the Assessment of 
Options for Extending the Life of the Hubble Space Telescope. Dr. 
Lanzerotti is a Professor of solar-terrestrial research at the New 
Jersey Institute of Technology and a consultant to Bell Labs and Lucent 
Technologies.

Dr. Steve Beckwith is Director of the Space Telescope Science Institute 
and a Professor of physics and astronomy at the Johns Hopkins 
University. The Institute manages the Hubble Space Telescope on behalf 
of NASA.

Dr. Paul Cooper is Vice President and Deputy General Manager of MD 
Robotics, the company building the arm for the robotic servicing 
mission to repair the Hubble.

Dr. Colin Norman is a Professor in the Department of Physics and 
Astronomy at the Johns Hopkins University, and the lead scientist on 
the proposal to build the Hubble Origins Probe.

Dr. Joseph Taylor is a Nobel Laureate and Distinguished Professor of 
Physics at Princeton University. In 2001 Dr. Taylor served as a Co-
chair of the National Academy of Science's ``decadal survey,'' the 
document that recommended priorities for astronomy and astrophysics 
missions in this decade. The survey is prepared by the Academy's 
Astronomy and Astrophysics Survey Committee. Dr. Taylor also served on 
the Academy's Hubble Committee that was chaired by Dr. Lanzerotti.

4. Issues

    These are some of the questions that need to be evaluated in 
deciding what to do about the Hubble:

        <bullet>  How important is it to have the Hubble Telescope's 
        life extended and its capabilities enhanced? Every ten years 
        astronomers come together under the aegis of the National 
        Academy of Sciences to survey their field and develop a list of 
        priority research questions to be pursued and funded by NASA 
        (the ``decadal survey''). The most recent decadal survey, 
        released in 2001, assumed that Hubble would be serviced in 2004 
        and be available to scientists until around 2010. Some of the 
        priority projects were expected to work in conjunction with 
        Hubble. It is unclear how the priorities in the decadal survey 
        would shift if Hubble servicing were canceled, of if servicing 
        (by Shuttle or robot) were to take funds from other planned 
        science missions. It is also unclear where a project like HOP 
        would rank among the options for astronomy.

        <bullet>  How much time does NASA have to send a mission to the 
        Hubble before it can no longer be rescued? When the Hubble's 
        batteries will run too low to protect the telescope from the 
        frigid temperatures of space cannot be predicted precisely. The 
        National Academy of Sciences' Hubble report projected that the 
        batteries would most likely run low by May 2009. The Aerospace 
        Corporation reached similar conclusions. The ability of the 
        Hubble to perform science is likely to erode sooner, mostly 
        likely in April 2008, according the Academy. NASA could extend 
        the life of the batteries somewhat by putting the telescope 
        into a ``dormant'' mode in anticipation of a servicing mission. 
        Any servicing mission that arrived after the batteries ran down 
        would be pointless.

        <bullet>  How much time would a robotic mission to service 
        Hubble take to develop? Predicting how long a complex space 
        mission will take to develop is fraught with uncertainty. The 
        Aerospace Corporation estimated that a mission to service the 
        Hubble robotically would not be ready to launch for at least 65 
        months, or 5.4 years, too late to rescue the Hubble telescope. 
        NASA claims, however, that its robotic mission will be ready in 
        only 39 months, or 3.25 years.

             The crux of the dispute is the question of how novel a 
        Hubble robotic mission would be. NASA and MD Robotics point out 
        that the ``arm'' the robot would use has already been developed 
        and used by the Shuttle. Skeptics argue that the ``arm'' has 
        not been used for an analogous mission and rendezvousing with 
        the Hubble gently enough to avoid damaging it will be tricky.

        <bullet>  How much time would a Shuttle mission to service 
        Hubble take to prepare for? NASA has estimated that it would 
        take 31 months to prepare a Shuttle mission to Hubble, which 
        includes crew training and having a back-up Shuttle available 
        for any rescue mission (a new approach in the wake of the 
        Columbia accident). The Academy concluded that the latest a 
        Shuttle mission to Hubble could launch and still save the 
        telescope was May 2009.

        <bullet>  Where would the funding come from to pay for a 
        servicing mission to Hubble? Past Hubble servicing missions 
        have been paid out of the Shuttle program's budget. Since the 
        last Shuttle was sent to the Hubble in 2002, NASA has adopted a 
        new bookkeeping method in which each program must pay for 
        activities that benefit it, even if those activities are 
        carried out by another program. Under this ``full cost 
        accounting'' methodology, NASA's Science Directorate might be 
        expected to pay for all or part of a Shuttle mission to service 
        the Hubble. In the meantime, the funding for the robotic 
        servicing mission--contracts have already been let to design 
        the robot--is being split between NASA's Science Directorate, 
        in which the Hubble program resides, and the Exploration 
        Directorate, which hopes to benefit from the robotic technology 
        that the Hubble mission would develop. (The Exploration 
        Directorate is charged with developing new technology for the 
        President's proposal to return humans to the Moon.) If money 
        for Hubble servicing started eating into other planned science 
        projects, support for a Hubble servicing mission in the science 
        community might erode.

        <bullet>  How much would a servicing mission to Hubble cost? 
        Which mission provides the highest value? According to The 
        Aerospace Corporation, the total cost of a robotic servicing 
        mission would be roughly $2 billion. NASA estimated the cost at 
        $1.3 billion. The initial contracts for the robotic mission 
        have come in at less than Aerospace had estimated, but some of 
        those contracts allow for cost escalation as the project 
        continues.

             According to NASA, the cost of a Shuttle servicing mission 
        to Hubble would cost a similar amount, $2.2 billion. This is 
        basically NASA's estimate of the cost of any Shuttle flight, 
        not an estimate of costs unique to a Hubble mission. Aerospace 
        did not conduct an independent estimate of the cost of a 
        Shuttle servicing mission. The Government Accountability Office 
        has said it cannot verify NASA's estimates of Shuttle costs.

             The Aerospace Corporation found that a simple 
        ``rehosting'' option--sending up just the instruments already 
        built to be added to Hubble--would also cost about the same 
        amount, roughly $2 billion. Proponents of HOP, which would 
        include additional equipment, claim that their proposal would 
        cost about $1.5 billion.

             The Omnibus Appropriations Bill for FY05 that the 
        President signed in December specifically included $291 million 
        to begin work on the robotic servicing mission, which would be 
        expected to launch in FY07. According to its latest Operating 
        Plan, NASA plans to allocate $175 million to the project in 
        FY05.

        <bullet>  Would a Shuttle flight to Hubble be riskier than one 
        to the International Space Station? The NASA Administrator has 
        said that his decision not to send Shuttle to the Hubble was 
        based in large part on his belief that astronauts would face a 
        greater risk on such a mission compared to a mission to the 
        International Space Station. NASA has never provided any data 
        to back up that assertion but it appears to be based on the 
        assumption that the ISS can act as a ``safe haven'' in the 
        event that a problem with the Shuttle is discovered during a 
        mission. (Shuttles sent to the Hubble cannot reach the ISS.) 
        Some critics have charged that the Shuttle mission to Hubble 
        was scrapped solely to accelerate the construction of the ISS. 
        The National Academy of Sciences found that the difference in 
        risk between a single mission to Hubble and a mission to the 
        Space Station is ``very small.'' Furthermore, the Academy 
        pointed out that NASA plans to send the Shuttle to the Space 
        Station 25 to 30 more times. The probability of another 
        accident occurring in 30 flights can be calculated to be 
        greater than 40 percent if the past accident rate of the 
        Shuttle (two in 113 flights) is used to predict future 
        reliability. In addition, some experts have argued that 
        proposed missions to the Moon and Mars are likely to pose much 
        greater risks to astronauts than a Shuttle mission to the 
        Hubble.

5. Background

The Hubble Space Telescope:
    The Hubble Space Telescope (HST) was launched from the Space 
Shuttle Discovery in 1990 and has operated continuously in orbit for 
the past 14 years. The Hubble was originally designed for a 15-year 
mission, but until recently NASA intended to extend its operations 
through 2010. The telescope was designed to be serviced by astronauts, 
and a series of four Shuttle servicing missions, the last flown in 
2002, have replaced nearly all of the key components except the 
original telescope mirrors and support structures. Three of the four 
servicing missions added major new instruments, boosting the 
telescope's observing capabilities.
    HST is one of the most powerful optical astronomical telescopes 
ever built. It was designed to make observations in the visible, 
ultraviolet, and near-infrared wavelength portions of the spectrum, and 
its orbit above the Earth's blurring atmosphere provides an unobscured 
and undistorted view of the Universe.
    In its report, the Academy cited as the Hubble's primary scientific 
achievements:

        <bullet>  Direct observation of the universe as it existed 12 
        billion years ago;

        <bullet>  Measurements that helped to establish the size and 
        age of the universe;

        <bullet>  Discovery of massive black holes at the center of 
        many galaxies;

        <bullet>  Key evidence that the expansion of the universe is 
        accelerating, which can be explained only by the existence of a 
        fundamentally new type of energy and therefore new physics; and

        <bullet>  Observation of proto-solar systems in the process of 
        formation.

    Prior to the Columbia Shuttle accident, NASA had scheduled a 
servicing mission (SM-4) slated for 2004 to replace the batteries, 
gyroscopes and fine guidance sensors, all of which are showing signs of 
failure. SM-4 was also to install new thermal blankets and two new 
science instruments, the Wide Field Camera 3 (WFC3) and the Cosmic 
Origins Spectrograph (COS). The Shuttle would also have raised Hubble's 
orbit. After performing these repairs and new instruments, NASA 
expected the Hubble would continue to operate for another three to five 
years.
    Hubble is not the only space-based astronomical observatory, though 
it is only one that operates in optical wavelengths. The Spitzer Space 
Telescope, which NASA launched in August 2003, has a 2.5-year mission 
and is designed to observe in the infrared portion of the spectrum. 
NASA launched the Chandra X-ray Observatory in July 1999. While Chandra 
had only a five-year mission, it has been operating past its planned 
lifetime and continues to perform well today. The next telescope 
mission, scheduled for launch in 2011, is the James Webb Space 
Telescope (JWST). It will observe in the infrared portion of the 
spectrum using the largest mirror (six meter diameter) ever flown in 
space. (As all of these telescopes were designed after 1986, none 
relies on the Shuttle for launch or requires servicing.) Scientists 
greatly value the ability to do complementary observations using any or 
all of these active telescopes, peering at the same target at the same 
time. When the Hubble operations cease, there will be no other space-
based optical telescope available.
The Columbia Accident Investigation Board:
    Following the Columbia accident in February 2003, NASA appointed 
the Columbia Accident Investigation Board (CAIB) to investigate the 
accident. The CAIB's report included 15 Return-To-Flight (RTF) 
recommendations that it said should be completed prior to NASA resuming 
Shuttle flights, and an additional 14 recommendations to assure 
continued safe operation.
    At times, NASA has argued that its decision to cancel the Shuttle 
mission to Hubble was the only option available in light of the CAIB 
report. And the CAIB did make some distinctions between missions to the 
ISS and other missions.
    The clearest example is in its recommendation 6.4-1, which states 
in part, ``For non-Station missions, develop a comprehensive autonomous 
(independent of Station) inspection and repair capability to cover the 
widest possible range of damage scenarios.'' NASA has not developed 
that capability. But at the request of Senator Barbara Mikulski of 
Maryland, Admiral Harold Gehman, the Chairman of the CAIB, clarified 
the recommendation.
    In a March 2004 letter, Gehman said that risk to the Shuttle needed 
to be reviewed in light of all of CAIB's recommendations, not just a 
single recommendation, and he said the wording of the specific 
recommendation for non-Station missions meant ``do the best you can.'' 
He said non-ISS missions ``may be slightly more risky'' than missions 
to the ISS. Admiral Gehman said that the CAIB had taken no position on 
the feasibility of a Hubble mission and that all Shuttle missions posed 
risks. He concluded, ``I suggest only a deep and rich study of the 
entire gain/risk equation can answer the question of whether an 
extension of the life of the wonderful Hubble telescope is worth the 
risks involved, and that is beyond the scope of this letter.'' Gehman's 
response was one impetus for the Academy study.
The Academy Report:
    NASA commissioned the National Academy of Sciences study in the 
spring of 2004, in response to Congressional requests and shortly after 
initiating efforts to study the feasibility of a robotic servicing 
mission. NASA asked the National Academy of Sciences to assess ``the 
viability of a Space Shuttle servicing mission'' that would satisfy all 
of the CAIB's and NASA's own additional safety recommendations. The 
Academy was also asked to consider the viability of a robotic servicing 
mission.
    The Academy's panel, The Committee on the Assessment of Options for 
Extending the Life of the Hubble Space Telescope (the full charter and 
a list of committee members are attached), made three recommendations:

        1.  That NASA should commit to a servicing mission to the 
        Hubble Space Telescope that accomplishes the objectives of the 
        originally planned SM-4 mission.

        2.  That NASA should send the Shuttle to service the Hubble as 
        soon as possible.

        3.  That a robotic mission approach should be pursued solely to 
        de-orbit Hubble after its mission is completed.

    The Academy expressed strong doubts about the likely success of 
NASA's plans for a robotic servicing mission, stating: ``Based on 
extensive analysis, the committee concluded that the very aggressive 
schedule for development of a viable robotic servicing mission, the 
commitment to development of individual elements with incomplete 
systems engineering, the complexity of the mission design, the current 
low level of technology maturity, the magnitude of the risk-reduction 
efforts required, and the inability of a robotic servicing mission to 
respond to unforeseen failures that may well occur on Hubble between 
now and the mission, together make it unlikely that NASA will be able 
to extend the service life of HST through robotic servicing.''
    Robotics experts at NASA and its contractors dispute the Academy's 
characterization of the overall level of technical maturity of the 
robotic mission's components. For instance, they argue that the 
Shuttle's robotic arm (on which the robotic arm for the servicing 
mission will be based) has suffered no mission failures in 25 years of 
use. They also contend that the Academy's assessment of robotics risk 
is out of date since it is based on information and site visits that 
occurred during late spring/early summer 2004. Developments since then, 
they say, have eliminated many of the risks.
    In recommending that NASA conduct a servicing mission with the 
Shuttle, the Academy suggested that to minimize risk, NASA should 
prepare to use two Shuttles--one to fly to Hubble, and the second to 
sit at the ready on an adjacent launch facility to be used as a rescue 
vehicle should the first suffer damage that precludes a safe return. 
This was based on a rescue scenario outlined in the CAIB report.
    NASA argues that this proposal is not feasible because it would 
increase the cost of the mission, further disrupt the schedule for 
completing the International Space Station, and put additional crew at 
risk as the rescue mission would be unprecedented. Any rescue mission 
would have to be launched quickly (within 17-30 days, depending on how 
much emergency power was available on the Shuttle). Astronauts would 
have to be transferred in space from one Shuttle to another, a task 
NASA views as without precedent. However, the Academy report found that 
spacewalks ``for transferring the crew from a damaged vehicle on a 
Shuttle HST flight, although complex, are well within the experience 
base of the Shuttle program.''
The Aerospace Corporation Report:
    The Academy panel relied heavily on a study produced by The 
Aerospace Corporation that analyzed a variety of alternative methods 
for extending the life of Hubble. The report was requested, and paid 
for, by NASA as an analysis of alternatives (AoA).
    Aerospace used a ``blank sheet of paper'' approach that considered 
generic options rather than any specific pending proposal. As a result, 
it did not review the specific robotics work underway for the Hubble 
mission, which was only in an early stage when the Aerospace study was 
done in any event. (The Aerospace Report was completed in August, 
2004.) Aerospace also did not review NASA's cost or schedule estimates 
for the Shuttle, but simply accepted them as a baseline.
    Aerospace was not charged with recommending a specific alternative, 
but only with ranking their relative costs and benefits. Key findings 
of the Aerospace study include:

        <bullet>  Robotic servicing alternatives, based on estimated 
        development schedules, are susceptible to arriving too late 
        when Hubble is no longer in a serviceable state. Furthermore, 
        they undertake unprecedented servicing operations and are 
        subject to an aging observatory that may fail for some other 
        reason following servicing.

        <bullet>  Rehost alternatives are lower risk with similar cost 
        to the robotic servicing missions, but may result in a two- to 
        seven-year science gap.

        <bullet>  SM-4 has costs in the same range as the rehost and 
        robotic servicing alternatives, has higher probability of 
        mission success than the robotic servicing missions, and does 
        not suffer from the gap in science associated with rehost 
        alternatives.

        <bullet>  Other means to perform astronaut servicing with 
        reduced risk such as launching a safe haven or relocating 
        Hubble to the vicinity of the International Space Station are 
        more costly and take longer to develop than SM-4.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    (Aerospace Corporation defines ``Development Risk'' for a servicing 
mission as the risk that the mission can be developed in time to reach 
the Hubble before irreparable damage occurs. Aerospace defines 
``Mission Risk'' for a servicing mission as the risk that every element 
of the mission will succeed as planned and the telescope will continue 
to operate for another three years after being serviced.)

6. Recent Developments

    NASA continues to work on a robotic servicing mission, for which 
the FY05 Omnibus Appropriations bill provided $291 million. Of this 
amount, NASA plans to spend $175 million through Preliminary Design 
Review, scheduled for late March--the stage at which a decision is 
normally made as to whether to carry on with a project. Another 
critical stage in the program's development, the Critical Design 
Review, is tentatively scheduled for this September.
    NASA recently let contracts valued at $330 million to Lockheed 
Martin to begin development work on a spacecraft that could be used for 
either a robotic servicing mission or a comparatively simple robotic 
de-orbiting mission. A contract valued at $153 million was let to MD 
Robotics, a subsidiary of the Canadian firm MacDonald Dettwiler, to 
develop the robotic arm that would perform any servicing. The company 
built the existing Shuttle robotic arm.

7. Questions Asked of the Witnesses

    Witnesses invited to appear before the Committee were asked to 
address the following questions in their testimony:
Mr. Gary Pulliam

        1.  Please summarize the findings of your report to NASA 
        analyzing the agency's alternatives in servicing the Hubble 
        Space Telescope. In particular please explain the comparative 
        strengths and weaknesses of a Shuttle servicing mission, a 
        robotic servicing mission, and a mission to fly elements of a 
        Hubble serving mission rehosted on a new telescope.

        2.  How confident are you of your cost estimates for each of 
        the options?

Dr. Lou Lanzerotti, Chairman
    Please explain the findings and recommendations of your panel's 
assessment of options for extending the life of the Hubble Space 
Telescope with a particular emphasis on the following questions:

        1.  What is the telescope's contribution to science and what 
        would be lost if the telescope were not to be serviced and no 
        replacement telescope launched?

        2.  What are the comparative costs, strengths, and weaknesses 
        of a Shuttle servicing mission, a robotic servicing mission, 
        and a mission to fly elements of a Hubble servicing mission 
        rehosted on a new telescope?

        3.  How disruptive to science would it be if Hubble's new 
        instruments were to be unavailable for a number of years? Would 
        any of your panel's findings and recommendations change if NASA 
        were unable to launch a Shuttle servicing mission in time to 
        prevent a ``gap'' in Hubble science?

        4.  How would you personally, or on behalf of the Committee, 
        evaluate a free flyer (rehosting) instead of a servicing 
        mission?

Dr. Steve Beckwith

        1.  How important are the contributions that would be expected 
        from extending the life of the Hubble Space Telescope when 
        compared to advancements expected from other astronomical 
        programs at NASA to be launched in the next decade, such as the 
        James Webb Space Telescope?

        2.  What are the comparative strengths and weaknesses of a 
        Shuttle servicing mission, a robotic servicing mission, and a 
        mission to fly elements of a Hubble servicing mission rehosted 
        on a new telescope?

        3.  Should either a Hubble servicing mission (whether by robot 
        or by Shuttle) or a new telescope as the Hubble Origins Probe 
        be a higher priority for funding than other astronomical 
        programs at NASA?

Dr. Paul Cooper, General Manager
    Please describe the robotic mission to service the Hubble Space 
Telescope that you are helping to develop for NASA with particular 
emphasis on the following questions:

        1.  To what extent do you agree or disagree with the assessment 
        by The Aerospace Corporation of a robotic servicing mission?

        2.  What are the costs, strengths, and weaknesses of the 
        robotic servicing mission, compared to a Shuttle servicing 
        mission and a mission to fly elements of a Hubble servicing 
        mission rehosted on a new telescope?

Dr. Colin Norman
    Please briefly describe your proposal for NASA to build and fly a 
new telescope called the Hubble Origins Probe with particular emphasis 
on the following questions:

        1.  How, if at all, does your proposal differ from those 
        analyzed by The Aerospace Corporation?

        2.  What contributions could your proposed telescope make to 
        science compared to those that could be made by the Hubble if 
        it were serviced by either the Shuttle or a robotic servicing 
        mission?

        3.  What are the comparative costs, strengths, and weaknesses 
        of your proposal, a Shuttle servicing mission and a robotic 
        servicing mission?

Dr. Joseph H. Taylor, Jr.

        1.  To what extent, and in what ways, was the Decadal Survey 
        premised on the Hubble Space Telescope having additional 
        instruments that were to be added by a servicing mission? Would 
        the loss of the Hubble cause you to entirely rethink your 
        priorities? Would that change if the Hubble Origins Probe or a 
        similar rehost mission is launched?

        2.  How important are the contributions that would be expected 
        from extending the life of the Hubble Space Telescope when 
        compared to advancements expected from other astronomical 
        programs at NASA to be launched in the next decade, such as the 
        James Webb Space Telescope?

        3.  Should either a Hubble servicing mission (whether by robot 
        or by Shuttle) or a new telescope as the Hubble Origins Probe 
        be a higher priority for funding than other astronomical 
        programs at NASA?
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Attachment B

 Committee on the Assessment of Options for Extending the Life of the 
                         Hubble Space Telescope

LOUIS J. LANZEROTTI, Chair, Consultant, Bell Laboratories, Lucent 
        Technologies, and New Jersey Institute of Technology
STEVEN J. BATTEL, Battel Engineering, Scottsdale, Arizona
CHARLES F. BOLDEN, JR., TechTrans International, Inc., Houston, Texas
RODNEY A. BROOKS, Massachusetts Institute of Technology Computer 
        Science and Artificial Intelligence Laboratory, Cambridge, 
        Massachusetts
JON H. BRYSON, The Aerospace Corporation (retired), Chantilly, Virginia
BENJAMIN BUCHBINDER, Consultant, Bonaire, Antilles
BERT BULKIN, Lockheed Missiles and Space (retired), Woodbridge, 
        California
ROBERT F. DUNN, U.S. Navy (retired); National Consortium for Aviation 
        Mobility, Alexandria, Virginia
SANDRA M. FABER, University of California Observatories/Lick 
        Observatory, University of California, Santa Cruz
B.JOHN GARRICK, Independent Consultant
RICCARDO GIACCONI, Johns Hopkins University and Associated 
        Universities, Inc., Washington, D.C.
GREGORY HARBAUGH, Sun N Fun Air Museum, Lakeland, Florida
TOMMY W. HOLLOWAY, NASA (retired), Houston, Texas
JOHN M. KLINEBERG, Space Systems/Loral (retired), Redwood City, 
        California
VIJAY KUMAR, University of Pennsylvania, Philadelphia, Pennsylvania
FORREST S. McCARTNEY, U.S. Air Force (retired), Indian Harbour Beach, 
        Florida
STEPHEN M. ROCK, Stanford University, Stanford, California
JOSEPH ROTHENBERG, Universal Space Network
JOSEPH H. TAYLOR, JR., Princeton University, Princeton, New Jersey
ROGER E. TETRAULT, McDermott International, Inc. (retired), Punta 
        Gorda, Florida
RICHARD H. TRULY, U.S. Navy (retired); National Renewable Energy 
        Laboratory, Golden, Colorado

 Committee on the Assessment of Options for Extending the Life of the 
                         Hubble Space Telescope

Statement of Task

    The committee will conduct an independent assessment of options for 
extending the life of the Hubble Space Telescope. The study will 
address the following tasks:

        1.  Assess the viability of a Space Shuttle servicing mission 
        that will satisfy all recommendations from the CAIB (Columbia 
        Accident Investigation Board), as well as ones identified by 
        NASA's own Return-to-Flight activities. In making this 
        assessment, compare the risks of a space Shuttle servicing 
        mission to HST with the risks of a Shuttle mission to the ISS 
        and, where there are differences, describe the extent to which 
        those differences are significant. Estimate to the extent 
        possible the time and resources needed to overcome any unique 
        technical or safety issues associated wit HST servicing that 
        are required to meet the CAIB recommendations, as well as those 
        from the Stafford-Covey team.

        2.  Survey other available engineering options, including both 
        on-orbit robotic intervention and optimization of ground 
        operations, that could extend the HST lifetime.

        3.  Assess the response of the spacecraft to likely component 
        failures and the resulting impact on servicing feasibility, 
        lost science, and the ability to safely dispose of HST at the 
        end of its service life.

        4.  Based upon the results of the tasks above, provide a 
        benefit/risk assessment of whether extension of HST service 
        life, via (a) a Shuttle servicing mission if one id deemed 
        viable under task #1 and/or (b) a robotic servicing mission if 
        one is deemed viable under task #2, is worth the risks 
        involved. The assessment should include consideration of the 
        scientific gains from different options considered and of the 
        scientific value of HST in the larger context of ground and 
        space-based astronomy and science more broadly. Special 
        attention should be paid to the practical implications of the 
        limited time available for meaningful intervention robotically 
        or via the Shuttle.

    The committee is not expected to make either organization or 
budgetary recommendations, but it may need to consider cost as a factor 
in weighing the relative benefits of alternative approaches.
    The committee will investigate the possibility of providing an 
interim report to NASA that addresses a portion of the items in the 
task statement in advance of delivering a full final report if such an 
approach is deemed feasible and able to provide early, credible answers 
to the questions being considered.

 Committee on the Assessment of Options for Extending the Life of the 
                         Hubble Space Telescope

Recommendations

1.  The committee reiterates the recommendation from its interim report 
that NASA should commit to a servicing mission to the Hubble Space 
Telescope that accomplishes the objectives of the originally planned 
SM-4 mission.

2.  The committee recommends that NASA pursue a Shuttle servicing 
mission to HST that would accomplish the above stated goal. Strong 
consideration should be given to flying this mission as early as 
possible after return-to-flight.

3.  A robotic mission approach should be pursued solely to de-orbit 
Hubble after the period of extended science operations enabled by a 
Shuttle astronaut servicing mission, thus allowing time for the 
appropriate development of the necessary robotic technology.

Findings

Chapter 3--The Impact of Hubble: Past and Future

<bullet>  The Hubble telescope is a uniquely powerful observing 
platform because of its high angular optical resolution, broad 
wavelength coverage from the ultraviolet to the near infrared, low sky 
background, stable images, exquisite precision in flux determination, 
and significant field of view.

<bullet>  Astronomical discoveries with Hubble from the solar system to 
the edge of the universe are one of the most significant intellectual 
achievements of the space science program.

<bullet>  The scientific power of Hubble has grown enormously as a 
result of previous servicing missions.

<bullet>  The growth in the scientific power of Hubble would continue 
with the installation of the two new instruments, Wide Field Camera-3 
(WFC3) and the Cosmic Origins Spectrograph (COS), planned for SM-4.

<bullet>  A minimum scientifically acceptable servicing mission would 
install batteries, gyros, WFC3, and a FGS. The installation of COS is 
highly desirable.

<bullet>  Ground-based adaptive optics systems will not achieve 
Hubble's high degree of image stability or angular resolution at 
visible wavelengths for the foreseeable future.

<bullet>  Servicing Hubble expeditiously is highly desirable.

Chapter 4--HST Observatory Assessment and Lifetime Projection

<bullet>  The HST avionics system is currently in a fully operable 
state and retains redundancy on all subsystems. Its performance is 
monitored regularly and is well understood by the operations team where 
it is possible to credibly forecast system performance, failure trends, 
and replacement requirements.

<bullet>  Previous human servicing missions have successfully carried 
out unforeseen repairs as well as executing both planned and proactive 
equipment and scientific upgrades. The current excellent operational 
status of the observatory is a product of these past efforts.

<bullet>  The robotic mission plan presented by NASA accomplishes the 
minimum mission servicing goals of installing batteries, gyros, and 
scientific instruments and potentially a fine-guidance sensor, but does 
not install other important life-extension upgrades that were also 
planned for SM-4. It is also unclear whether the fine guidance sensor 
replacement or unforeseen repairs can be effected on a robotic mission 
without exceptional mission complexity and associated telescope risk.

<bullet>  The HST avionics system reliability model used by NASA 
projects a 50 percent reliability interval of 4.5 years. Using October 
2004 as a starting date, this interval establishes May 2009 as the 
latest approximate date for vehicle servicing with at least a 50 
percent chance for success.

<bullet>  The flexibility for repairing unforeseen anomalies has been 
demonstrated on past Shuttle servicing mission. With this flexibility, 
the avionics system is projected to operate with a reliability value of 
0.69 at three years and 0.45 at five years in support of science 
operations following a Shuttle servicing mission.

<bullet>  The baseline robotic mission is judged to have minimal 
capacity for responding to and repairing unforeseen anomalies. Assuming 
robotic servicing in February 2009 (based on a 5.4 year ``most likely'' 
readiness date), the system reliability is projected to be 0.41 at the 
time of servicing, 0.18 after three years of post-servicing science 
operations, and less than 0.10 at five years.

<bullet>  Battery lifetime trends are consistent with supporting 
science operations through April 2008 and maintaining the telescope 
optical system in a highly protected Level-1 safe-hold state until July 
2009. Loss of capability to do science due to optical failure is most 
likely to occur in the May 2011 timeframe but could occur as early as 
December 2009 based on a worst-case projection.

<bullet>  If HST operations continue as they are, progressive gyroscope 
failures are likely to terminate observatory science operations around 
September 2007. Timely transition to a 2-gyro mode after software 
validation in the first half of 2005 could extend science operations 
into the mid-2008 timeframe.

<bullet>  HST gyro replacement by the Shuttle is a straightforward 
operation that has been accomplished successfully on past servicing 
mission. Replacement by a robotic mission is more complex, entailing 
the attachment of multiple RSU and ECU elements plus interface 
electronics on to the WFC3 instrument. The interface to the spacecraft 
system is made via an external cable routed to a test interface on the 
telescope computer.

<bullet>  FGS-2R is projected to fail in the October 2007 to October 
2009 timeframe. Its replacement is important if FGS redundancy is to be 
retained to support post-servicing science operations. Replacement of 
FGS-2R is straightforward on a Shuttle mission but considered to be 
high risk for a robotic mission. Therefore, it is possible to retain 
FGS redundancy by Shuttle servicing and potentially is possible via 
robotic servicing.

<bullet>  FGS-3 is projected to fail in the January 2010 to January 
2012 timeframe although its life can potentially be extended through 
the near-term use of FGS-2R. Failure in this timeframe will not 
strongly affect post-servicing science operations if FGS-2R is 
replaced.

<bullet>  Solar Panel performance is running according to expected 
trends such that sufficient power will be available to support HST 
science operations until at least 2014 in the case of either Shuttle or 
robotic servicing.

<bullet>  Retention of Reaction Wheel Assembly redundancy is important 
to maximize the likelihood of three to five years of post-servicing HST 
science operations. Replacement of RWA units has been performed 
successfully in response to an unexpected anomaly on two pervious 
Shuttle mission and is also possible, if required, on SM-4. Replacement 
of an RWA is not part of the planned robotic mission and may not be 
possible due to the RWA mounting locations on the telescope.

<bullet>  Analysis in combination with long-term avionics monitoring 
predicts that radiation damage should not interfere with science 
operations through the 2010 timeframe. Adverse radiation effects after 
2010 are more likely, with an increasing risk of avionics component 
failures if science operations are extended until 2014.

<bullet>  The projected termination in mid to late 2007 of science 
operations due to gyroscope failure and the projected readiness in 
early 2010 to execute the planned NASA robotic mission result in a 
projected 29-month interruption of science operations. No interruption 
of science operations is projected for a realistically scheduled SM-4 
Shuttle mission.

<bullet>  The planned NASA robotic mission is less capable than the 
previously planned SM-4 mission with respect to its response to 
unexpected failures and its ability to perform proactive upgrades. 
Combined with the projected schedule for the two options, the mission 
risk associated with achieving at least three years of successful post-
servicing science operations is significantly higher for the robotic 
option with the respective risk numbers at three years being 
approximately 30 percent for the SM-4 mission and 80 percent for the 
robotic mission.

Chapter 5--HST Robotic Servicing Assessment

<bullet>  The technology required for the proposed HST robotic 
servicing mission involves a level of complexity, sophistication, and 
maturity that requires significant development, integration, and 
demonstration to reach flight readiness and has inherent risks that are 
inconsistent with the need to service Hubble as soon as possible.

<bullet>  Technologies needed for proximity operations and autonomous 
rendezvous and capture have not been demonstrated in a space 
environment.

<bullet>  The addition of targets and fiduciaries and a better latching 
system by the astronauts on the SM-4 mission will enhance the ability 
of the subsequently launched de-orbit module to dock with the HST and 
provide a more precise alignment for de-orbit.

<bullet>  The control algorithms and software for lidar and camera 
based control of the grapple arm are mission-critical technologies that 
have not been flight-tested.

<bullet>  Technologies needed for autonomous manipulation, disassembly 
and assembly, and for control of manipulators based on vision and force 
feedback have not been demonstrated in space.

<bullet>  The Goddard Space Flight Center HST project has a long 
history of HST Shuttle servicing experience, but little experience with 
autonomous rendezvous and docking or robotic technology development, or 
with the operations required for the baseline HST robotic servicing 
mission.

<bullet>  The proposed HST robotic servicing mission involves a level 
of complexity that is inconsistent with the current 39-month 
development schedule and would require an unprecedented improvement in 
development performance compared with that of space missions of similar 
complexity. The likelihood of successful development of the HST robotic 
servicing mission within the baseline 39-month schedule is remote.

<bullet>  ``Conclusion'': The very aggressive schedule for development 
of a viable robotic servicing mission, the commitment to development of 
individual elements with incomplete systems engineering, the complexity 
of the mission design, the current low level of technology maturity, 
the magnitude of the risk-reduction efforts required, and the inability 
of a robotic servicing mission to respond to unforeseen failures that 
may well occur on Hubble between now and the mission, together make it 
unlikely that NASA will be able to extend the science life of HST 
through robotic servicing. (page 74).

<bullet>  Many of the concerns raised by the committee regarding the 
risk of attempting to robotically service the Hubble telescope could be 
mitigated for future programs through planning for robotic servicing in 
the initial spacecraft design.

Chapter 6--Space Shuttle Servicing of Hubble

<bullet>  A complete inspection of the orbiter thermal protection 
system can be accomplished on a Shuttle servicing mission to HST using 
the SRMS (Shuttle remote manipulator system) and the SRMS/OBSS (orbiter 
boom sensor system).

<bullet>  The orbiter thermal protection system repairs can be 
accomplished on a Shuttle servicing mission to HST following the 
development of worksite and repair techniques for ISS (International 
Space Station) to meet the CAIB (Columbia Accident Investigation Board) 
and NASA requirements.

<bullet>  The ISS safe haven offers operational flexibility and time to 
adapt to real-time problems in the case of a critical ascent impact 
event that is both detected and repairable, or that affords the option 
of a Shuttle rescue mission. However, the availability of the ISS safe 
haven is zero-fault-tolerant, requires significant pre-positioning of 
supplies, and therefore, has significant risks due to its limited 
redundancy and margins.

<bullet>  An HST Shuttle rescue mission can be ready on the second 
launch pad. There would be some costs and ISS schedule delays, 
principally because of the impact of parallel orbiter processing. 
Limited time would be available to execute a rescue.

<bullet>  Meeting the CAIB and NASA requirements (relative to 
inspection and repair, safe haven, Shuttle rescue, orbital debris, and 
risk to the public) for a Shuttle servicing mission to HST is viable.

<bullet>  The extravehicular activities (spacewalks) for transferring 
the crew from a damaged vehicle on a Shuttle HST flight, although 
complex, are well within the experience base of the Shuttle program.

<bullet>  To avoid putting the Hubble at risk and to maintain 
continuous science operation the HST servicing mission could be flown 
as early as the seventh flight after return-to-flight without a 
critical operational impact on the ISS.

<bullet>  Major HST mission preparation work for a Shuttle servicing 
mission to HST can be deferred until after return-to-flight. This would 
avoid a significant expenditure of human resources until the Shuttle is 
flying again.

<bullet>  Compared to the total cost of flying a Shuttle flight, the 
resources required to overcome unique technical or safety issues 
involved in flying a Shuttle mission to HST are small and are well 
within the experience base of work done in the past to enable unique 
Shuttle missions.

<bullet>  ``Comment'': The committee believes that careful planning 
for, and implementation of, the additional HST-unique activities to 
meet the CAIB and NASA requirements will result in substantially lower 
actual costs to service the HST using the Shuttle than those projected 
above. [NASA estimates of $1.7B-$2.4B.] (Page 87).

<bullet>  The Shuttle crew safety risks of a single mission to ISS and 
a single HST mission are similar and the relative risks are extremely 
small.

<bullet>  In the case of every documented anomaly encountered during 
the conduct of extravehicular activities (EVAs) on all four HST 
missions, the onboard crew, in conjunction with its ground-based 
mission control team, worked around each anomaly and successfully 
completed every task planned for these missions.

<bullet>  Space Shuttle crews, in conjunction with their ground-based 
mission control teams, have consistently developed innovative 
procedures and techniques to bring about desired mission success when 
encountering unplanned for or unexpected contingencies on-orbit.

<bullet>  The risk in the mission phase of a Shuttle HST servicing 
mission is low.

Chapter 7--Benefit/Risk Assessment of Hubble Space Telescope Servicing 
        Options

<bullet>  Although a quantitative mission risk assessment does not 
exist for either a human or a robotic servicing mission to the Hubble 
Space Telescope, the committee's qualitative evaluations lead it to 
conclude that the human servicing mission poses a low risk to mission 
success. Conversely, the robotic mission risk is high, considering the 
short time frame available for system development and testing, and the 
uncertainty concerning robotic performance.
    Chairman Boehlert. The hearing will come to order. I want 
to welcome everyone here this morning for our hearing on the 
vexing question of what to do about the Hubble Space Telescope. 
Here is our quandary. On the one hand, everyone acknowledges 
that the Hubble has been a sparkling jewel in the crown of 
American science, but on the other, there is disagreement about 
how and whether to save it, and that disagreement will come to 
a head in the coming weeks, once the proposed budget for Fiscal 
2006 is released. Regardless of whether it actually zeros out a 
Hubble mission, as has been widely rumored. So our goal this 
morning is to do our homework for the upcoming debate. We have 
before us leading authorities on the Hubble, representing a 
variety of viewpoints, and their answers to our questions will 
help Congress choose among the options for the Hubble: letting 
it die, saving it with a Shuttle mission, saving it with a 
robotic mission, or sending up a new version of the telescope.
    I think that Congress faces three fundamental questions 
regarding the Hubble in today's fiscal environment. The 
broadest is, is Hubble--is it worth saving the Hubble even if 
that means taking money away from other NASA programs such as 
exploration? Second, and more narrowly, we need to ask is it 
worth saving the Hubble even if that means taking money away 
from other NASA science programs? And finally, if the answer to 
either of those questions is yes, then we need to ask what is 
the best way to save the Hubble, or at least its science, in 
terms of costs and risk? I come to today's hearing as an 
agnostic on all three questions. The first question on my list, 
about the priority of Hubble in relation to other NASA 
programs, is in some ways beyond the scope of today's hearing, 
but what we will hear today will help us evaluate it. As I 
said, I don't have a view on that right now, but let me 
reiterate that I think all aspects of space science and Earth 
science need to be viewed as continuing priorities for NASA, 
even as the Exploration Initiative moves forward. If the 
ultimate payoff of exploration is a changed view of the world 
and of the universe, then science like that performed by Hubble 
certainly is a model of exploration.
    We will get some answers today to the second question on my 
list, about Hubble's relation to other science priorities. 
Astronomy is a model for other fields in its creation of a 
consensus list of priorities for every decade. Dr. Taylor, in 
his written testimony, gives a remarkably clear and 
straightforward answer to our question about science 
priorities, and let me thank you, Dr. Taylor. I will be very 
interested to hear our other witnesses comment on his thoughts.
    Finally, on the narrow question of how, rather than whether 
to save the Hubble, I am also eager to hear our witnesses 
interact today. I am especially eager to hear Dr. Lanzerotti's 
response to Mr. Cooper's testimony about the feasibility of 
robotics, and Dr. Norman's responses to Dr. Lanzerotti's 
testimony about the viability of ``rehosting'' the Hubble 
instruments. So, I hope we can clarify today what is at stake 
in upcoming Hubble debate.
    I would dearly love to save the telescope. It has 
outperformed everyone's fondest hopes, and has become a kind of 
mascot for science, maybe even for our planet. One can't help 
but root for it. I will always remember when Sean O'Keefe and I 
were having lunch in the Member's dining room one day last 
year, and one of the waiters came up to him, and said: ``Save 
the Hubble.'' And I didn't put him up to it. But this can't be 
an emotional decision or one based on what we would do in an 
alternative universe that lacked fiscal constraints or 
uncertainty.
    We have to make hard choices about whether a Hubble mission 
is worth it now, when moving ahead is likely to have an adverse 
impact on other programs, including quite possibly other 
programs in astronomy. The whole matter is, as I said at the 
outset, vexing. I hope that by the end of this hearing, I will 
be better prepared to help make those hard choices.
    [The prepared statement of Chairman Boehlert follows:]
          Prepared Statement of Chairman Sherwood L. Boehlert
    I want to welcome everyone here this morning for our hearing on the 
vexing question of what to do about the Hubble Space Telescope. Here's 
our quandary: On the one hand everyone acknowledges that the Hubble has 
been a sparkling jewel in the crown of American science, but on the 
other there is disagreement about how and whether to save it. And that 
disagreement will come to a head in the coming weeks once the proposed 
budget for fiscal 2006 is released--regardless of whether it actually 
zeros out a Hubble mission, as has been widely rumored.
    So our goal this morning is to do our homework for the upcoming 
debate. We have before us leading authorities on the Hubble, 
representing a variety of viewpoints. And their answers to our 
questions will help Congress choose among the options for the Hubble--
letting it die, saving it with a Shuttle mission, saving it with a 
robotic mission, or sending up a new version of the telescope.
    I think that Congress faces three fundamental questions regarding 
the Hubble in today's fiscal environment. The broadest is: Is it worth 
saving the Hubble even if that means taking money away from other NASA 
programs such as exploration? Second, and more narrowly, we need to 
ask: Is it worth saving the Hubble even if that means taking money away 
from other NASA science programs? And finally, if the answer to either 
of those questions is yes, then we need to ask: What's the best way to 
save the Hubble (or at least its science) in terms of cost and risk.
    I come to today's hearing as an agnostic on all three questions.
    The first question on my list--about the priority of Hubble in 
relation to other NASA programs--is in some ways beyond the scope of 
today's hearing, but what we hear today will help us evaluate it. As I 
said, I don't have a view on that now. But let me reiterate that I 
think all aspects of space science and Earth science need to be viewed 
as continuing priorities for NASA even as the exploration initiative 
moves forward.
    If the ultimate payoff of exploration is a changed view of the 
world and of the universe, then science like that performed by Hubble 
certainly is a model of exploration.
    We will get some answers today to the second question on my list--
about Hubble's relation to other science priorities. Astronomy is a 
model for other fields in its creation of a consensus list of 
priorities for every decade. Dr. Taylor in his written testimony gives 
a remarkably clear and straightforward answer to our question about 
science priorities. I will be very interested to hear our other 
witnesses comment on his thoughts.
    Finally, on the narrow question of how (rather than whether) to 
save the Hubble, I am also eager to hear our witnesses interact today. 
I am especially eager to hear Dr. Lanzerotti's responses to Mr. 
Cooper's testimony about the feasibility of robotics, and Dr. Norman's 
responses to Dr. Lanzerotti's testimony about the viability of 
``rehosting'' the Hubble instruments.
    So, I hope we can clarify today what's at stake in upcoming Hubble 
debate. I would dearly love to save the telescope. It has outperformed 
everyone's fondest hopes and has become a kind of mascot for science, 
maybe even for our planet. One can't help but root for it.
    I'll always remember when Sean O'Keefe and I were having lunch in 
the Member's Dining Room one day last year, and one of the waiters came 
up to him and said, ``Save that Hubble!'' And I had not put him up to 
it.
    But this can't be an emotional decision or one based on what we 
would do in an alternative universe that lacked fiscal constraints or 
uncertainty. We have to make hard choices about whether a Hubble 
mission is worth it now, when moving ahead is likely to have an adverse 
impact on other programs, including quite possibly other programs in 
astronomy. The whole matter is, as I said at the outset, vexing. I hope 
that by the end of this hearing, I'll be better prepared to make those 
hard choices.
    Mr. Gordon.

    Mr. Gordon. Good morning, and I would like to join the 
Chairman in welcoming the witnesses to today's hearing.
    We have important--an important issue to address this 
morning, namely, the future of the Hubble Space Telescope. The 
Hubble Space Telescope has been one of the world's premier 
scientific instruments for more than a decade. Observations 
made by Hubble have greatly expanded our knowledge of the 
universe, and continue to rewrite the textbook in astronomy.
    Thus, it was a surprise to me when NASA Administrator last 
year cancelled the long-planned mission to service and upgrade 
the Hubble telescope. That cancellation led to a large outcry 
from both scientists and the public at large, and I guess even 
a few waiters in the House dining room. And through the efforts 
of Senators and Representatives of both parties, including our 
own Representative, Mark Udall, NASA became aware of the 
intense Congressional interest in the future of Hubble.
    As a result, the NASA Administrator asked the National 
Academies to undertake a review of the options for extending 
the life of the Hubble Space Telescope, as well as whether it 
makes sense for--from a scientific standpoint to do so. The 
National Academies accepted the challenge, and assembled a very 
distinguished committee to conduct the review. They delivered 
their report last year, and Dr. Lanzerotti, the Chairman of the 
Committee, will present their findings and recommendations 
today.
    I must say that I was very impressed with both the quality 
and the clarity of the Committee's report. The Committee worked 
its way through a very complex set of issues, and wound up 
issuing a very clear set of findings and recommendations. Dr. 
Lanzerotti and his Committee, as well as the National 
Academies' staff, deserve our thanks for a job well done.
    And at this point, I think the burden of proof has to be 
placed on anyone who would differ markedly from their 
conclusions. In that regard, I am disappointed that NASA was 
not invited to today's hearing. I think we need to hear how 
NASA views the National Academies report, and how it plans to 
respond to its recommendations. For example, the National 
Academies Committee concluded that, and I quote: ``The Shuttle 
crew safety risk of a single mission to ISS and a single HST 
mission are similar, and the relative risks are extremely 
small.'' Does NASA agree or disagree with that conclusion, or 
for that matter, how would NASA compare the risk of having 
astronauts service Hubble with the risk of sending astronauts 
back to the surface of the Moon, and how would it compare the 
benefits?
    In addition, there are concerns within the scientific 
community that funding a Hubble service mission would force 
deep cuts in other planned space science initiatives. However, 
when I asked NASA Administrator O'Keefe to answer for the 
record whether the Shuttle-related costs of the SM4 Hubble 
Servicing Mission would have to come out of the scientific 
budget, his response was as follows, and I quote: ``This long-
planned servicing mission is considered grandfathered--
grandfathered in. Under this policy and the projected budget 
for the mission was included--in the five year budget run-out 
under the Office of Space Flight.'' Where did the money go? And 
is NASA management now planning to walk away from an earlier 
budgetary commitment to the NASA science program on the 
allocation of the Hubble servicing cost?
    These questions take on increased importance in the current 
budgetary environment. We have all heard reports that the 
funding for the servicing Hubble would not be in NASA's FY 2006 
budget request in order to free up money for other initiatives, 
such as the President's Exploration Initiative. We will know 
within a week whether or not these reports are accurate. If 
they are, and I think this Congress will need to take a hard 
look at the priorities behind such a cut. While I support human 
exploration beyond low-Earth orbit, I want the Administration 
to make sure that it is adequately paid for, and not funded by 
simply canceling or cutting other important activities in NASA 
non-exploration science and technology accounts.
    Mr. Chairman, this morning's hearing will be this House 
Committee's first hearing on space issues in the 109th 
Congress. I am confident it will not be the last. There are a 
whole host of issues related to NASA and the Nation's space and 
aeronautics program that need Congress' attention. I look 
forward to working with you and the rest of the Committee to 
address those issues.
    And in closing, I would like to once again welcome our 
witnesses, and I look forward to their testimony.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Good morning. I'd like to join the Chairman in welcoming the 
witnesses to today's hearing. We have an important issue to address at 
this morning's hearing--namely, the future of the Hubble Space 
Telescope.
    The Hubble Space Telescope has been one of the world's premier 
scientific instruments for more than a decade. Observations made with 
Hubble have greatly expanded our knowledge of the universe--and 
continue to rewrite the textbooks in astronomy!
    Thus, it was a surprise to many when the NASA Administrator last 
year canceled the long-planned mission to service and upgrade the 
Hubble telescope. That cancellation led to a large outcry from both 
scientists and the public at large. And through the efforts of Senators 
and Representatives of both parties, including our own Rep. Mark Udall, 
NASA became aware of the intense congressional interest in the future 
of Hubble.
    As a result, the NASA Administrator asked the National Academies to 
undertake a review of the options for extending the life of the Hubble 
Space Telescope--as well as whether it made sense from a scientific 
standpoint to do so. The National Academies accepted the challenge, and 
it assembled a very distinguished committee to conduct the review. They 
delivered their report late last year, and Dr. Lanzerotti, the Chair of 
that committee, will present their findings and recommendations today.
    I must say that I was very impressed with both the quality and the 
clarity of the committee's report. The committee worked its way through 
a very complex set of issues and wound up issuing a very clear set of 
findings and recommendations. Dr. Lanzerotti and his committee, as well 
as the National Academies staff, deserve our thanks for a job well 
done.
    At this point, I think that the burden of proof has to be placed on 
anyone who would differ markedly with their conclusions. In that 
regard, I am disappointed that NASA was not invited to today's hearing.
    I think we need to hear how NASA views the National Academies 
report, and how it plans to respond to its recommendations. For 
example, the National Academies committee concluded that:

         ``The Shuttle crew safety risks of a single mission to ISS and 
        a single HST mission are similar and the relative risks are 
        extremely small.''

    Does NASA agree or disagree with that conclusion? Or for that 
matter, how would NASA compare the risks of having astronauts service 
Hubble with the risks of sending astronauts back to the surface of the 
Moon? And how would it compare the benefits?
    In addition, there are concerns within the scientific community 
that funding a Hubble servicing mission would force deep cuts in other 
planned space science initiatives. However, when I asked NASA 
Administrator O'Keefe several years ago to answer for the record 
whether the Shuttle-related costs of the SM-4 Hubble servicing mission 
would have to come out of the science budget, his response was as 
follows:

         ``This long-planned servicing mission is considered 
        `grandfathered in' under this policy, and the projected budget 
        for the mission was included in the five-year budget runout 
        under the Office of Space Flight.''

         [Source: Record of 2/27/02 Hearing with NASA Administrator 
        O'Keefe, p. 166]

    Where did that money go? And is NASA management now planning to 
walk away from its earlier budgetary commitment to the NASA science 
program on the allocation of Hubble servicing costs? These questions 
take on increased importance in the current budgetary environment.
    We have all heard reports that funding for servicing Hubble will 
not be in NASA's FY 2006 budget request in order to free up money for 
other activities, such as the President's exploration initiative. We 
will know within a week whether or not those reports are accurate. If 
they are, I think that this Congress will need to take a hard look at 
the priorities behind such a cut.
    While I support human exploration beyond low-Earth orbit, I want 
the Administration to make sure that it is adequately paid for and not 
funded by simply canceling or cutting other important activities in 
NASA's non-exploration science and technology accounts.
    Mr. Chairman, this morning's hearing will be the Science 
Committee's first hearing on a space issue in the 109th Congress. I am 
confident that it will not be the last--there are a whole host of 
issues related to NASA and the Nation's space and aeronautics programs 
that need Congress's attention. I look forward to working with you and 
the rest of the Committee to address those issues.
    In closing, I'd again like to welcome our witnesses, and I look 
forward to your testimony. Thank you.

    Chairman Boehlert. Thank you very much, Mr. Gordon, and 
just let me tell you. We intentionally did not invite NASA for 
two basic reasons. One, they are unlikely to say anything much 
of substance in advance of the release of the budget, and 
secondly, we wanted to hear about hearing all the options, not 
about Administration policy, and so that is what this hearing 
is designed to do, expose us to the various options.
    With that, let me proudly introduce the new Chairman of the 
Subcommittee on Space and Aeronautics, Mr. Calvert of 
California.
    Mr. Calvert. Thank you, Mr. Chairman, for holding today's 
hearing on the future of the Hubble Space Telescope. There is 
no doubt that the Hubble is a national treasure, extraordinary 
scientific instrument. It opened up our eyes and has dazzled us 
with images of galaxies, stars, and planets. The Hubble has 
also fundamentally changed our understanding of the universe, 
and forced scientists to rethink many of their own theories. 
Thanks to Hubble, we have caught glimpses of black holes. We 
have watched comets slam into Jupiter. We have seen stars born 
and stars die. These are just a few examples of Hubble's 
accomplishments.
    Not since Galileo first peered into the looking glass 
nearly 400 years ago has a single telescope made such a 
difference in the way we see the heavens. Now, I am all--sure 
that we all agree that Hubble is great, but I suspect there may 
be differing opinions on what should be done going forward. The 
Hubble's life is limited. The window of opportunity to service 
it is narrow, and the costs and risks for servicing a mission 
are significant. It is valuable to understand and weigh the 
options which may extend the Hubble Space Telescope's useful 
lifespan. It is essential that we fully understand the 
comparative costs, strengths and weaknesses, of a Shuttle 
servicing mission, a robotic servicing mission, and a mission 
to fly elements of a Hubble servicing mission rehosted on a new 
telescope. In addition, an open and healthy debate about how a 
Hubble servicing mission, whether by robot or by Shuttle, 
should be prioritized against funding for other astronomy 
programs at NASA is welcome.
    While the Hubble amazing journey will some day, eventually, 
come to an end, it will not end the story, just as Galileo's 
looking glass wasn't the last telescope, the next chapter will 
feature bigger, better, and more capable observatories, which 
will provide even more amazing discoveries.
    Again, thank you, Mr. Chairman, for assembling this 
outstanding panel. I look forward to their testimony. I look 
forward to working with my colleagues on the Committee and 
addressing the Hubble Space Telescope and other important 
issues in the 109th Congress. I thank you for the opportunity 
you gave me. I want to apologize in advance. I must leave 
around 11:15 to attend a Steering Committee, which will be 
deciding how the appropriations side of this process is going 
to work, and so, that is also important, so--but I look forward 
to being fully briefed on this after the hearing.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Calvert follows:]

            Prepared Statement of Representative Ken Calvert

    Mr. Chairman, thank you for holding today's hearing on the future 
of the Hubble Space Telescope. There is no doubt that the Hubble is a 
national treasure and an extraordinary scientific instrument. It has 
literally opened our eyes to the Universe and dazzled us with images of 
galaxies, stars, and planets. The Hubble has also fundamentally changed 
our understanding of the Universe, and forced scientists to re-think 
many of their theories. Thanks to Hubble, we've caught glimpses of 
black holes, we've watched comets slam into Jupiter, we've seen stars 
being born and stars die, and these are but a few examples of Hubble's 
accomplishments. Not since Galileo first peered into his looking glass 
nearly 400 years ago has a single telescope made such a difference in 
the way we see the heavens.
    Now, I'm sure we all agree that the Hubble is great, but I suspect 
there may be differing opinions on what should be done going forward. 
The Hubble's life is limited, the window of opportunity to service it 
is narrow, and the costs and risks for a servicing mission are 
significant. It is valuable to understand and weigh the options which 
may extend the Hubble space telescope's useful lifespan. It is 
essential that we fully understand the comparative costs, strengths, 
and weaknesses of a Shuttle servicing mission, a robotic servicing 
mission, and a mission to fly elements of a Hubble servicing mission 
placed on a new telescope. In addition, an open and healthy debate 
about how a Hubble servicing mission, whether by robot or by Shuttle, 
should be prioritized against funding for other astronomy programs at 
NASA is welcome.
    While the Hubble's amazing journey will some day eventually come to 
an end, it will not be the end of the story, just as Galileo's looking 
glass wasn't the last telescope. The next chapter will feature bigger, 
better, and more capable observatories which will provide even more 
amazing discoveries.
    Thank you, Mr. Chairman for assembling this outstanding panel. I 
look forward to their testimony, and I look forward to working with my 
colleagues on the Committee in addressing the Hubble Space Telescope 
and other important issues in the 109th Congress.
    Now I want to apologize at the outset for not being able to stay 
for the entirety of today's hearing as I have important and requisite 
work to attend to as a Member of the House Steering Committee. I do 
look forward to getting briefed on the full debate from today's 
proceedings at a later time.

    Chairman Boehlert. Thank you very much, Chairman Calvert.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to examine the options for the future of the Hubble Space 
Telescope.
    This committee is privileged to have jurisdiction over our space 
programs because we have the opportunity to consider funding requests 
to develop new capabilities for exploration on behalf of all Americans. 
We strive to involve all Americans in our efforts by sharing publicly 
in our challenges and our successes. Working in collaboration with 
NASA, The Aerospace Corporation, the National Academy of Sciences, 
scientists, and other space industries, it is important that this 
committee understands the contributions and expectations for continued 
funding for the Hubble Space Telescope. In order to ensure tax-payer 
dollars are being spent wisely, it is imperative that we continually 
evaluate and assess the effectiveness of our space programs and 
servicing missions. Thus, we need to listen to the recommendations and 
positions from our experts in the field.
    I am aware that Members of the science community are concerned that 
a servicing mission to Hubble might come at the expense of other 
planned projects within NASA's science program if the science office 
had to absorb all the costs of a servicing mission.
    I am pleased the Committee is having this hearing today because it 
will help us prepare for future hearings once the Administration's 
budget request is released next week. I am aware of the possibility 
that a robotic mission to service the Hubble Space Telescope may be 
dropped from the Fiscal Year 2006 budget. With four options available 
to determine the course in which the Hubble Telescope will be funded, 
it is critical we examine each proposal very carefully.
    I look forward to hearing the testimony from our panel of 
witnesses.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Chairman Boehlert. I thank the Chairman for calling this 
very important meeting. In addition, I would like to thank our 
distinguished group of witnesses for agreeing to testify here today on 
Options for the Hubble Telescope.
    The space exploration research program has been one of the most 
successful research programs in the history of this country. Because of 
it, our nation benefited many lifesaving medical tests, accessibility 
advances for the physically challenged, and products that make our 
lives more safe and enjoyable.
    The Hubble Space Telescope is a national asset. Scientists all over 
the world use the orbiting observatory to get a view of the universe 
that they can't get any other way. This telescope has already made 
major contributions to the science of astronomy.
    However, on Saturday, Jan. 17 2004, NASA announced they will not 
send a scheduled servicing team to the Hubble Space Telescope, and 
instead will crash this great scientific instrument into the ocean in 
2008.
    NASA, now strapped for funding, will not make the scheduled 2006 
Shuttle to repair failing gyroscopes and batteries.
    The resulting void created by not scheduling badly needed repairs 
to the Hubble leaves many questions about how we will continue our 
space exploration and observation programs.
    I pledge to do what I can to help our space program so these 
important endeavors can be achieved and the space program can flourish 
in the future. As a Senior member of the Science Committee, I will work 
closely with my House colleagues to assist NASA in meeting their goals.
    I am a firm believer that the United States will continue our space 
program that has accomplished so much in the areas of research and 
science.

    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    I'm glad to have this opportunity to express my strong support for 
keeping Hubble alive and for making it more productive than it has ever 
been.
    We all remember when Administrator O'Keefe first announced the 
cancellation of the Hubble servicing mission. There was a tremendous 
outcry from the academic community and scientists worldwide, as well as 
from the general public.
    Congress also expressed great concern and fought the 
Administrator's decision. A resolution I introduced last year urging 
NASA to appoint an independent panel of experts to review options for 
carrying out the servicing mission drew 77 co-sponsors. So I was 
pleased when Administrator O'Keefe saw the value in Hubble's future 
scientific productivity and decided to look into a number of servicing 
options. Congress backed him on the decision to keep Hubble alive, 
providing nearly $300 million in FY05 for a repair mission.
    In my view, the best news of last year for Hubble was when the 
National Research Council report called it `the most powerful 
astronomical facility ever built,' and recommended that NASA commit to 
a Shuttle servicing mission to Hubble, one that would accomplish the 
objectives planned for the original mission, including the installation 
of the two new instruments.
    So it was with great concern that I learned about NASA's plans to 
zero out funding for a repair mission in FY06. After all that we have 
learned from the Hubble assessment report and all that we know about 
Hubble's potential to produce even more spectacular science for years 
to come, it is incomprehensible to me that this Administration would so 
hastily ignore the panel's scientific recommendations and shut down the 
planned repair mission.
    It is unfortunate that we don't have a NASA witness on the panel, 
but I look forward to hearing from all the witnesses today about how 
they view Hubble's future. In particular, I'd like to express my 
appreciation to Dr. Lanzerotti and the other members of the Hubble 
assessment panel for the hard work and careful analysis that went into 
their report. I'd also like to thank Steve Beckwith for his dedication 
to Hubble and for all that he does to help produce its amazing science 
and imagery.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman, thank you for bringing us together today with this 
superb panel of witnesses to examine the quandary of what to do with 
the Hubble Space Telescope (HST). I am honored to sit with you for the 
first time during my tenure as a Member of the House of Representatives 
and I look forward to serving the third Congressional district of 
Missouri on the Committee on Science.
    The Hubble Space Telescope has opened the eyes of astronomers and 
the public alike to faraway galaxies, new discoveries in the field of 
astrophysics and never seen before imagery.
    Today, we will hear about the options available for coping with the 
upcoming Hubble battery failure, which is anticipated to be as early as 
2007. Various advocates propose the following four options: not service 
the station (which requires that we still de-orbit Hubble); send an 
astronaut-manned Shuttle to service the station; send a robotic mission 
to service the station; or launch a new spacecraft and integrate 
portions of the existing telescope into the new one. I come to this 
hearing with no particular preconceived notions about which option is 
preferable.
    In the future, we will have important decisions to make about the 
Hubble Space Telescope's relative worth to the scientific field, the 
financial cost of various options, human safety involved in a potential 
Shuttle mission, and the reliability of a robotic mission. I look 
forward to hearing the testimony of the panelists and hearing their 
counsel on how to best balance these multiple concerns while working to 
advance the scientific knowledge that Hubble has brought the world. 
Thank you.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Chairman Boehlert, Ranking Member Gordon,

    I want to thank you for organizing this important hearing on the 
Hubble Space Telescope. We will all have some difficult decisions to 
make regarding the future of the Hubble and this hearing will help to 
identify issues that need to be included in the debate.
    First commissioned into service in 1990, the Hubble Space Telescope 
is by all measures an extraordinary success in terms of the 
contributions it has made to further our understanding of astronomy, 
space science, and physics. Hubble's placement above the atmosphere 
allows it to focus in on distant bodies free of the atmospheric 
interference that affects all ground based telescopes. This gives 
Hubble the ability to collect data in the ultraviolet and near infrared 
that are filtered by the atmosphere. Even at optical wavelengths, the 
Hubble produces images that are currently unmatched in clarity by any 
other telescope.
    A study by the National Academies chaired by Dr. Lanzerotti 
reviewed the popular press and peer-reviewed publications and found 
that Hubble-generated data contributed to a number of astronomical 
`firsts' or the experimental confirmation of previously proposed 
theories. Hubble currently has 1500 registered users, and request for 
access exceeds that available by a factor of seven.
    The adage that ``a picture is worth a thousand words'' applies to 
the Hubble beyond the 19 terabytes of data already collected. The 
spectacular images we have all seen have no doubt inspired countless 
numbers of students to consider future careers in science and 
engineering--not just in astronomy, but in other disciplines that have 
contributed to the design and operation of the Hubble, such as computer 
science and engineering, physics, mechanical engineering, and robotics.
    The operation of the Hubble originally anticipated a series of 
servicing missions involving astronauts and equipment transported by 
the Space Shuttle. Three servicing missions have been successfully and 
safely completed involving the replacement, repair, or upgrade of many 
of the key components of the original telescope. So many improvements 
have been made through these three previous missions that the National 
Academies' report describes today's Hubble as different from the 
telescope that was launched in 1990.
    A fourth and final Shuttle servicing mission was originally 
scheduled for 2004-2005. After the tragic loss of the Shuttle Columbia, 
Administrator O'Keefe canceled plans for this scheduled servicing 
mission. The scientific community criticized this decision to abandon 
support for the Hubble and NASA proposed a robotic servicing mission 
that would perform the essential servicing tasks for the telescope's 
continued survival. Critical components, (e.g., batteries) are nearing 
their end of life, and the spacecraft will likely fail around the end 
of the decade without their replacement.
    Without servicing, it is estimated that the Hubble's batteries and 
other systems will cause the irreversible deterioration of the 
spacecraft sometime between 2008 and 2009. Even if no repairs are made, 
a robotic mission will be needed around 2013 to initiate the controlled 
safe de-orbit of the spacecraft.
    Aside from the option to forego repairs, the National Academies and 
The Aerospace Corporation have identified three repair scenarios, each 
of which is estimated to cost approximately $2 billion. Those involve:

        <bullet>  Send the Shuttle to service the telescope. Like any 
        Shuttle mission, this would put astronauts at risk. It would 
        also delay completion of the ISS.

        <bullet>  Send a robotic mission to service the telescope. The 
        studies mentioned above have raised grave doubts as to whether 
        this mission could be ready in time. The contractor designing 
        the robot takes issue with those studies.

        <bullet>  Launch a new ``platform'' with the equipment that was 
        designed to be added to the Hubble (this is sometimes called 
        ``re-hosting'') and perhaps include new equipment as well (the 
        proposed ``Hubble Origins Probe'' or HOP). This would leave a 
        gap in Hubble science, as the new platform would probably not 
        be ready until after the Hubble stopped operating.

    Cost estimates were reviewed by the General Accountability Office, 
which found NASA's justification for the lacking detail or 
unjustifiable.
    Aside from the cost issues raised by the GAO, I am extremely 
concerned about the safety of all NASA missions. Administrator O'Keefe 
canceled future Shuttle servicing missions because such missions lack 
`safe haven' access to the International Space Station. A robotic 
servicing mission has been proposed, but the National Academies and The 
Aerospace Corporation have both criticized that approach because it 
involves the development unproven technologies that may not be 
available before irreversible deterioration occurs to the Hubble.
    A third option to re-host ground based Hubble components in a new 
telescope also has uncertainties and involves a two year period between 
the demise of an unserviced Hubble and the commissioning of its 
replacement.
    Our oversight responsibilities compel us to ask the hard questions 
that will foster healthy debate on the issues associated with these 
options. It is the job for all of us to help facilitate the continued 
progress in the sciences and technology in a way that does not cause 
unreasonable risks to our astronauts.

    Chairman Boehlert. Today's list of very distinguished 
witnesses impresses even those of us who have been around here 
a long time, and I want to thank all of them for being 
resources for this committee. And I want to thank you all for 
your testimony submitted in advance, and as I indicated in my 
opening statement, Dr. Taylor, it is so refreshing to have 
someone do what you did in your testimony, give us some 
guidance on priorities. I have found through all my years on 
the Committee that so often, there is a reluctance to assign 
any priorities to anything by the scientific community, because 
everything is so darn important, and they are reluctant to 
assign a lower category to some other discipline, because there 
but for the grace of God go I, say the people assigning that. 
So, thank you very much.
    Our witnesses today are Mr. Gary Pulliam, Vice President 
for Civil and Commercial Operation for The Aerospace 
Corporation; Dr. Lou Lanzerotti, Chair, Committee on the 
Assessment of Options for Extending the Life of the Hubble 
Space Telescope; Dr. Joseph Taylor, Professor of Physics, 
Princeton University; Dr. Steve Beckwith, Director, Space 
Telescope Science Institute and Professor of Physics and 
Astronomy at Johns Hopkins University; Dr. Paul Cooper, Vice 
President and Deputy General Manager, MD Robotics; and Dr. 
Colin Norman, Professor of Physics and Astronomy, Johns Hopkins 
University. Thank you all very much.
    I would ask that you try to summarize your statement. The 
entire statement will be in the record at this juncture, in 
relatively five minutes or so. 300 seconds is not nearly 
adequate enough time to say what you want to say, but if you 
can summarize the statements, that will give us more of an 
opportunity to pick your brains, and that is what we are here--
and that is what the mission is all about.
    So with that, Mr. Pulliam, you are up first.

    STATEMENT OF GARY P. PULLIAM, VICE PRESIDENT, CIVIL AND 
        COMMERCIAL OPERATIONS, THE AEROSPACE CORPORATION

    Mr. Pulliam. Good morning, Mr. Chairman, to Mr. Gordon, 
Committee Members and staff. I am pleased to represent The 
Aerospace Corporation today, and to appear to you--to appear 
before you as you deliberate the future of the Hubble Space 
Telescope.
    As a private, nonprofit corporation, The Aerospace 
Corporation has provided engineering and scientific services to 
government space organizations for over 40 years. We provide a 
stable, objective expert source of analysis. We are focused on 
the government's best interests, with no profit motive or 
predilection for any particular design or technical solution.
    As our primary activity, Aerospace operates a federally-
funded research and development center sponsored by the Under 
Secretary of the Air Force and managed by the Space and Missile 
Systems Center in El Segundo, California. Aerospace also 
undertakes projects for NASA and other civil agencies that are 
in the national interest and are consistent with our corporate 
rule.
    In June 2004, Admiral Craig Steidle, the Associate 
Administrator for Exploration Systems, asked Aerospace to 
perform an analysis of alternatives for servicing options for 
Hubble. Today, I will briefly describe the characteristics of 
an analysis of alternatives, how we conducted this analysis, 
and our findings.
    An analysis of alternatives is a formal analytical tool, 
which Aerospace has used on large Department of Defense space 
programs. An analysis of alternatives is properly used to 
compare alternatives, and to make broad conclusions based on 
analytical data. However, the analysis does not evaluate 
specific programs, or their execution to plans, nor does it 
recommend specific solutions to the problem.
    For this analysis of alternatives for Hubble, we adopted 
our processes to NASA's needs. We involved key stakeholders in 
our analysis, including the Hubble program office, and the 
Office of Space Science Evaluation team. Our measures of 
effectiveness were cost, schedule, development risk, mission 
risk, and capability. For cost, we used life cycle cost. For 
the schedule measure, we used development time. Development 
risk is the combination of the probability that Hubble will 
still be in the required state for servicing, and the 
development time of the particular option. In other words, an 
important element of the evaluation of servicing options is can 
we get there before Hubble suffers a failure. The mission risk 
is the probability of mission success for any particular 
alternative. And finally, a capability measure is the 
estimation of the instrument capability compared to the 
baseline of Hubble, should the next Shuttle servicing mission 
have flown.
    We combined several measures into an analysis of expected 
value, to examine the cost benefit of each alternative, 
compared with its probability of success. For this analysis, 
there are two important dates to consider, the need date for 
servicing Hubble, which we estimate to be early 2009, and the 
need date to de-orbit Hubble, which we estimate to be 2013.
    Mr. Chairman, here are our findings. As I present them, I 
am mindful of the Committee's request for me to compare the 
strengths and weaknesses of the various approaches. First, a 
disposal mission is required to provide a controlled re-entry. 
Without this mission, Hubble would pose an unacceptable 
casualty risk to the population. A disposal mission does not 
prolong Hubble's life, nor enhance its science capabilities. 
Our analysis is that a de-orbit mission would cost between $300 
million and $1.1 billion, depending on the approach taken.
    Second, a combined robotic servicing and de-orbit mission 
would cost between $1.3 billion and $2.2 billion, and carries 
high risk, because of the time required to develop the 
capability, and Hubble's likely degradation or failure in 2008 
or 2009. Strengths of this alternative are that it can extend 
Hubble's life expectancy and enhance its science capabilities. 
Weaknesses in this approach are the requirement to arrive at 
Hubble before failure, performing unprecedented robotic 
operations, and the fact that Hubble may fail for some other 
reason even after a successful servicing mission.
    Third, rehosting options, meaning launching a new satellite 
to perform the science mission, would cost $1.9 and $2.3 
billion. This mission is technically and programmatically 
feasible. The strength is that this option does not depend on 
Hubble's condition. The weakness is that there would be a 
period of several years where we would have no science, and the 
new observatory might not have as robust a capability as 
Hubble.
    Fourth, a baseline servicing Shuttle servicing mission, 
while not analyzed by Aerospace, may have a higher probability 
of success than the robotic mission. We did not analyze the 
strengths and weaknesses of the Shuttle servicing mission, but 
we did present the SM4 costs and schedule estimate as a 
baseline comparison. And finally, safe haven options, which 
might allow for astronaut servicing missions, still do not 
remove all of the associated risks with human space flight.
    When viewed from the expected value perspective, missions 
such as a rehost mission score well, because the launch date is 
not tied to Hubble's demise. In other words, these missions 
have a higher probability of success, because there is no 
requirement to get to Hubble by 2009. Robotic missions, while 
providing an enhanced capability, score lower because of the 
aggressive development schedule required to get to Hubble 
before it fails, and because of the higher mission risk. And as 
mentioned earlier, a de-orbit mission provides no enhanced 
capability.
    Finally, the Committee asked me to address our confidence 
in our study. This analysis of alternatives used proven tools 
and proven approaches, Aerospace's best technical experts in 
the field, and went through the rigorous internal review 
process at Aerospace. I see this as exemplary of Aerospace's 
finest analytic capability. However, it is important for the 
Committee to realize that this was an analysis of alternatives, 
not an examination of the programmatics of any particular 
program presently in development.
    Our analysis was completed in August 2004. A new analysis 
performed today, that included an independent assessment of the 
progress of the development of the robotic and grapple arm 
would certainly refine the results, but in our opinion, would 
not change the basic fact that a robotic servicing mission is a 
challenging undertaking.
    Now, Mr. Chairman, I thank the Committee for the 
opportunity to summarize our report, and I look forward to your 
questions.
    [The prepared statement of Mr. Pulliam follows:]

                 Prepared Statement of Gary P. Pulliam

Mr. Chairman, distinguished Committee Members and staff:

    I am pleased to have the opportunity to share with you the findings 
of a recent Aerospace Corporation assessment of robotic servicing 
alternatives for the Hubble Space Telescope. Before I begin, I would 
like to present an overview of Aerospace and how we came to provide 
this study for NASA.

The Aerospace Corporation

    The Aerospace Corporation is a private, nonprofit corporation, 
headquartered in El Segundo, California. It was created in 1960 at the 
recommendation of Congress and the Secretary of the Air Force to 
provide research, development and advisory services to the U.S. 
government in the planning and acquisition of space, launch and ground 
systems and their related technologies. The key features of Aerospace 
are that we provide a stable, objective, expert source of engineering 
analysis and advice to the government, free from organizational 
conflict of interest. We are focused on the government's best 
interests, with no profit motive or predilection for any particular 
design or technical solution.
    As its primary activity, Aerospace operates a Federally Funded 
Research and Development Center sponsored by the Under Secretary of the 
Air Force, and managed by the Space and Missile Systems Center in El 
Segundo, California. Our principal tasks are systems planning, systems 
engineering, integration, flight readiness verification, operations 
support and anomaly resolution for the DOD, Air Force, and National 
Security Space systems. Through our comprehensive knowledge of space 
systems and our sponsor's needs, our breadth of staff expertise, and 
our long-term, stable relationship with the DOD, we are able to 
integrate technical lessons learned across all military space programs 
and develop systems-of-systems architectures that integrate the 
functions of many separate space and ground systems.
    The Aerospace Corporation also undertakes projects for civil 
agencies that are in the national interest. Such projects contribute to 
the common good of the Nation while broadening the knowledge base of 
the corporation. Aerospace has supported many NASA assessments of human 
and robotic space programs, addressing technical, cost and schedule 
risks.
    Aerospace does not compete with industry for government contracts, 
and we do not manufacture products. The government relies on Aerospace 
for objective development of pre-competitive system specifications, and 
impartial evaluation of competing concepts and engineering hardware 
developments, to ensure that government procurements can meet the 
military user's needs in a cost-and-performance-effective manner.
    Aerospace employs about 3,450 people, of whom 2,400 are scientists 
and engineers with expertise in all aspects of space systems 
engineering and technology. The professional staff includes a large 
majority, 74 percent, with advanced degrees, with 29 percent holding 
Ph.Ds. The average experience of Members of the Technical Staff (MTS) 
is more than 25 years. We recruit more than two-thirds of our technical 
staff from experienced industry sources and the rest from new 
graduates, university staff, other nonprofit organizations, government 
agencies, and internal degree programs.
    In January of 2004, NASA Administrator Sean O'Keefe announced the 
cancellation of one last planned Space Shuttle mission to service the 
Hubble Space Telescope. Under pressure from Congress and the public, 
NASA agreed to look for alternative ways to extend Hubble's life.

Analysis of Alternatives

    NASA requested that The Aerospace Corporation perform a nonadvocate 
assessment of Hubble Space Telescope (HST) robotic servicing 
alternatives. These alternatives encompassed a broad range of options 
in the following families: ground life extension, disposal, rehosting 
instrumentation on other platforms, robotic servicing, and the baseline 
Shuttle Servicing Mission 4 (SM-4) previously planned for 2005. In 
developing this Analysis of alternatives (AoA), Aerospace assessed each 
alternative against a set of measures of effectiveness (MOEs), which 
included cost, schedule, risk, and the resulting capability of the 
alternative to perform science relative to the planned post-SM-4 
baseline.
    The key findings of this AoA are:

        <bullet>  Ground-based life extension does not replace 
        instruments and does not address the risk associated with 
        uncontrolled HST re-entry.

        <bullet>  Disposal-only alternatives have relatively low cost, 
        but provide no HST life extension or added science capability 
        comparable to the current configuration.

        <bullet>  Rehost alternatives provide higher value at 
        equivalent cost to the robotic servicing missions, but may 
        result in a two- to seven-year science gap. This higher value 
        results from the lower development and mission risks.

        <bullet>  Robotic servicing alternatives, based on estimated 
        development schedules, are susceptible to arriving too late. 
        HST may no longer be in a serviceable state. Furthermore, they 
        are subject to an aging observatory that may fail for some 
        other reason during the three years following servicing.

        <bullet>  SM-4 has costs in the same range as the rehost and 
        robotic servicing alternatives, has higher probability of 
        mission success than the robotic servicing missions, and does 
        not suffer from the gap in science associated with rehost 
        alternatives.\1\ Other means to perform SM-4 with reduced risk 
        by launching a safe habitat or relocating HST to the vicinity 
        of the International Space Station (ISS) were examined, but 
        would require more development time and be more costly.
---------------------------------------------------------------------------
    \1\ SM-4 was not analyzed by the study team but was included for 
completeness as a baseline for comparison. SM-4 and the safe habitat 
approaches have unique human space flight risks that were beyond the 
scope of this study and therefore not assessed. Furthermore they would 
compete against the ISS Shuttle manifest.
---------------------------------------------------------------------------

Introduction

    The Hubble Space Telescope (HST), launched in 1990, is the first 
and most widely known of NASA's great observatory missions. Orbiting 
the Earth at an altitude of 320 nautical miles, HST is the only 
orbiting observatory outside the Earth's atmosphere with the capability 
to observe simultaneously in the near-IR, visible, and ultraviolet 
wavelengths. HST observing sensitivity is beyond what is achievable, in 
most cases, with Earth-based telescopes, and its achievable angular 
resolution equals or surpasses state-of-the-art ground-based 
facilities. During its lifetime, HST has produced detailed images of 
stars, galaxies, and nebulae that have led to major scientific 
discoveries in astronomy and astrophysics, and have captured the 
public's imagination with spectacular views of the universe.
    HST, whose subsystems and instruments were designed to be serviced 
on-orbit by astronauts using the Space Shuttle, has been visited four 
times for this purpose (Servicing Missions 1, 2, 3A, and 3B). The 
previous Shuttle servicing missions have accomplished a broad array of 
repairs and upgrades, including the change-out and installation of 
newer, more capable instruments, replacing solar arrays, batteries, and 
flight computers, and adding new radiators and thermal shielding.
    The next Space Shuttle servicing mission, Servicing Mission 4 (SM-
4), was scheduled for 2005 and manifested to replace the Corrective 
Optics Space Telescope Axial Replacement (COSTAR) and Wide Field 
Planetary Camera 2 (WFPC2), with the Cosmic Origins Spectrograph (COS) 
and Wide Field Camera 3 (WFC3), respectively. SM-4 would also further 
extend the observatory's mission life by replacing failed components 
and those components approaching their end of life.\2\ Due to safety 
concerns surrounding the loss of the Space Shuttle Columbia and crew, 
NASA canceled future Shuttle flights to HST and embarked on a process 
to assess other options in order to understand the implications of 
HST's possible eventual demise, including that of an uncontrolled re-
entry. NASA's Goddard Space Flight Center (GSFC) took the lead in 
developing a non-Shuttle-based servicing approach, using robotic 
technologies. This concept, known as the Hubble Space Telescope Robotic 
Servicing and De-orbit Mission (HRSDM), employs robotic vehicles to 
accomplish the major servicing elements of the canceled SM-4.
---------------------------------------------------------------------------
    \2\ In addition to COS and WFC3, SM-4 was to replace the gyros, 
batteries, fine guidance sensors (FGS), and install the aft shroud 
cooling system (ASCS) and thermal protection material.
---------------------------------------------------------------------------
    In this context, NASA requested that The Aerospace Corporation 
prepare a non-advocate assessment of HST servicing alternatives. These 
alternatives encompass a broad range of options including doing nothing 
at all, minimal replacement of components close to failure, partial and 
full replacement of old instruments, rehosting the existing SM-4 
replacement instruments or equivalent on other spacecraft, and 
providing a safe habitat in the vicinity of HST so that an astronaut-
performed mission might be reconsidered. Each alternative was assessed 
against a set of measures of effectiveness (MOEs), which included cost 
and schedule, risk, and the resulting capability of HST to perform 
science relative to the planned post-SM-4 baseline capability. The 
capability impact assessment did not address science quality or value, 
nor did it address how that science might be impacted by constraints 
imposed by various alternatives. It was assumed that the science value 
of each instrument has already been assessed as part of the instrument 
selection process. The capability impact assessment findings were made 
available to the Office of Space Science Effectiveness Team (OSSET) for 
comments on the impact on science value from each alternative.
    The study team began with research into HST design and servicing 
history. Next, the team considered a broad array of alternative 
servicing approaches that spanned the spectrum of options covered by 
the study. Finally, the team grouped and consolidated similar 
alternatives into a final set of 21 alternatives that were 
representative of the trade space to be examined. The 21 alternatives 
provided natural incremental changes in the complexity of servicing 
operations and in capability enhancement. A number of robotic 
alternatives that bounded the trade space were included in the set, 
including a minimum mass alternative to de-orbit HST, and an 
alternative that provided power and gyro augmentation with and without 
a robotic arm used for a grapple-assisted docking. More complex 
alternatives, such as one that accomplished the goals of the GSFC 
HRSDM, and an ambitious mission to accomplish all of the tasks from SM-
4, were also included. Each alternative included a component to de-
orbit HST at the end of its useful life. The alternatives were 
described with sufficient detail to allow evaluation and comparison 
with other alternatives.
    In parallel with the development of alternatives, MOEs were 
defined, in terms of cost and schedule, risk, and capability impact. 
Cost and schedule MOEs examined absolute cost and development time, as 
well as cost risk and schedule risk. The risk MOEs included development 
risk and also the probability of mission success, assuming the 
alternatives could be successfully developed. The capability impact MOE 
was defined as the estimated HST instrument capability associated with 
each of the alternatives.
    A measure for safety was also defined early in the study as the 
mission risk weighted re-entry casualty expectation. This measure, 
however, turned out not to be a strong discriminator among 
alternatives, and is therefore not included in this report. For cases 
where the disposal mission is successful, the re-entry casualty 
expectation is zero. Without the disposal mission, the casualty 
expectation is approximately one in 250.

Description of Alternatives

    The HST study trade space examined is illustrated in Figure 1. 
Alternatives were defined in four broad categories: rehost, disposal, 
service, and safe habitat. Rehost alternatives flew the COS and/or WFC3 
instruments on new platforms. Disposal and service alternatives were 
accomplished by robotic means. Safe habitat referred to a Shuttle-based 
astronaut-servicing mission in concert with an astronaut safe habitat 
in the vicinity of HST. Because of recently imposed constraints on 
crewed servicing since the Columbia accident, emphasis was placed on 
robotic servicing and de-orbit concepts.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In defining specific alternatives, the study team sought a 
reasonable coverage of the trade space such as lowest-cost 
alternatives, alternatives that left the minimum residual mass attached 
to HST, minimal complexity alternatives, and high complexity 
alternatives in terms of number and type of operations required. The 
in-depth feasibility assessment of the alternatives was not performed 
as part of this study. However, a screening of the alternatives was 
performed to rule-out unrealistic alternatives. Key trades that 
manifest themselves in the MOEs are whether a robotic arm is used to 
assist in docking a de-orbit or servicing module and the number and 
type of servicing operations performed.
    The decision tree analysis in Figure 1 led to the following 
arrangement of alternatives (note that all but the ``do nothing'' 
alternative include a de-orbit mission):

    Alternative family A: Extension of HST through non-servicing means.

        A1:  Maintain HST through ground-based life-extension 
        workarounds, until end of life.

        A2:  Rehost replacement instruments on a new platform in low-
        Earth orbit (LEO), and de-orbit HST.

        A3:  Rehost replacement instruments or develop equivalent 
        capability on a new platform beyond LEO, and de-orbit HST.

    Alternative family B: Robotic missions.

        B1:  Robotic docking and disposal of HST without servicing.

        B2:  Robotic docking and minimal servicing of life extension 
        only, by addition of an external power and gyro system, 
        followed at end of life by a separate de-orbit mission.

        B3:  Life extension and instrument replacement servicing 
        alternatives, of varying complexity, combined with a de-orbit 
        mission.

        B4:  Life extension and instrument replacement servicing 
        alternatives, of varying complexity, followed at end of life by 
        a separate de-orbit mission.

    Alternative family C: Astronaut safe habitat missions.

        C1:  Relocate HST to the vicinity of the ISS to provide a safe 
        habitat for a Shuttle-based astronaut-servicing mission.

        C2:  Launch a habitat module to the HST orbit, to provide a 
        safe habitat for a Shuttle-based astronaut-servicing mission.

    Alternative family D: Original Shuttle Servicing Mission 4.

        D1:  Proceed with originally planned SM-4.

    Table 1 provides a summary of each of the 21 alternatives. SM-4 was 
not analyzed as part of this study; however, it was included in the 
findings for comparison. Data for the cost and schedule estimates for 
SM-4 were provided directly by NASA, and are unofficial, predecisional 
estimates.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Measures of Effectiveness (MOEs)

    Each alternative was assessed against a common of set of measures 
of effectiveness (MOEs), which included cost and schedule, risk, and 
the observatory capability relative to the post-SM-4 state.
    The cost MOE (MOE #1) was defined to be the life cycle cost (LCC). 
The LCC includes (as applicable to the given alternative) servicing and 
de-orbit module development, payload instrument development or 
modification, spacecraft bus, launch, program management, systems 
engineering, mission assurance, robotics, ground system development, 
servicing operations, three years of post-servicing HST mission 
operations, data analysis, and reserves. Cost estimates were calculated 
as probability density functions, based on triangular distributions for 
the main cost elements listed above. The cost MOE was defined as the 
75th percentile life cycle cost.
    The schedule MOE (MOE #2) was defined to be the development time 
from program authority to proceed (ATP) to launch. The schedule MOE was 
based on schedule estimating relationships developed for the rehost, 
de-orbit and robotic servicing, and safe haven option families. Like 
cost, schedule estimates were also developed as probability 
distributions for use in the calculation of MOE #3.
    Development risk (MOE #3) was the convolution of two probability 
distribution functions: the probability distribution of HST being in 
the required state, and the probability distribution of the development 
time. This convolution resulted in the probability of HST being in the 
required state when the servicing or disposal mission is launched. For 
servicing missions, the ``required state'' was defined as a state where 
a servicing mission can dock with HST, either cooperatively or 
uncooperatively, and where HST can be restored to full operations using 
only the replacement parts associated with the current design of the 
servicing alternative. For this study, this is essentially a state 
where gyros may have failed, but all other subsystems necessary for the 
functioning of HST are operating. For the disposal-only missions, the 
``required state'' was based on HST having not re-entered the Earth's 
atmosphere.
    The probability of mission success (MOE #4) is a measure of mission 
risk, and is based on the probability of successfully completing a 
sequence of events, beginning at launch and including proximity 
operations and docking, the sequence of servicing steps, three years of 
HST mission operations, and de-orbit. This measure is independent of 
development risk. In the analysis process, there is no linkage between 
systematic or workmanship errors that may occur prelaunch during 
development, but that manifest themselves later during the mission.
    The capability MOE (MOE #5) measures the predicted capability of 
the HST to perform science relative to its expected post-SM-4 
condition. There is no metric for future space exploration value and no 
weight is given to the value of one particular scientific investigation 
relative to another.

Summary of Results

    Figure 2 shows MOE #1 (life cycle cost) for the alternatives 
examined. The numbers following the bars provide the range of costs 
within each alternative family. In all cases, it is assumed that each 
system is a new development. However, for consistency, each alternative 
is credited with heritage for about 40 percent of the component mass of 
the system. Not unexpectedly, the astronaut-servicing missions that 
depend on a safe habitat (alternative family C) are the costliest; 
while the disposal alternatives (alternative family B1) are the least 
expensive. Note also that there is little difference between the cost 
of the rehost alternatives and the robotic servicing missions. The 
discriminator becomes risk, which will be discussed in the sections 
that follow.
    The rehost alternatives range in cost from $1.9B to $2.3B, with 
roughly $350M of that total reserved for the HST de-orbit mission 
(represented by B1-A). The disposal missions have the greatest 
variability in cost, ranging from $300M for the simplest de-orbit 
alternative, B1-D, to $1.1B for the B1-B alternative that uses grapple-
arm-assisted docking. Drivers on the range of B1 family costs are 
whether a robotic arm is utilized, estimated at approximately $300M, 
with the associated mass needed to support the robotic components on 
the de-orbit module. Additionally, integration of the arm significantly 
increases program management, systems engineering, and mission 
assurance (PM/SE/MA) costs over the no-arm option.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    For the servicing alternatives, costs range from $1.3B for the 
external gyro and battery augmentation option, which doesn't require a 
robotic arm (B2), to $2.2B for alternative B4-B, which uses a second 
separate mission for de-orbit. The cost variations across the B3 family 
are relatively small since the mass of these options is generally 
insensitive to the equipment manifested and the servicing steps that 
need to be accomplished.
    The discriminator in the costs for the de-orbit and robotic 
servicing options is the grapple arm. Once the grapple arm is included, 
adding the capability for a dexterous arm enables a large array of 
complex servicing tasks at an incremental cost of about $700M over the 
armless external servicing option, B2. The cost of the robotics was 
based on the development cost of the Canadarm-Shuttle Remote 
Manipulator System (SRMS), the European Robotic Arm (ERA) for the 
Columbus Orbital Facility of the ISS, and the Special Purpose Dexterous 
Manipulator (SPDM) developed for use on the ISS.
    For systems that do not use the grapple arm to dock, there are 
impacts to the design and implementation of the docking system, the 
requirement for precision maneuvers, reduced closing velocities, and 
small docking forces. In the case of a servicing mission, the closing 
rates and latching forces would be limited so as not to damage HST. 
However, in the case of unassisted docking for the purposes of de-
orbit, damage to HST may not be a central issue, and a different 
approach that allows higher forces to guarantee a hard dock and 
positive latching might be more appropriate.
    Figure 3 displays MOE #2, development schedule, and MOE #3, 
development risk. The HST predicted lifetime bar at the bottom of 
Figure 3 is based on two assumptions on the application of the HST 
reliability model. The ``HST Reliability Model'' end of serviceable 
state (EOSS) prediction (50th percentile probability of failure date) 
is calculated using the current failure rate assumptions in the 
reliability model. This model has been improved over the years by 
periodically updating the component failure rates based on actual HST 
operational data. It has been observed, however, that HST hardware has 
often lasted longer than predicted even with the periodic updates to 
the failure rate data. Moreover, the reliability model was originally 
designed and used to size the interval between servicing missions, and 
the validity of using the model to predict an end-of-life state has 
never been fully assessed. Consequently, experts familiar with HST 
often view the HST reliability model as overly conservative. To address 
this criticism, a different approach, recommended by NASA GSFC, to 
updating the failure rates was applied. In this approach, the failure 
rates for the top five reliability drivers were recomputed based solely 
on HST operational experience, having the effect of significantly 
deweighting them in the reliability calculation relative to the 
standard HST reliability model. This approach adds about 12 months of 
life to HST (50th percentile) and is labeled ``EOSS GSFC Assumptions.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As can be seen in Figure 3, the nominal development time exceeds 
the date associated with the end of serviceable state by a number of 
months in most cases. The B2 servicing option nominal development time 
almost meets this date. The probability of HST being in a serviceable 
state is less than or equal to 40 percent for the robotic servicing 
options, because they are tied to a HST demise in April 2009. The de-
orbit alternatives are tied to the earliest re-entry date of 2014, and 
can be developed within this time with a very high likelihood.
    The rehost options are also insensitive to the HST date of demise. 
However, there is a high likelihood that the rehost options cannot be 
developed before the HST end of life, resulting in a multi-year science 
gap with no HST-like observing capability in orbit.
    The development risk for the SM-4 alternative is listed at 74 
percent. This calculation is based on the earliest launch date provided 
by NASA, which is unofficial and predecisional. In assigning the SM-4 
launch date, NASA assumed that the SM-4 mission, if it were to fly, 
would be launched 31 months from the ATP date of October 2004. 
Conceivably, the mission could be moved forward in the return-to-flight 
schedule, which would decrease the development risk, with the 
constraint that sufficient astronaut training time be provided.
    Figure 4 presents the probability of mission success (MOE #4), and 
provides an example calculation of this value for the baseline 
alternative, B3-B. The definition of mission success is different for 
each alternative and is dependent on the number of events that must be 
accomplished to achieve the final success state. For all robotic 
servicing alternatives, the success state includes three years of 
science operations and a successful de-orbit. Clearly, there are more 
events that could lead to mission failure for servicing missions than 
for disposal missions. Hence, they tend to have a lower probability of 
mission success by their very nature. As can be seen in the B3-B 
example shown in Figure 4, the probability of mission success for the 
robotic servicing missions is dominated by the probability of 
successfully completing the servicing operations and by the probability 
of HST operating for three years, once the servicing is complete. Due 
to the age of the HST, after several years of post-service operations, 
other components and failure mechanisms begin to dominate the 
reliability estimates.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Note the 63 percent probability of mission success for the SM-4 
alternative. Astronaut servicing has been successfully demonstrated on 
four prior servicing missions. Probability of success for the servicing 
events is 100 percent. The Shuttle has failed once on launch and once 
on re-entry, leading to a 99 percent probability of success. Here 
again, the probability driving the success is achieving three years of 
post-servicing operations.
    Figure 5 provides the capability impact for each alternative 
relative to the post-SM-4 baseline (MOE #5), based on historical 
instrument utilization patterns. Clearly the disposal options have a 
resultant relative capability of zero. The B2 alternative, which 
provides power and rate-sensing augmentation, is also very low since 
new instruments are not added. Furthermore, in the existing HST 
architecture, the Near Infrared Camera and Multi-Object Spectrometer 
(NICMOS) Cooling System (NCS) is powered through a separate circuit 
that is not accessible by alternative B2. The result is that the NCS 
would need to remain operating directly off the HST battery bus, 
serviced by the HST solar arrays. This may not be possible once the HST 
batteries reach a state where they can no longer hold sufficient charge 
to support the NCS load. The rehost alternatives register at 40- or 78-
percent of the full post-SM-4 capability. This calculation is based on 
historical utilization data that indicates that new instruments 
generally crowd out the old instruments for observing time. This 
measure is imperfect since it does not account for the benefits of 
observing the same target simultaneously with two or more instruments, 
increased observing efficiency associated with the rehost alternatives 
outside of LEO, or the fact that each instrument in a smaller 
instrument suite may receive higher overall utilization.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Since the capability metric is based solely on instrument 
utilization, all alternatives that result in the same final instrument 
complement as the post-SM-4 configuration were scored 100 percent. 
There are additional servicing items accomplished by SM-4, such as the 
installation of the ASCS radiator on the external shroud to provide 
additional instrument detector thermal margin/control and improve HST's 
operational efficiency. This may provide a capability benefit through 
additional observing time; however, enhancements of this nature are not 
captured in this metric.
    Figure 6 summarizes the five major MOEs assessed in this study: 
cost, development time, development risk, mission risk, and capability 
impact. Mission risk and development risk are rated with qualitative 
descriptors. The uncertainty of the risk assessments for the robotic 
servicing alternatives is higher than for the de-orbit missions and the 
rehost options. While there are several missions yet to be launched 
that have features similar to the robotic servicing alternatives 
(autonomous docking using grapple arms, proximity operations, etc.), 
none have flown, and they are outside the historical experience base. 
For this reason, it is difficult to discriminate between the risks 
associated with any of the robotic servicing alternatives when the 
development and mission risks (one minus the probability of success) 
cluster in the 40 to 60 percent range.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A qualitative, but uncalibrated scale was selected to bin the 
mission risk values into the ``low,'' ``medium,'' and ``high'' risk 
categories. In general, mission success probabilities higher than 80 
percent were labeled low risk. Success probabilities between 80 percent 
and 40 percent were labeled medium risk, and success probabilities 
below 40 percent were labeled high risk. For medium-risk alternatives, 
the mission risk was dominated by the probability of HST operating 
successfully for three years after the servicing mission is completed. 
Hence, all astronaut-servicing options, including SM-4, have at least 
medium mission risk. The medium ranking on the SM-4 development risk is 
constrained by the Shuttle launch date assumption provided by NASA. In 
the high-risk category, mission risk was dominated both by the 
probability of success of the servicing mission, and the probability of 
success of the three years of operations.
    Figure 7 illustrates the results of combining three MOEs--
capability (MOE #5), development risk (MOE #3), and probability of 
mission success (MOE #4)--to produce an expected value calculation:

        Expected Value = MOE #3 * MOE #4 * MOE #5

    This combined expected value is plotted against life-cycle cost. 
Figure 7 indicates that the disposal alternatives provide no value 
relative to observatory capability. The expected value calculation also 
indicates that rehosting both the SM-4 instruments on new platforms 
provides higher value at equivalent cost to the robotic-servicing 
missions. This results from the lower development and mission risks, 
which includes launch and on-orbit operations, associated with the 
rehost alternatives. There is, however, a gap in science with the 
rehost alternatives that is not captured in this expected value 
assessment.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The robotic servicing alternatives cluster in the lower right 
corner of the plot, suggesting that the value of these alternatives is 
limited based on difficulty of the mission implementation, the 
complexity of the servicing mission, and the reliability of HST after 
servicing.
    SM-4 has costs in the same range as the rehost and robotic-
servicing alternatives. It has the added benefit of higher probability 
of mission success than the robotic servicing missions, and does not 
suffer from the gap in science associated with the rehost alternatives.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Biography for Gary P. Pulliam

    Gary P. Pulliam is Vice President of Civil and Commercial 
Operations. He was appointed to this position in December 2004. Pulliam 
directs all civil and commercial business at Aerospace and is 
responsible for contracts valued at $90 million annually. Key customers 
include the National Aeronautics and Space Administration, the National 
Oceanic and Atmospheric Administration, and a wide number of other 
civil and commercial organizations in the United States and overseas.
    In addition to his responsibilities in Civil and Commercial 
Operations, Pulliam is Corporate Director of Government Relations.
    Pulliam joined The Aerospace Corporation in 1994 as Director of 
Government Operations after serving for five years as Chief of Staff 
for U.S. Representative Earl Hutto of Florida's first congressional 
district. He concurrently was a professional staff member for the House 
Armed Services Committee, supporting Chairman Hutto, and was the 
Congressman's campaign manager.
    Pulliam was appointed General Manager in charge of non-Defense 
Department business at Aerospace in 1997. He has continued to handle 
government relations responsibilities while managing increasingly 
important civil and commercial programs.
    During a 20-year career in the Air Force, Pulliam served as a pilot 
and instructor and held assignments at the Aeronautical Systems Center 
in Dayton, Ohio. He also held several positions at the Pentagon, 
including an assignment as Legislative Liaison in the Office of the 
Secretary of the Air Force.
    He holds a Bachelor's degree in English from Clemson University and 
earned a Master's in Operations Management at the University of 
Arkansas. He also is a graduate of Harvard University's Kennedy School 
of Senior Managers in Government Program.
    The Aerospace Corporation, based in El Segundo, California, is an 
independent, nonprofit company that provides objective technical 
analyses and assessments for national security space programs and 
selected civil and commercial space programs in the national interest.

    Chairman Boehlert. And let me thank you for the skillful 
way in which you summarized it, and yet hit all the high 
points.
    Dr. Lanzerotti.

   STATEMENT OF DR. LOUIS J. LANZEROTTI, CHAIR, COMMITTEE ON 
 ASSESSMENT OF OPTIONS TO EXTEND THE LIFE OF THE HUBBLE SPACE 
 TELESCOPE, NATIONAL RESEARCH COUNCIL, THE NATIONAL ACADEMIES; 
 ACCOMPANIED BY GENERAL CHARLES F. BOLDEN, JR. (RET.), SENIOR 
VICE PRESIDENT AT TECHTRANS INTERNATIONAL, INC., AND JOSEPH H. 
ROTHENBERG, PRESIDENT AND MEMBER, BOARD OF DIRECTORS, UNIVERSAL 
                         SPACE NETWORK

    Dr. Lanzerotti. Mr. Chairman, Mr. Gordon, Members of the 
Committee, thank you for the opportunity to testify today. My 
name is Louis Lanzerotti, as the Chairman indicated. I appear 
in my capacity as Chair of the National Academies Committee on 
Assessment of Options to Extend the Life of the Hubble Space 
Telescope.
    In early 2004, the National Academies were asked by 
Congress and NASA to examine the issues surrounding the 
cancellation in January of that year of the final servicing for 
the Hubble telescope, and to consider both the value of 
preserving Hubble and the potential methods for doing so.
    The Academies formed a committee of members of outstanding 
international reputations and credentials. The committee 
concluded, after detailed examination of the evidence, that 
NASA should commit to a Hubble servicing mission that 
accomplished the objectives of the originally planned servicing 
mission.
    The committee's three principal conclusions related to the 
mission and the crew risk of servicing Hubble were the 
following. First, the need for timely servicing of Hubble due 
to lifetime limits on various engineering subsystems imposes 
difficult requirements on the development of a robotic 
servicing mission. The very aggressive schedule, the complexity 
of the mission system design, the low current level--current 
low level of technology maturity, with the notable exception of 
the Space Station Dexterous Manipulator System, make it highly 
unlikely that the science life of Hubble will be extended 
through robotic servicing.
    Secondly, a Shuttle servicing mission is the best option 
for extending the life of Hubble, preparing it--and preparing 
it for eventual robotic de-orbit. The committee believes that 
this servicing mission could reasonably occur as early as the 
seventh Shuttle mission following return-to-flight.
    Thirdly, the committee also concluded that the difference 
in the crew risk faced by a single Shuttle mission to the Space 
Station, already accepted, I noted, by NASA and the Nation, 
about 25 to 30 flights, and the crew risk of a single Shuttle 
mission to Hubble is very small. These conclusions were reached 
after in depth analytical examination of technical data, 
presentations by expert witnesses, extensive consultations with 
NASA and with industry, multiple site visits by committee 
members to the Goddard Space Flight Center, the Johnson Space 
Flight Center.
    The committee did not rely on any one source, such as the 
Aerospace report, in its deliberations, although Aerospace and 
we arrived at similar conclusions on some of the issues. The 
committee received inputs from many different sources, accepted 
no conclusions that it could not independently verify. Two of 
my esteemed committee members, General Charles Bolden, a 
veteran former astronaut whose Shuttle missions include the 
deployment of the Hubble telescope, and Mr. Joseph Rothenberg, 
former Associate Administrator of Space Flight at NASA 
Headquarters, and former Director of Goddard Space Flight 
Center, are present with me today, and will be available, and I 
will call on them for answers of some questions.
    When this study was initiated, I found a broad diversity of 
opinion among Committee members on both the question of whether 
Hubble should be preserved, agnostic, just as you said yourself 
are, Mr. Chairman, and if so, if it should be preserved, which 
method of doing so is preferable. After a vigorous and 
questioning exploration of the information presented to us, 
many committee meetings, subcommittee meetings, the Committee 
reached its conclusions in our report unanimously and without 
reservation.
    And with regard to Hubble, I will only very briefly note, 
many of you, all three of you on the--who have spoken on the 
dais, have indicated this. Results from Hubble have captured 
the imagination of scientists and of the general public around 
the world. Hubble has been one of the most important outreach 
instruments in terms of contributions to public awareness of 
science and of the universe in which we live. It might be 
argued, of course, that the universe will be here into the 
future, for other space missions to explore. However, I would 
like to note that a number of NASA space astronomy missions 
presently in flight, as well as planned, including the X-ray 
satellite Chandra, and the infrared satellite Spitzer, will not 
be as productive as they can be if synergistic data were not 
available from Hubble for the analyses and for carrying on. My 
colleague Professor Taylor here is here today, and will address 
this aspect of--and can address this aspect of Hubble much 
better than can I.
    Now, in comparing the various options. My Committee's 
engineering analyses concluded that Hubble most likely will 
need to terminate science operations by mid-2007. Therefore, 
any servicing mission must be accomplished by the end of 2007 
at the latest to prevent an interruption in science, and to not 
have an impaired Hubble to deal with. Even NASA's most 
optimistic projections places the robotic mission in December 
2007. This estimate was made when the NASA project hoped to 
receive full development funding in both 2005 and 2006, 
something that has not occurred. And Mr. Rothenberg can address 
that further, if there are some questions related to that.
    My committee compared a robotic servicing mission with a 
Shuttle servicing one. Important strengths of a Shuttle 
servicing mission include it has been done before, four times 
in fact, successfully. There is no new development required. 
All of the instruments and replacement equipment have been 
built, so there is low schedule risk. Numerous life extension 
upgrades that are not feasible on a robotics mission could be 
carried out with a Shuttle mission, and there have been--this 
has been proven to be the case time and again on the previous 
four missions, servicing missions.
    A human mission has the unique ability to respond to last 
minute requirements, usually driven by unforeseen failure, and 
again, we have shown that in previous servicing missions. The 
risks and costs of the eventual de-orbit mission for Hubble 
could be decreased substantially by pre-positioning a docking 
mechanism and associated fiducials. The main risks of a Shuttle 
servicing mission are that the schedule depends on a successful 
Shuttle return-to-flight, and a small crew risk, as I noted, by 
flying one more Shuttle mission. An additional Shuttle mission 
would also delay Space Station assembly by three to five 
months.
    The strengths of a robotic mission are that it avoids risks 
to astronauts of one additional Shuttle flight. It is exciting 
technology. Some of the technology may have applications to 
other space activities, although we have to recognize that 
Hubble was not designed for robotic servicing. The weaknesses 
of a robotic mission are primarily those associated with 
successfully achieving an extremely ambitious mission on a very 
aggressive schedule, and a very real risk to Hubble of using it 
as an uncooperative target vehicle for the demonstration of 
unproven robotic technology.
    My committee--if I might have one more minute to address 
dehosting--my committee had a number of important concerns on 
practical aspects of rehosting of Hubble instruments. For 
comparable science returns, NASA would need--certainly need to 
commit to, to fly and build, a new Hubble telescope. For 
mission success, this program would require a commitment of 
very significant resources, as well as very strong scientific 
and political support over an extended interval. Such a program 
has never been evaluated by the priority setting process of a 
Decadal Survey, which Dr. Taylor will outline. It was not clear 
to my committee that rehosting would involve significant cost 
savings over a Shuttle repair mission, particularly given the 
uncertainties of developing an entire new satellite that 
performs like the original Hubble. For these reasons, I 
personally have strong reservations regarding a rehosting 
option for Hubble, as compared to a Shuttle repair mission. If 
a Shuttle repair mission were proven not to be possible. For 
example, if return-to-flight of the Shuttle was not successful, 
then I would recommend that the tradeoffs involving a rehosting 
mission should be reviewed by the astronomy community in the 
context of its overall planning for space astronomy in the next 
decade, such--in the context of the Decadal Survey.
    In concluding, I reiterate that my committee found Hubble 
to be a scientific asset of extraordinary value to the Nation, 
that Shuttle serving is best--servicing is the best option for 
extending the life of Hubble. Thank you, and as I indicated, my 
colleagues, General Bolden and Mr. Rothenberg, and I are 
prepared to answer your questions.
    [The prepared statement of Dr. Lanzerotti follows:]
               Prepared Statement of Louis J. Lanzerotti

    Mr. Chairman, Ranking Minority Member, and Members of the 
Committee:

    Thank you for inviting me here to testify today. My name is Louis 
Lanzerotti and I am a Professor of Physics at the New Jersey Institute 
of Technology and a consultant for Bell Laboratories, Lucent 
Technologies. I appear today in my capacity as Chair of the National 
Research Council (NRC)'s Committee on Assessment of Options to Extend 
the Life of the Hubble Space Telescope.
    As you know the NRC is the unit of the National Academies that is 
responsible for organizing independent advisory studies for the Federal 
Government on science and technology. In early 2004 the NRC was asked 
by Congress and NASA to examine the issues surrounding the cancellation 
of the final servicing mission (SM-4) for the Hubble Space Telescope 
and to consider both the value of preserving Hubble and the potential 
methods for doing so. Specifically called out in the tasking was a 
requirement to survey the potentials of both on-orbit and robotic 
intervention. The National Research Council formed a committee under 
the auspices of the Space Studies Board and the Aeronautics and Space 
Engineering Board to respond to this request.
    After detailed examination of the astronomical evidence that was 
presented to it, the committee concluded that NASA should commit to a 
Hubble serving mission that accomplishes the objectives of the 
originally planned SM-4 mission. This includes the emplacement of two 
new instruments, the Cosmic Origins Spectrograph (COS) and the Wide 
Field Camera-3 (WFC3), as well as refurbishments of those spacecraft 
subsystems that are required to preserve the health and safety of the 
telescope, both for science as well as for eventual safe de-orbiting.
    The committee's principle conclusions related to the mission risk 
of servicing Hubble were:

        <bullet>  The need for timely servicing of Hubble, due to 
        lifetime limits on various engineering subsystems, imposes 
        difficult requirements on the development of a robotic 
        servicing mission. The very aggressive schedule, the complexity 
        of the over-all mission system design (which is in a 
        rudimentary state), the current low level of technology 
        maturity (other than the yet-to-be flown International Space 
        Station (ISS) Special Purpose Dexterous Manipulator System 
        (SPDM) and Grapple Arm (GA; essentially the Shuttle Remote 
        Manipulator System (RMS)), and the inability of a robotics 
        mission to respond to unforeseen failures that may well occur 
        on Hubble between now and a robotic servicing mission make it 
        highly unlikely that the science life of HST will be extended 
        through robotic servicing.

        <bullet>  A Shuttle servicing mission is the best option for 
        extending the life of Hubble and preparing the observatory for 
        eventual robotic de-orbit; such a mission is highly likely to 
        succeed. The committee believes that this servicing mission 
        could occur as early as the seventh Shuttle mission following 
        return-to-flight, at which point critical Shuttle missions 
        required for maintaining the ISS will have been accomplished.

    It is obvious that a robotic servicing mission to Hubble would 
involve no risk to astronauts. However, the committee was informed that 
the Nation is committed to 25 to 30 human Shuttle flights to the 
International Space Station (ISS). In reviewing all of the data 
presented to it, and in making use of the expertise of the committee's 
members who have deep experience in human space flight as well as in 
managing the Nation's human space flight program,

        <bullet>  The committee concluded that the difference between 
        the risk faced by the crew of a single Shuttle mission to the 
        ISS--already accepted by NASA and the Nation--and the risk 
        faced by the crew of a Shuttle mission to HST is very small. 
        Given the intrinsic value of a serviced Hubble, and the high 
        likelihood of success for a Shuttle servicing mission, the 
        committee judges that such a mission is worth the risk.

    As I noted, these conclusions were reached after a considerable, 
in-depth examination of technical data and documents, presentations by 
expert witnesses, extensive exchanges and consultations with NASA, 
industry and academic colleagues, and multiple site visits to the 
Goddard Space Flight Center and the Johnson Space Flight Center. The 
committee members have outstanding, world-recognized credentials in not 
only the diverse fields relevant to this study (ranging from risk 
assessment to astronomy) but also in their decades of direct, 
practical, experience with the NASA spacecraft systems and programs 
that were being evaluated. Two of my committee members, General Charles 
Bolden, a veteran former astronaut whose Shuttle missions include the 
deployment of the Hubble Space Telescope, and Mr. Joseph Rothenberg, 
former Associate Administrator of Spaceflight at NASA and former 
Director of the Goddard Space Flight Center, are present with me today 
and are available to answer questions.
    Before I continue I would like to note, and indeed stress, that 
when this study was initiated, I found a broad diversity of opinion 
among the committee members on both the question of whether Hubble 
should be preserved, and if so, which method of doing so was 
preferable. After all, from my personal experience and the experience 
of some members of the committee, almost no space researcher is ever in 
favor of turning off an operating spacecraft that is continuing to 
return excellent data. Hence, some members of the committee questioned 
at the outset of our study the very premise of keeping Hubble alive. It 
was only after a vigorous and painstaking exploration of the 
information presented to us, and considerable questioning analysis, 
that the committee reached the conclusions that are found in our 
report. Those conclusions were reached unanimously, and without 
reservation, by our entire membership.
    Of the many issues considered by the committee, I have been asked 
to focus today on 1) Hubble's contribution to science and what its loss 
or performance interruption would mean, and the 2) the comparative 
strengths and weaknesses of a Shuttle servicing mission, a robotic 
servicing mission, and a rehosting mission. I will therefore devote the 
remainder of my testimony to these issues.

The Past and Future Contributions of Hubble

    Over its lifetime, the HST has been an enormous scientific success, 
having earned extraordinary scientific and public recognition for its 
contributions to all areas of astronomy. Hubble is the most powerful 
space astronomical facility ever built, and it provides wavelength 
coverage and capabilities that are unmatched by any other optical 
telescope currently operating or planned. Much of Hubble's 
extraordinary impact was foreseen when the telescope was being planned. 
It was predicted, for example, that the space telescope would reveal 
massive black holes at the centers of nearby galaxies, measure the size 
and age of the observable universe, probe far enough back in time to 
capture galaxies soon after their formation, and provide crucial keys 
to the evolution of chemical elements within stars.
    All of these predicted advances have been realized, but the list of 
unforeseen Hubble accomplishments may prove even greater. Hubble did 
discover ``adolescent'' galaxies, but it also saw much farther back in 
time to capture galaxies on the very threshold of formation. Einstein's 
theory of general relativity was bolstered by the detection and 
measurement of myriad gravitational lenses, each one probing the 
mysterious dark matter that pervades galaxies and clusters of galaxies. 
Gamma-ray bursts had puzzled astronomers for more than 20 years; in 
concert with ground and X-ray telescopes, Hubble placed them near the 
edge of the visible universe and established them as the universe's 
brightest beacons, outshining whole galaxies for brief moments. Perhaps 
most spectacularly, Hubble confirmed and strengthened preliminary 
evidence from other telescopes for the existence of ``dark energy,'' a 
new constituent of the universe that generates a repulsive gravity 
whose effect is to drive galaxies apart faster over time. The resulting 
acceleration of universal expansion is a new development in physics, 
possibly as important as the landmark discoveries of quantum mechanics 
and general relativity near the beginning of the 20th century.
    Closer to home, Hubble has zeroed in on our own cosmic past by 
uncovering virtual carbon copies of how the Sun and solar system 
formed. Dozens of protoplanetary disks have been found encircling young 
stars in nearby star-forming regions of the Milky Way. The sizes and 
densities of these disks show how surplus dust and gas collect near 
infant stars to form the raw material of planets. Dozens of large, 
Jupiter-like planets have been discovered, initially by other 
telescopes but recently by Hubble using a new and more precise method. 
Measuring the tiny drop in light as a planet transits the disk of its 
parent star, the new technique could lead to a method for discovering 
Earth-like planets--a discovery with tremendous long-term implications 
for the human race.
    I would like to stress that results from Hubble--its pictures and 
the new concepts that have flowed from these images--have captured the 
imagination of the general public, not only in our country but around 
the world. Hubble has been one of the most important outreach 
instruments in terms of its contributions to public awareness of 
science and of the universe in which we live.
    Fascinating as they are, the scientific returns (and the public 
interest and excitement) from Hubble are far from their natural end. 
With its present instruments the telescope could continue probing star 
formation and evolution, gathering more data on other planetary 
systems, revealing phenomena of the planets and comets in our own solar 
system, and exploring the nature of the universe at much earlier times.
    Two new instruments, already built for NASA's previously planned 
servicing mission (SM-4), would amplify the telescope's capabilities by 
allowing qualitatively new observations in two under-exploited spectral 
regions. Such rejuvenation via new instruments has occurred after every 
Hubble servicing mission, and the next one promises to be no different. 
Wide Field Camera-3 (WFC3) would increase Hubble's discovery efficiency 
for ultraviolet and near-infrared imaging by factors of 10 to 30. The 
UV channel coupled with the camera's wide field of view will image the 
final assembly of galaxies still taking place in the universe. The 
near-infrared channel of WFC3 favors discovery of the very youngest 
galaxies, whose light is maximally red-shifted. The available UV, 
visible, and near-IR channels will combine to give a sweeping, 
panchromatic view of objects as diverse as star clusters, interstellar 
gas clouds, galaxies, and planets in our own solar system.
    The second new instrument, the Cosmic Origins Spectrograph (COS), 
will increase Hubble's observing speed for typical medium-resolution 
ultraviolet spectroscopy by at least a factor of 10 to 30, and in some 
cases by nearly two orders of magnitude. Ultraviolet spectra carry 
vital clues to the nature of both the oldest and the youngest stars, 
yet UV rays are totally invisible to ground-based telescopes. COS will 
fill important gaps in our understanding of the birth and death of 
stars in nearby galaxies. Even more impressive, COS will use the light 
of distant quasars to spotlight previously undetectable clouds of 
dispersed gas between nearby galaxies, thereby mapping in unprecedented 
detail the properties of the so-called ``cosmic web.''
    The future accomplishments I have described, and the many 
unforeseen discoveries that are impossible to predict but certain to 
occur, are what would be lost if Hubble was not serviced or replaced. 
It might be argued, of course, that the universe will be here into the 
future for other space missions to explore further. However, a number 
of NASA space astronomy missions presently in flight as well as 
planned, including the X-ray satellite Chandra and the infra-red 
satellite Spitzer, would not be as productive as they can be if 
synergistic data from Hubble were not to be available for analyses. The 
most recent Decadal Survey of Astronomy has predicated its 
recommendations for the future of the research field, and for the 
future facilities that would be needed for future advances, on the 
existence of Hubble data and its use in conjunction with other NASA 
space astronomy missions. My colleague Professor Joseph Taylor, a Co-
Chair of this Decadal Survey, is here today and can address this aspect 
of Hubble much better than can I.
    It is important to recognize that a central issue in the 
discussions that entered into our committee's conclusions is that the 
Hubble has a limited life; it was designed from the outset to be 
serviced periodically. A lengthy delay in servicing (the technical 
details are described in detail in our report) could result in a 
permanent loss of the telescope and even in a telescope orientation 
that would prevent ultimate safe de-orbit.
    As shown in our report, it is most likely that an interruption of 
science operations will occur due to gyroscope failure some time in 
mid-2007 unless servicing occurs. The ultimate, irreversible, failure 
of the telescope in the next several years is dependent on battery 
lifetime. Our committee spent a great deal of time investigating the 
conditions of the batteries (with a sub group of the committee speaking 
to NASA and other engineers, including the battery manufacturer, and 
studying data from battery life tests in a laboratory) and concluded 
that the window for battery failure that would end science operations 
opens in about May 2007. The window for potential vehicle failure opens 
in 2009. While there are many considerations in coming to these dates, 
there are few options beyond servicing for improving the outcome. The 
batteries themselves are not greatly affected by lighter loading that 
might be possible by early termination of science operations since 
operations will already be terminated at an early date due to loss of 
gyros.

Comparison of Robotic Servicing, Shuttle Servicing and Rehosting

    Let us leave aside for the moment the issue of placing the Hubble 
instruments on some other spacecraft and begin with the realization 
that, given the predicted failure of the on-board gyros, HST most 
likely will need to terminate science operations by mid-2007. Based on 
this engineering determination which we believe to be correct, any 
servicing mission, Shuttle or robotic, must be accomplished by the end 
of 2007 at the latest to prevent an interruption in science. A delay 
past 2007 not only results in increasing odds that the repair mission 
will meet an impaired Hubble when it launches. In the case of a robotic 
mission, it also means a growing reduction in the remaining lifespan of 
the serviced Hubble because, unlike a human servicing mission, it will 
be incapable of correcting most types of avionics system failures. A 
2009 robotic mission would occur at a time when the telescope is 
already at the fifty percent risk point.
    Even NASA's most optimistic projections places the robotic mission 
in December 2007, and this estimate was made when the NASA project 
hoped to receive full funding for development in both 2005 and 2006, 
something that has not occurred. Because the impact of reduced funding 
is always schedule delay, and often increased risk, there is a low 
probability of being able to undertake a successful robotic mission in 
time to save HST, even if much of the hardware has already been 
assembled and all of the systems testing had been successfully 
accomplished.
    Now, let us compare a robotic servicing mission with a Shuttle 
servicing one. Some of the important strengths of a Shuttle servicing 
mission are (1) it has been done successfully before--four times in 
fact--so there is no new development required; (2) all of the 
instruments and replacement equipment have been built or can be made 
ready, so there is low schedule risk; (3) numerous life extension 
upgrades that are not feasible on a robotics mission could be carried 
out; (4) the Shuttle has a proven capability for repairing Hubble with 
one hundred percent success history from four missions; and (5) a human 
mission has the unique ability to respond to last-minute requirements, 
usually driven by unforeseen failure (such as the need for new 
magnetometer covers that occurred on SM-1). In addition, and very 
importantly, the SM-4 mission could reduce the risk and cost of the 
eventual de-orbit mission for Hubble by pre-positioning a docking 
mechanism and associated fiducials on the aft end of the telescope so 
that the rendezvous and docking of the de-orbit module would be greatly 
facilitated over the uncooperative target that the telescope presently 
offers to any robot approaching it. The main weaknesses in a Shuttle 
servicing mission are that the schedule depends on successful Shuttle 
Return-To-Flight (RTF), and there is a small crew safety risk by flying 
one Shuttle mission in addition to the 25 to 30 that are estimated by 
NASA as required for completion of the ISS. The additional Shuttle 
mission would also delay ISS assembly by three to five months, thereby 
increasing slightly Shuttle program costs (in comparison to total 
Shuttle program costs) at the end of the Shuttle life, currently 
projected for 2010.
    The strengths of a robotic mission are (1) it avoids the risks to 
astronauts of one additional Shuttle flight; (2) it is exciting 
technology; and (3) some of the technology may have applications to 
other space activities. The weaknesses are primarily those associated 
with successfully achieving an extremely ambitious mission on an 
aggressive schedule, and the risk to HST (not only to HST science but 
also to eventual successful de-orbit) of using it as a target vehicle 
for the demonstration of unproven technology. It also has very large 
costs, both near- and far-term costs; an estimate of $2.2 billion (or 
more including launch costs) was provided to NASA by the Aerospace 
Corporation. Those members of the committee who are familiar with such 
costs believe that this number is plausible.
    From the risk mitigation viewpoint, the committee stated in our 
report that the planned use for the robotic servicing mission of the 
mature ISS robotic arm and robotic operational ground system helps 
reduce both the schedule risk and the development risk for this 
mission. However, the committee found many other serious challenges to 
the development of a successful robotic mission. Some of these 
challenges are due to the simple fact that Hubble was not designed to 
be serviced robotically, and thus has hardware features that are 
designed for human, not robot, interactions. Challenging issues for a 
successful robotic mission include:

        <bullet>  Technologies required for close proximity operations 
        and autonomous rendezvous and capture of the telescope have not 
        been demonstrated in a space environment.

        <bullet>  The control algorithms and software for several 
        proposed systems such as the laser ranging instrument (lidar) 
        and the camera-based control of the grapple arm are mission-
        critical technologies that have not been flight-tested.

        <bullet>  Technologies needed for autonomous manipulation, 
        disassembly and assembly, and for control of manipulators based 
        on vision and force feedback have not been demonstrated in 
        space.

        <bullet>  The Goddard HST project has a long history of Hubble 
        Shuttle servicing experience, but little experience with 
        autonomous rendezvous and docking or robotic technology 
        development, or with the operations required for the proposed 
        HST robotic servicing mission.

        <bullet>  The Committee found that the Goddard HST project had 
        made advances since January 2004. However, the Committee also 
        found that there remain significant technology challenges and--
        very significantly--major systems engineering and development 
        challenges to successfully extend the lifetime of HST through 
        robotic servicing.

        <bullet>  The proposed Hubble robotic servicing mission 
        involves a level of complexity that is inconsistent with the 
        current 39-month development schedule and would require an 
        unprecedented improvement in development performance compared 
        with that of space missions of similar complexity. The 
        committee concluded that the likelihood of successful 
        development of the HST robotic servicing mission within the 
        baseline 39-month schedule is remote.

Rehosting

    Rehosting of the two new instruments COS and WFC3 was the final 
option I was asked to discuss in my testimony today. In theory, the 
flight of these existing instruments on a new astronomy mission would 
be a possible means of obtaining some of the science that would 
otherwise be lost if Hubble were not repaired through a Shuttle 
servicing mission. The information that was provided by NASA to the 
committee on possible rehosting options was very sketchy, certainly not 
as defined and as detailed as was much of the technical information 
available for servicing Hubble. One clear advantage of any rehost 
mission is that it would use a spacecraft that employed current era 
technologies. Possible rehosting missions could be to either a low-
Earth orbit (LEO), such as the one that Hubble is currently flying in, 
or to some other orbit, such as geosynchronous or a Lagrangian point. 
It was unclear to the committee which, if any, of these orbits was 
under any serious consideration by NASA. Thus, I have to speculate 
somewhat as to what might be being proposed today, some four months 
after the committee's last meeting.
    A rehost mission to geosynchronous orbit or to a Lagrangian point 
would require the employment of launch vehicles that would permit the 
mission to arrive at, and to survive there. A spacecraft to a 
Lagrangian point location would likely involve a thermal design that 
was simpler than is used on Hubble since no eclipses would occur in 
that orbit. At geosynchronous orbit, eclipses occur twice a year, such 
as geosynchronous communications spacecraft experience. The relative 
absence of eclipses at geosynchronous or at a Lagrangian point would 
also allow a higher duty cycle for the acquisition of science data. Any 
new telescope located at either location would not be practical to 
service, a feature that has allowed the HST to be continually upgraded 
since launch.
    Independent of the lack of solid technical (to say nothing of lack 
of schedule) information on rehost options, the committee had a number 
of important concerns with respect to the practical aspects of 
rehosting. In order to obtain science returns from the COS and the WFC3 
comparable to the return from the instruments if they were flown on 
Hubble, the new satellite would have to carry a 2.4 meter diameter 
mirror, with diffraction-limited performance down to the ultraviolet 
(such a mirror diameter is especially necessary for the science of the 
WFC3 instrument), together with a very accurate pointing and guiding 
system that would be consistent with HST's capabilities. The two 
instruments would also have to be modified from their present states in 
order to be able to effectively use the new un-aberrated mirror that 
would likely be designed and built for the new spacecraft. (It seems 
inconceivable to me that an aberrated mirror would be purposefully 
designed for a brand new spacecraft just to match the Hubble's 
aberrated mirror.) In essence then, NASA would need to commit to, and 
to build and fly, a new Hubble telescope with an unaberrated mirror. 
The original Hubble development and testing program involved a lengthy 
and costly process. For mission success, this new rehost development 
program would require a commitment of very significant resources as 
well as political support over an interval of several years. The 
committee questioned whether such a commitment is likely to be given, 
let alone sustained in the face of numerous competing, high-priority, 
peer-reviewed astronomy programs that are already planned.
    Even if the new Hubble program were adequately supported, such a 
program would come with the added risks that technical problems could 
halt or seriously delay development. In addition, as already noted in 
the Aerospace Corporation report, it was not clear to the committee 
that there would be significant cost savings over the options for a 
Shuttle SM-4 repair mission, particularly given the uncertainties of 
developing an entirely new satellite that performs like the original 
Hubble. Finally, unlike a Hubble repair, a satellite with rehosted 
instruments would represent a significant new astronomy program that 
never was carefully evaluated for cost and schedule in the 
deliberative, detailed planning process that was carried out for 
astronomy research in the most recent Decadal Survey--a process that 
involved a great many resource and schedule trade-offs.
    The SM-4 Hubble service mission has been in NASA plans and 
budgeting profiles for years. In contrast, it would appear that any 
consideration of any rehosting option would need to obtain and to 
critically evaluate accurate data on the costs for a satellite 
development mission of a complexity almost identical to that for the 
original Hubble. In addition, the review of a rehosting mission by the 
astronomy community would have to establish its relative priority for 
funding and scheduling in terms of planned and on-going programs.
    For these reasons, I personally would have strong reservations 
regarding a plan to rehost the COS and the WFC3 Hubble instruments on 
another satellite, particularly when compared to a Shuttle repair 
mission. If a Shuttle repair mission were not possible--if for instance 
NASA was not successful in returning Shuttle to flight--then I would 
argue that the trade-offs of performing a rehosting mission should be 
reviewed by the astronomy community in the context of its overall 
planning for space astronomy in the next decade.
    In conclusion, I would like to reiterate the committee's 
conclusions that Hubble is a scientific asset of extraordinary value to 
the Nation, and that Shuttle servicing is the best option for extending 
the life of Hubble.
    Thank you for the opportunity to appear before you today. I am 
prepared to answer any questions that you may have.

                   Biography for Louis J. Lanzerotti
    Louis J. Lanzerotti (Chair) currently consults for Bell 
Laboratories, Lucent Technologies and is a distinguished professor for 
solar-terrestrial research at the New Jersey Institute of Technology. 
Dr. Lanzerotti's principal research interests have included space 
plasmas, geophysics, and engineering problems related to the impact of 
space processes on space and terrestrial technologies. He was Chair 
(1984-1988) of NASA's Space and Earth Science Advisory Committee and a 
member of the 1990 Advisory Committee on the Future of the U.S. Space 
Program. He has also served as Chair (1988N1994) of the Space Studies 
Board and as a member (1991-1993) of the Vice President's Space Policy 
Advisory Board. He has served on numerous NASA, National Science 
Foundation, and university advisory bodies concerned with space and 
geophysics research. He is a member of the International Academy of 
Astronautics and is a fellow of the Institute of Electrical and 
Electronics Engineers, the American Geophysical Union, the American 
Institute of Aeronautics and Astronautics, the American Physical 
Society, and the American Association for the Advancement of Science. 
He is an elected member of the National Academy of Engineering and has 
an extensive history of NRC service.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  Biography for Charles F. Bolden, Jr.
    CHARLES F. BOLDEN, Jr., a retired USMC major general, is a Senior 
Vice President at TechTrans International, Inc. Selected as an 
astronaut candidate by NASA in 1980, Mr. Bolden qualified as a Space 
Shuttle pilot astronaut in 1981 and subsequently flew four missions in 
space. As pilot of the Space Shuttle Discovery in 1990, Mr. Bolden and 
crew successfully deployed the Hubble Space Telescope. On his third 
mission in 1992, he commanded the Space Shuttle Atlantis on the first 
Space Laboratory (SPACELAB) mission dedicated to NASA's ``Mission to 
Planet Earth.'' Immediately following this mission, Mr. Bolden was 
appointed Assistant Deputy Administrator for the NASA. He held this 
post until assigned as commander of STS-60, the 1994, the first joint 
U.S./Russian Space Shuttle mission. Upon completion of this fourth 
mission, Major General Bolden left the space program and returned to 
active duty in the U.S. Marine Corps as the Deputy Commandant of 
Midshipmen at the Naval Academy after leaving NASA. Mr Bolden served on 
the NRC Committee on the Navy's Needs in Space for Providing Future 
Capabilities (2003-2004).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Biography for Joseph H. Rothenberg
    JOSEPH H. ROTHENBERG is currently President and a member of the 
Board of Directors of Universal Space Network. Mr. Rothenberg, who 
joined NASA in 1983, was named Associate Administrator for Space Flight 
January 1998 and was in charge of NASA's human exploration and 
development of space. Before coming to NASA Headquarters, he served as 
Director of the NASA Goddard Space Flight Center. As AA, Mr. Rothenberg 
was responsible for establishing policies and direction for the Space 
Shuttle and International Space Station programs, as well as for space 
communications and expendable launch services. Rothenberg joined 
Goddard in 1983 and was responsible for space systems development and 
operations, and for execution of the scientific research program for 
the NASA Earth-orbiting science missions. He is widely recognized for 
leading the development and successful completion of the first 
servicing mission for the Hubble Space Telescope, which corrected the 
telescope's flawed optics. From 1981 to 1983, he served as Executive 
Vice President of Computer Technology Associates, Inc., Space Systems 
Division where he managed all ground test and operations systems-
engineering projects. Those projects included the Hubble Space 
Telescope, Solar Maximum repair mission, and space tracking and data 
system architecture projects.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you very much, Dr. Lanzerotti. I 
really appreciate it. Dr. Taylor.

STATEMENT OF DR. JOSEPH H. TAYLOR, JR., CO-CHAIR, ASTRONOMY AND 
 ASTROPHYSICS SURVEY COMMITTEE, NATIONAL RESEARCH COUNCIL, THE 
                       NATIONAL ACADEMIES

    Dr. Taylor. Chairman, Mr. Gordon, and Members of the 
Committee, thank you very much for inviting me to testify. My 
name is Joseph Taylor, and I am Professor of Physics and former 
Dean of the Faculty at Princeton University. I appear here this 
morning in my capacity as Co-Chair of the Astronomy and 
Astrophysics Survey Committee.
    The astronomy community has a long history of undertaking 
broad surveys of astronomical science at 10 year intervals. The 
surveys identify key scientific questions that need to be 
answered. They lay out principal research goals for the next 
decade, and they propose new facilities that will make these 
goals achievable. A distinguishing feature of the surveys is a 
prioritized list of missions and facilities recommended for 
construction, a list that is put together with great care. The 
National Science Foundation and NASA both use the survey 
reports as a basis for their planning, and the vast majority of 
the projects recommended in previous surveys have been 
completed. Those projects have much to do with the leadership 
position our nation enjoys in the astrophysical sciences.
    The most recent Survey Committee understood that a mid-
decade servicing mission to the Hubble Space Telescope would 
install two important new instruments, a wide field camera, and 
a spectrograph. The mission would also service the satellite in 
other ways, so that Hubble could remain productive throughout 
the decade, at the end of which, NASA's follow-on facility, now 
called the James Webb Space Telescope, would become 
operational. The Committee was informed that the mission would 
cost $350 million, and that cost estimate helped to shape our 
final priority list.
    The Hubble telescope was a truly remarkable instrument. It 
has made enormous contributions to astronomy and it has helped 
to inspire a whole generation of young Americans to go into 
science, engineering, and the other technical fields that 
contribute so much to our national prosperity. My Committee was 
charged with looking ahead, however, and we concluded that 
answers to many of the important astrophysical questions most 
ripe for scientific progress in this decade are likely to be 
found at spectral wavelengths outside the Hubble telescope's 
capabilities.
    Two of our three top priorities are therefore the James 
Webb Space Telescope, which will operate in the infrared, and 
the Constellation X-ray Observatory. We can never be sure of 
where the next scientific breakthroughs will arise, but the 
future of those missions seems particularly bright. The Webb 
telescope will be able to observe and examine the very first 
galaxies that formed in our universe, and the very first--the 
ignition of the very first stars. Constellation-X will examine 
how matter and energy behave in the extreme environments near 
black holes, conditions in which some of the most fundamental 
physical theories have never yet been tested. The Survey 
Committee made the tough decision to push space astrophysics 
into new frontiers in the infrared and X-ray regions of the 
spectrum. In this context, it is very difficult for me to say 
that knowledge of the premature loss of the Hubble would have 
significantly altered our priority list. Perhaps the Committee 
would have given higher ranking to a project called the Space 
Ultraviolet Observatory, which was omitted from our final list, 
but I do not believe that the other priorities would have been 
much altered.
    Mr. Chairman, my Committee was making judgments about 
scientific payoffs some years in the future, but I know yours 
is grappling with decisions that need to be made very soon. 
Accounting methods and other changes at NASA since completion 
of our survey now make it seem very unlikely that a Shuttle 
servicing mission would cost the Science Directorate as little 
as $350 million. Present estimates seem to run to at least a 
billion dollars, whether the servicing is done by manned 
Shuttle or by robot. That cost is roughly the equivalent of a 
second James Webb telescope, and if borne by NASA's science 
program alone, would likely delay important new missions under 
development, including those ranked very highly across all 
fields of space science.
    You will hear about possible rehosting of the Hubble 
replacement instruments on a new satellite called the Hubble 
Origins Probe. Cost estimates for this project are also around 
a billion dollars, and the telescope might be ready by the year 
2010. Such a satellite does offer significant promise. However, 
to start work on it now would be to insert an entirely new 
priority into the mission queue without benefit of 
comprehensive peer review, like those undertaken for all 
existing survey priorities. Though from the point of view of 
the Survey Committee, I believe that neither a billion dollar 
servicing mission nor a billion dollar rehosting satellite 
should be a higher funding priority than the new astronomical 
projects recommended by the Committee.
    Our nation's science enterprise has been extremely well 
served by having open, broadly based mechanisms for setting 
priorities in astronomy, and by closely following those 
roadmaps. I think you will do well to see that the agencies 
continue to follow the good advice on priorities they have 
received.
    As you know, I am also a member of the Committee on 
Assessment of Options to Extend the Life of the Hubble Space 
Telescope. I most heartily endorse that Committee's 
recommendation that NASA should pursue a servicing mission to 
accomplish the original objectives of the SM4 servicing 
mission. However, I do not favor such a plan, much less the 
launch of a wholly new satellite to host the Hubble replacement 
instruments, if it would require major delays or reordering of 
the Survey Committee's science priorities. If NASA follows such 
a course, I believe it will squander the excellent reputation 
for scientific leadership and judgment that it has so rightly 
earned over the years.
    Thank you for your attention, and I will be pleased to 
answer questions.
    [The prepared statement of Dr. Taylor follows:]
              Prepared Statement of Joseph H. Taylor, Jr.
    Mr. Chairman, Ranking Minority Member, and Members of the 
Committee: thank you for inviting me here to testify today. My name is 
Joseph Taylor and I am the James S. McDonnell Distinguished University 
Professor of Physics and former Dean of the Faculty at Princeton 
University. I appear today in my capacity as Co-chair of the Astronomy 
and Astrophysics Survey Committee.
    As you know, the Astronomy community has a long history of 
creating, through the National Research Council (NRC), broad surveys of 
the field at ten-year intervals. These surveys lay out the community's 
research goals for the next decade, identify key questions that need to 
be answered, and propose new facilities with which to conduct this 
fundamental research. The most recent decadal survey, entitled 
Astronomy and Astrophysics in the New Millennium, was released in the 
year 2000.\1\ I have been asked to answer the following questions from 
my perspective as the Co-chair of the committee that produced that 
report:
---------------------------------------------------------------------------
    \1\ Astronomy and Astrophysics in the New Millennium, NRC, 2001.

        1.  To what extent, and in what ways, was the Decadal Survey 
        premised on the Hubble Space Telescope having additional 
        instruments that were to be added by a servicing mission? Would 
        the loss of the Hubble cause you to entirely rethink your 
        priorities? Would that change if the Hubble Origins Probe or a 
---------------------------------------------------------------------------
        similar rehost mission is launched?

        2.  How important are the contributions that would be expected 
        from extending the life of the Hubble Space Telescope when 
        compared to advancements expected from other astronomical 
        programs at NASA to be launched in the next decade, such as the 
        James Webb Space Telescope?

        3.  Should either a Hubble servicing mission (whether by robot 
        or by Shuttle) or a new telescope such as the Hubble Origins 
        Probe be a higher priority for funding than other astronomical 
        programs at NASA?

    In the balance of my testimony I shall address all three questions.
    Until recently, the NRC decadal survey was an activity unique to 
the discipline of astronomy and astrophysics. The most recent survey 
involved the direct participation of 124 astronomers; moreover, the 
direct participants received input from many hundreds more of their 
colleagues. Altogether, a substantial fraction of the Nation's 
astronomers were in some way involved in the creation of the report. By 
gathering such broad community input, the survey process creates a 
document that reflects the consensus opinion of the researchers in the 
field. The value of this activity to NASA and the NSF has been 
demonstrated in many ways, and most recently by NASA's request for the 
NRC to conduct similar surveys for planetary science,\2\ solar and 
space physics,\3\ and Earth science.\4\
---------------------------------------------------------------------------
    \2\ New Frontiers in the Solar System, NRC, 2003.
    \3\ The Sun to the Earth--and Beyond, NRC, 2003.
    \4\ Study underway--http://qp.nas.edu/decadalsurvey
---------------------------------------------------------------------------
    The feature of the decadal Astronomy Survey that distinguishes it 
from summaries of other fields of science is the prioritized list of 
missions and facilities that are recommended for construction. This 
list is put together very carefully; many worthy projects do not make 
the list, while others are deferred to the next decade. I can assure 
you that the decision-making process is very thorough and sometimes 
leaves some ``blood on the floor,'' metaphorically speaking. One of the 
factors that make the process possible is the remarkable success of the 
surveys. The National Science Foundation and NASA have used the survey 
reports as the basis of their planning processes, and the vast majority 
of recommended projects from previous surveys have been completed--even 
if they have sometimes stretched over the boundaries from decade to 
decade. The completed projects have much to do with the leadership 
position of our national enterprise in the astrophysical sciences.
    The process of priority setting is based on a set of assumptions. 
For the purposes of this hearing, the most important of these is that 
priorities from previous decades should be completed. For example, the 
year 2000 Survey reaffirmed the importance of completing the Atacama 
Large Millimeter Array that had been recommended in the 1991 Survey.\5\ 
Along the same lines, the most recent Survey was based on the 
expectation that a Shuttle Servicing Mission would install in the 
Hubble Space Telescope new instruments called the Cosmic Origins 
Spectrograph and Wide Field Camera-3, and would refurbish the satellite 
in other ways so that Hubble would continue to operate until 2010--
about the time that the infrared James Webb Space Telescope (JWST) is 
planned to become available.\6\ We were told that this mission, now 
referred to as SM-4, would cost $350 million, and it was one of the 
considerations that led to the final shape of the priority list.
---------------------------------------------------------------------------
    \5\ A Decade of Discovery, NRC, 1991.
    \6\ The James Webb Space Telescope (then referred to as the Next 
Generation Space Telescope) was the highest priority recommendation of 
Astronomy and Astrophysics in the New Millennium.
---------------------------------------------------------------------------
    There are a number of strong arguments for keeping the Hubble 
telescope operational until JWST is ready. The new instruments will 
expand Hubble's reach farther into the near-infrared region of the 
spectrum. This capability will enable the selection of potentially 
interesting targets that will form much of the basis of the initial 
JWST research program. The Hubble Space Telescope is still in the prime 
of its scientific life. Even with some temporarily reduced capacity, 
astronomers are using it to observe objects that were thought to be 
beyond any telescope's capability. Hubble is also important to the 
Nation for reasons beyond its immediate scientific contributions. 
According to a recent NRC study, nearly one third of all federal 
support for astronomy research is tied to the Hubble telescope and its 
affiliated research programs.\7\ NASA, in consultation with the 
community, plans to transfer these programs to the James Webb Space 
Telescope when it becomes operational; but the premature loss of Hubble 
would threaten the continuity and vitality of this research enterprise, 
and this source of highly trained technical personnel for the Nation.
---------------------------------------------------------------------------
    \7\ Federal Funding of Astronomical Research, NRC, 2000, pg. 54.
---------------------------------------------------------------------------
    We all love Hubble. It is truly a remarkable instrument. That said, 
the object of my committee's decadal survey was to look ahead and 
identify the tools that would be needed to continue answering deep 
questions about the Universe and the most fundamental laws of Nature. 
In the Survey committee's judgment, in the present decade answers to 
these questions are more likely to be found in regions of the spectrum 
outside the Hubble telescope's capabilities. Top Survey priorities such 
as JWST and the Constellation X-Ray (Con-X) observatory will open large 
spectral windows on the universe that are simply not available to 
instruments on the ground. While we can never be sure where the next 
scientific breakthrough will arise, the future with these missions 
seems very bright. JWST will be able to observe and examine the very 
first galaxies that formed in our Universe, and to study the era when 
the first stars ignited. Con-X will be able to observe how matter and 
energy behave near black holes--an extreme environment in which the 
laws of physics have not yet been well tested.
    The Survey does not neglect the optical region of the spectrum. Two 
of the Survey's top three recommendations for ground-based facilities 
are for new optical telescopes that will observe the universe in new 
and different ways.\8\ While Hubble can do some things that are 
unmatched by telescopes on the ground, the choice to move space 
astrophysics into the infrared and X-ray regions of the spectrum was 
one of the difficult decisions that the committee made. In this 
context, it is difficult to say that the premature loss of the Hubble 
telescope would significantly alter the Survey's priority list. It is 
possible that the committee would have given a stronger priority to the 
Space Ultraviolet Observatory (SUVO), which was omitted from the final 
priority list; but I do not believe that the rest of our list would 
have been very different.
---------------------------------------------------------------------------
    \8\ The Giant Segmented Mirror Telescope and the Large Survey 
Telescope
---------------------------------------------------------------------------
    Mr. Chairman, the scientific promise of JWST and other Survey 
priorities lies in the future, while your committee is grappling with 
decisions that need to be made very soon. Accounting methods and other 
changes that have taken place at NASA since the completion of the 
Survey now make it seem very unlikely that a Shuttle servicing mission 
would cost the science mission directorate as little as $350 million. 
However the Hubble telescope is serviced, present cost estimates seem 
to run to at least $1 billion--roughly equivalent to that of a second 
JWST. Such a cost, if borne by the science program, will likely delay a 
number of other missions that are under development, including those 
ranked highly in NRC decadal surveys across all of space science.
    One option that I have not yet mentioned is to host the Hubble 
replacement instruments COS and WFC3 on a new satellite like the 
proposed Hubble Origins Probe (HOP). According to the team proposing 
HOP, the cost for such a mission would also be roughly $1 billion, and 
the telescope would be ready by 2010. The proposal also calls for an 
additional wide-field imaging camera. Such a satellite offers 
significant promise; however, to start work on it would in essence 
insert a new priority into the mission queue, without benefit of the 
kind of comparative review undertaken in the survey. From the point of 
view of the survey committee, I believe that neither a $1 billion 
servicing mission nor a $1 billion rehosting satellite should be a 
higher funding priority than the astronomical science priorities 
recommended by the survey committee.
    Our nation's science enterprise has been well served by having 
open, broadly based mechanisms for setting priorities in astronomy, and 
by closely following the wise decisions made in that way. A project 
similar to the Hubble Origins Probe could easily be included in the 
next Astronomy Survey, and would likely be a strong contender then. As 
you know, I am also a member of the Committee on Assessment of Options 
to Extend the Life of the Hubble Space Telescope. I heartily endorse 
that committee's recommendation that NASA should pursue a Shuttle 
servicing mission to Hubble so as to accomplish the objectives of the 
planned SM-4 mission. However, I do not favor such a plan, much less 
the launch of a new satellite to host Hubble's replacement instruments, 
if it would require major delays or re-ordering of the Survey 
Committee's science priorities. With such a course of action, I believe 
that NASA would squander the excellent reputation for scientific 
judgment and leadership that it has so rightly earned over the years.
    I should stress that these opinions are my own, informed by my work 
on the survey and other advisory committees and by conversations with 
many colleagues.
    Thank you for your attention, and I would be pleased to answer 
questions.

                  Biography for Joseph H. Taylor, Jr.
    Joseph H. Taylor, Jr. is the James S. McDonnell Distinguished 
University Professor of Physics and former Dean of the faculty at 
Princeton University. He is a radio astronomer and physicist who, with 
Russell A. Hulse, was the co-recipient of the 1993 Nobel Prize for 
Physics for their joint discovery of the first binary pulsar. He has 
won several other awards, including the Wolf prize in Physics, The 
National Academy of Sciences Henry Draper medal, the American 
Astronomical Society's Dannie Heineman prize, the Magellanic Premium of 
the American Philosophical Society, and he was the Albert Einstein 
Society's Einstein Prize Laureate. Taylor is an elected member of the 
National Academy of Sciences, and he has served as Co-chair of the NRC 
Task Group on Gravity Probe B (1994-1995) and member of the Committee 
on Space Astronomy and Astrophysics (1981-1982), the Committee on Radio 
Frequencies (1980-1986). He also served as Co-chair of the Astronomy 
and Astrophysics Survey Committee (1998-2000), and currently serves on 
the Board on Physics and Astronomy.

    Chairman Boehlert. Thank you. Dr. Beckwith.

    STATEMENT OF DR. STEVEN V.W. BECKWITH, DIRECTOR, SPACE 
                  TELESCOPE SCIENCE INSTITUTE

    Dr. Beckwith. Chairman Boehlert, Mr. Gordon, Members of the 
Committee, I deeply appreciate the opportunity to testify today 
on behalf of the Space Telescope Science Institute.
    The Institute, commonly called STSCI, is managed by OAR 
under contract with NASA. The Institute was set up 24 years ago 
to carry out the science operations for Hubble. More recently, 
we were assigned the full responsibility of operating the 
spacecraft itself. We have a vital interest on behalf of 
astronomers worldwide to operate this in the most 
scientifically productive manner possible.
    At the outset, I want to commend the Committee for holding 
this hearing on the very important matter. The Hubble Space 
Telescope was designed to measure the age of the universe, 
explore the nature of distant galaxies, measure the mass of 
black holes, detect the dark matter between galaxies, study the 
nature of stars in the Milky Way and neighboring galaxies, and 
even planets in our own solar system, sort of the whole 
shebang, as we say in astronomy.
    It made tremendous progress on all of these goals within a 
few years of launch, but more importantly, Hubble opened up 
entirely new fields of research not included in its initial 
goals. Hubble has invented or captured entire subfields of 
astronomy, such as the study of the creation of galaxies, the 
nature of dark energy in the early universe, the study of 
atmospheric chemistry in extra-solar planets, that rank among 
the premiere scientific problems of our time. The United States 
has achieved preeminence in these areas with Hubble, a 
preeminence we do not want to lose.
    Just as important as Hubble's scientific contributions is 
its impact on education and public awareness of science. Hubble 
has become an international icon of humankind's scientific 
prowess. The vivid colors and rich information content of its 
images with unparalleled resolution captivate millions of 
Americans each year. Hubble's pictures make even esoteric 
concepts about the universe accessible to schoolchildren. And 
if I can just give a personal remark, one of my vivid memories 
of coming to Baltimore six years ago was going to Dumbarton 
Middle School, where both of my children were enrolled, on 
parent visiting night. I saw Hubble pictures in every classroom 
on my kids' schedule, including English, health, and social 
studies, in addition to their science classrooms. Hubble has 
been one of our most important tools to excite children about 
science at a time when the need for a technically astute 
workforce is more important than ever to our economic future.
    An essential element of Hubble's enormous success is NASA's 
ability to upgrade the scientific instruments with modern 
technology through servicing by Shuttle astronauts. Some of the 
most important problems Hubble tackles, such as the dark energy 
and extra-solar planet studies, were not even active topics of 
observational research when Hubble was designed in the 1980s, 
and therefore, were not part of Hubble's mission goals. 
Hubble's enormous impact in helping us uncover the secrets of 
the cosmos has come out because it has continually improved 
through periodic servicing, and it is a general purpose 
observatory that can respond to new discoveries in a way that 
particular targeted missions cannot.
    At present, there is no other mission planned or under 
construction to duplicate Hubble's capabilities and major 
strengths. It is essential that we complete the Hubble mission, 
and let it fulfill its scientific potential in preparation for 
the era that will be dominated by the James Webb Space 
Telescope, the Terrestrial Planet Finder, and other 
astronomical missions in NASA's strategic plan.
    Fortunately, there are at least two ways to service Hubble, 
using the Space Shuttle and using robots, that would realize 
the great future promise of NASA's original plan. Timeliness is 
an important element of scientific success, as well as mission 
success, and it should be a factor in weighing any options to 
retain Hubble science. Among the proposed options you will hear 
today, it appears now that servicing with astronauts would 
provide the most expeditious path. Servicing by robots would be 
the next most timely option, and building a replacement would 
take the longest. As a scientist, I would like to see our 
important scientific capabilities established as soon as 
possible, so I favor the servicing of Hubble.
    You will hear different views today from others more expert 
in the risks and costs associated with each option. One area 
which I believe all speakers today will agree, however, is that 
it is vital for us to preserve this scientific and education 
capability for the Nation. It is definitely feasible to do so, 
and it should become a very high priority for support this 
year.
    I will welcome your questions on any aspect of this issue. 
Thank you, Mr. Chairman.
    [The prepared statement of Dr. Beckwith follows:]
               Prepared Statement of Steven V.W. Beckwith

1.  What are the Hubble Space Telescope's most important contributions 
to the advancement of science? How important are those contributions 
compared to advancements expected from other astronomical programs at 
NASA, such as the James Webb Space Telescope to be launched in the next 
decade?

    The Hubble Space Telescope (HST) was built to measure the age of 
the universe, explore the nature of distant galaxies, measure the mass 
of black holes, detect the dark matter between galaxies, study the 
nature of stars in the Milky Way and neighboring galaxies and even 
planets in our own solar system. It made tremendous progress on all of 
these goals within a few years of launch. More importantly, Hubble 
opened up entirely new fields of research not included in its initial 
goals. Hubble looked back close to the time of creation by observing 
the assembly of the first galaxies when the universe was only seven 
percent of its present age, it confirmed that the universe is 
accelerating, one of the most profound discoveries in 100 years, it 
obtained images of young solar systems around other stars before 
planets had formed, it detected extra-solar planetary systems and even 
measured the atmospheric chemistry of one extra-solar planet. Most 
recently, Hubble helped discover the most distant object in the Solar 
System.
    The Hubble Space Telescope has far outpaced everyone's early 
expectations of success. An essential element of that broad success is 
NASA's ability to upgrade the scientific instruments with modern 
technology through servicing by Shuttle astronauts. Hubble is currently 
poised to address several of the most important problems in 
astrophysics, indeed, in all of science over the next five to ten 
years, if new instruments are installed on another servicing mission. 
Two of these problems, the nature of dark energy that powers the 
acceleration of the universe and the properties of extrasolar planetary 
systems, were not even active topics of observational research when 
Hubble was designed in the 1980's and therefore were not part of 
Hubble's mission goals. Hubble's enormous impact in helping us uncover 
the secrets of the cosmos has come about because it is a multi-purpose 
observatory with observational powers greatly exceeding those required 
for a single problem or set of problems that the mission designers 
could divine before it was launched.
    Hubble's discoveries drove it to the top of the Nation's most 
productive scientific facilities. By the metrics we use to measure 
scientific success, Hubble is number one. It annually produces more 
scientific papers that collectively receive more citations in the 
scientific literature than any other astronomical observatory or 
instrument. The widely used Davidson Science News metric, NASA's own 
measure of the relative successes of its different missions, ranked 
Hubble number one in science impact for the last ten years. In 2004, 
the most recent year for which this metric is available, Hubble had 
almost twice as many important discoveries as the next highest producer 
among NASA missions, and it was the only one of the top 25 most 
productive missions to gain discovery points. It shows no signs of 
slowing down.
    Just as important as Hubble's scientific contributions is its 
impact on education and public awareness of science. Its pictures 
reveal the complex structure of galaxies and nebulae. The vivid colors 
and rich information content of its images with unparalleled resolution 
captivate millions of Americans and people around the world each year. 
Hubble's pictures make even esoteric concepts about the universe 
accessible to school children. One of my first memories of coming to 
Baltimore six years ago was going to Dumbarton Middle School on parent 
visiting night where both my children enrolled. I saw Hubble pictures 
in every classroom on my kids' schedule, including English, social 
studies, and health in addition to their science classrooms. Hubble has 
been one of our most important tools to excite children about science 
at a time when the need for a technically astute workforce is more 
important than ever to our economic future.
    At present, there is no other mission planned or under construction 
to duplicate Hubble's capabilities and major strengths. The James Webb 
Space Telescope (JWST) is designed to have the same angular 
resolution--or sharpness of image--as Hubble covering a different 
wavelength band and with greater light gathering power. The tremendous 
advances enabled by Hubble have driven the scientific community to pose 
questions that were not even imagined a decade ago, but now form the 
basis for the JWST mission.
    The James Webb Space Telescope complements the Hubble Space 
Telescope as part of a continuous, balanced program to study the 
universe with flagship observatories. Hubble's sensitivity to 
ultraviolet and visual light and its high performance now make it an 
enormous value to astronomy. JWST's coverage of infrared wavelengths 
and large collecting area will make it an essential asset when it is 
launched. JWST's anticipated success in the future guarantees its high 
priority for the next decade.
    Because of the strong scientific relationship between HST and JWST, 
the original plan envisioned by the scientific community would have 
allowed an overlap of several years to accomplish an orderly transition 
of observing programs. We now realize that HST's future potential is 
even more important than previously thought owing to new discoveries 
about the universe and its constituents from HST and other facilities. 
It is essential to complete the HST mission and let it fulfill its 
scientific potential in preparation for the era that will be dominated 
by JWST, the Terrestrial Planet Finder, and other astronomical missions 
in the NASA Strategic Plan.

2.  Should a Hubble servicing mission be a higher priority for funding 
than other astronomical programs at NASA?

    Setting priorities for astronomical programs at NASA is normally 
done in three ways. The first is the National Academy of Sciences' 
Decadal Surveys done every ten years to provide a long-term look 
especially at large missions. The most recent Decadal Survey (Astronomy 
and Astrophysics in the New Millenium 2001) considered NASA's plan to 
service Hubble with SM-4 and operate it until the end of the decade, 
2010. The survey committee believed that was a good plan and one that 
they supported even with the demands of competing new instruments such 
as the James Webb Space Telescope.
    The second is to have special ``blue ribbon'' committees examine 
particular issues or proposals in between the Decadal surveys. These 
committees draw their members from the elite of the scientific 
establishment who are not direct beneficiaries of the missions under 
review. Two such committees recently reviewed Hubble: the Bahcall 
committee (chartered by NASA's Office of Space Science) in August 2003 
and the Lanzerotti committee (chartered by the National Academy of 
Sciences) in December 2004 (Assessment of Options for Extending the 
Life of the Hubble Space Telescope (2005) ). Both committees had 
winners of the most prestigious research prizes in science, including 
the Nobel prize, and the latter committee also had a large number of 
distinguished engineers, astronauts, and former senior managers from 
the aerospace industry, military, and NASA, including an ex-NASA 
Administrator. Both committees gave a strong endorsement to the fifth 
Hubble servicing mission, SM-4. The Lanzerotti committee stated that 
the future scientific returns from Hubble are likely to be as important 
as its past discoveries. No other NASA mission has been so extensively 
reviewed by independent committees of such high capability and 
prestige.
    The third is NASA's own advisory system. In that system, 
representatives of different subfields of astronomy advise NASA on the 
relative merits or their projects. The most recent resolution about SM-
4 came from the Space Science Advisory Committee (SScAC) meeting of 
November 2003, in which the committee reaffirmed that continuing 
Hubble's success in this decade with SM-4 is essential to a balanced 
program of high-profile astronomical research.

3.  What are the comparative strengths and weaknesses of a Shuttle 
servicing mission, a robotic servicing mission, and a mission to fly 
elements of a Hubble servicing mission rehosted on a new telescope?

    The Lanzerotti report concludes that a Shuttle servicing mission, 
SM-4, would give us the most scientific capability in the shortest 
amount of time at the lowest risk among the three options. Time is an 
important advantage that is often neglected as a factor in scientific 
importance. SM-4 gives us two new instruments in addition to Hubble's 
current suite in about three years, continuing to provide overlap with 
NASA's other Great Observatories, Spitzer and Chandra, for example. It 
would extend Hubble's lifetime another four to six years (likely 
overlapping early operations of JWST), and it would provide us with the 
possibility of fixing the currently inoperative Space Telescope Imaging 
Spectrograph to further enhance Hubble's scientific power. Since the 
instruments and other components needed to service Hubble are nearly 
ready for flight, the costs to the science budget, exclusive of Shuttle 
infrastructure costs, are likely to be relatively low and predictable 
compared to the four previous servicing missions. The chances of 
mission success are very high, as the Lanzerotti report emphasized, 
consistent with four successful servicing missions in which 18 
consecutive space walks achieved all of their objectives.
    A successful robotic servicing mission could give us much of the 
same new scientific capability as SM-4 depending on how it is planned, 
but somewhat later in time. It is unclear how the cost of a robotic 
servicing mission would be shared between the science budget and the 
budget for the new exploration initiative. It is important to 
distinguish between a robotic mission that has the capability to 
install the new instruments and upgrade Hubble's batteries and 
gyroscopes from one that simply de-orbits the telescope. NASA has 
committed to a de-orbit mission that by itself would produce no new 
science. In these remarks, I refer to a mission that would upgrade 
Hubble's scientific instruments and increase its lifetime as well as 
install a de-orbit module.
    The robotic mission would be able to install new instruments, 
batteries and gyroscopes, although it would not be able to repair some 
of the infrastructure items normally done by astronauts. Thus, Hubble's 
lifetime following a robotic mission is likely to be shorter than that 
following SM-4, although an exact number is a matter of debate. The 
chances of mission success with robots are likely to be smaller than 
for SM-4, simply because robotic servicing is untested and without the 
flexibility that humans bring to any task with unforeseen problems.
    On the other hand, a robotic servicing mission would demonstrate 
new technology that could be important to NASA's new exploration 
initiative and to future scientific facilities that are not accessible 
to humans. Thus, the potentially higher cost and risk would be offset 
by the future potential of using this technology for other missions. 
Indeed a whole generation of future scientific missions might be 
enabled by a robotic capability initiated in this decade. The robotic 
option also has the advantage of providing Hubble with the de-orbit 
module capability it needs to be safely de-orbited at the end of its 
life.
    The third option, rehosting, could recover some of the science 
capabilities of a fully serviced Hubble. I assume here that rehost 
means building an equivalent sized telescope to Hubble containing the 
two new instruments already built, the Cosmic Origins Spectrograph 
(COS) and the Wide Field Camera 3 (WFC3) as assumed in the Aerospace 
Corporation study of alternatives to Hubble servicing. Such a telescope 
will deliver less scientific capability at a much later time with 
higher risk than servicing Hubble. The new telescope would have to have 
a 2.4m mirror with a pointing stability of a few milliseconds of arc, 
the most challenging part of Hubble's construction. That mission would 
be launched in approximately eight years, according to the Aerospace 
study. Thus, we would have a Hubble Lite with two working instruments 
in 2013 rather than a full Hubble with four to five working instruments 
(depending on STIS) in 2007 or 2008.
    Time is an important element in this case, because Hubble Lite 
would become available after the currently planned launch date of JWST 
in 2011. JWST's infrared capabilities will supercede those of WFC3. The 
lack of two of Hubble's current instruments, the Advanced Camera for 
Surveys (ACS) and Near Infrared Camera and Multi-Object Spectrometer 
(NICMOS) means that two of the four most compelling future science 
projects with Hubble that I discussed with the Lanzerotti committee 
would be impossible. My understanding from the Aerospace study is that 
even Hubble Lite would cost the science budget between $1.5 and $2 
billion, not unreasonable considering the cost to build Hubble in the 
first place, but certainly higher than typical costs of a Shuttle 
servicing mission, less than $500 million. The chances of mission 
success would be lower than those for SM-4, simply because of the 
infant mortality risk for all new space missions.
    It is, of course, always possible to propose a rehost mission with 
new capabilities that Hubble does not have, such as the HOP telescope 
consortium proposes. Such a mission would be scientifically attractive 
by providing even more capability than a Hubble Lite. Depending on the 
precise proposal and configuration, it could be designed to address 
specific science problems, such as the dark energy problem. There are 
other mission proposals to provide new telescopes with new capabilities 
that would have to be weighed against one another, since none have yet 
undergone the extensive reviews that the Hubble program has. It would 
also not have the public recognition that has made Hubble so beneficial 
to education and public outreach. I assume that any telescope with more 
capability than Hubble Lite would also be more expensive and carry more 
development risk than either a rehost mission or SM-4.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   Biography for Steven V.W. Beckwith
    Steven Beckwith is the Director of the Space Telescope Science 
Institute on the campus of Johns Hopkins University in Baltimore, 
Maryland, and a Professor of Physics and Astronomy at JHU. The 
Institute runs the science operations for the Hubble Space Telescope. 
As Director, he is responsible for selecting the scientific programs, 
supporting grants, and all data from the telescope. The Institute has a 
staff of approximately 500 people, including 100 scientists and 150 
engineers to support the space observatory.
    He attended the engineering school at Cornell University as an 
undergraduate from 1970 to 1973, receiving a B.S. with distinction in 
Engineering Physics in 1973. From 1973 to 1978, he did graduate work in 
physics at the California Institute of Technology, receiving a Ph.D. in 
Physics in 1978. Following his Ph.D., he joined the faculty of Cornell 
University in the astronomy department, where he taught for 13 years as 
a Professor of Astronomy. During that time, he held a number of 
visiting positions at Arcetri Observatory (Florence, Italy), the 
University of California at Berkeley, the California Institute of 
Technology, and the Max-Planck-Institute fur Astronomie (Heidelberg, 
Germany). He also founded a small company with his wife, Ithaca 
Infrared Systems, and served as President of the company from 1983 
until 1989. The company tested all the short wavelength detectors for 
the Cosmic Background Explorer.
    In 1991, he moved to Heidelberg, Germany as one of two directors of 
the Max-Planck-Institut fuer Astronomie. He became Managing Director of 
the that institute in 1994, where he had responsibility for a staff of 
approximately 200 people and ran the German national observatory, the 
Calar Alto Observatory, in southern Spain. He was Managing Director 
until 1998, when he moved back to the United States to become the 
Director of the Space Telescope Science Institute.
    His principal research interests are the formation and early 
evolution of planets including those outside the Solar System, and the 
birth of galaxies in the early universe. He has published over 100 
research articles, and lectures extensively to the general public and 
professional audiences. He has won several awards in the United States 
and Europe for his research and is a fellow of the American Academy of 
Arts and Sciences. He also contributes his time to advisory committees 
on research policy. He was the chairman of the Science and Technical 
Committee of the European Southern Observatory for three years, he 
chaired the European panel to set priorities for space research for all 
wavelengths from the ultraviolet to the radio spectrum (Horizon 2000+), 
and he was recently the Chairman of the panel to set priorities in 
ultraviolet through radio space research for the first decade of the 
new millennium as part of the Astronomy and Astrophysics Survey 
Committee of the National Research Council of the United States, among 
other advisory contributions.

    Chairman Boehlert. Thank you very much, Dr. Beckwith. Dr. 
Cooper.

   STATEMENT OF DR. PAUL COOPER, GENERAL MANAGER, MDA SPACE 
                            MISSIONS

    Dr. Cooper. Mr. Chairman, Committee Members, it is a great 
pleasure and honor to be here, and I have to say it is 
particularly an honor to be representing the team of 
extraordinarily motivated people that are working as we speak 
towards the critical design review of the Hubble Robotic 
Servicing Mission. My name is Paul Cooper. I am actually the--
lead the space robotic activities at MDA Space Robotics.
    I want to start off by putting a little reality around this 
concept of the robotic space mission. Oh. I see we don't have 
me on here. Here we go.
    Okay. I want to start out with putting a little reality 
around this idea, and I am actually going to run a little bit 
of a video here. It is about one minute. It starts off with the 
real Hubble and the Space Shuttle arm. It is--we are going to--
about to do a real grapple. This is the view from the arm. The 
basic goal here is to grab this peg. The part that I want you 
to realize is this very piece of hardware that is--it is--you 
are seeing is what is planned for the mission. The only 
difference between this piece of video and what is really going 
to be planned, the astronauts are going to be on the ground 
instead of the--in the Shuttle.
    Once we grab it, we do the dexterous servicing. This 
beastie is called Dexter. This is it, in titanium glory. It has 
been flight qualified. It is ready to roll. This is the actual 
piece of hardware that we are planning to use to service the 
Hubble. It is ready now. So, a question arises, which is can 
this robot do the job, and here, you see Dexter actually doing 
one of the tasks. This is the--basically the battery jumper 
cable installation task, and Dexter uses a sense of touch, 
which you can more or less see in action right here. Without 
that, it wouldn't be possible, but as you can see, it is 
possible.
    There was some doubt about whether Dexter could be 
controlled from a distance. Here are some astronauts in 
Houston. The robot and the telescope mockup are in D.C. here. 
This is the wide field camera insertion. This is fairly 
realistic test. Time delay, it is the whole nine yards, no 
problem. So, we see we have a lot of reality already in this 
mission, and I want to turn now to talk briefly about the 
reports that have been issued about it.
    This page is about as black and white as it can get, from 
our point of view. I will start quickly with the costs. The 
Aerospace Corporation suggested the cost of a grapple arm would 
be $700 million. I have to tell you when I saw this, I was 
pretty amazed that--I thought maybe we left a lot of money on 
the table, because frankly, our contract is $154 million, firm, 
fixed price, can't go up, of which a small component, $25 
million, is for this grapple arm. So, we--we are just puzzled 
by this. The same basic confusion between this original 
estimate and how our contract actually come down. Our contract 
specifies delivery in 31 months, less than half the estimated 
time, with penalties if we are late. Similar story on mission 
risk. This robotic mission was rated a high mission risk, and I 
invite you to look at the track record of Space Robotics, 25 
years, 69 missions, not a single mission failure.
    Lest it be seen like only the robotic is the reliable 
component, and only the robotics can be prepared in time, the 
Lockheed story is the same. This spacecraft is to be delivered 
in 30 months, not 66 months. If I back up for a moment and look 
at the total budget picture, there is this estimate floating 
around, $2 billion, $2.2 billion. We have these two contracts. 
They add up to a little bit less than half a billion. We have 
our colleagues at Goddard. We are one long way from $2 billion 
at the moment.
    I want to turn briefly to the NAS appraisal. This was an 
extraordinarily bleak appraisal of the prospects for this 
mission, which directly fly in the face of everything we know 
about the track record for space robotics. That raises the 
question, how could this be? And I have a little chart here 
that more or less explains the logic that you have already 
heard. What it comes down to is estimates of schedule. The 
Hubble is degrading. If we assume that we have a project that 
starts from a clean sheet, that is, we have to figure out how 
to do this, it is plausible that it might take 66 months. By 
the time you get there, the telescope is dead. This is not a 
good plan.
    This is not the reality. The reality of this is the program 
was conceived as starting from a huge running start. It is 
maximally exploiting existing technology. You saw it hanging 
there. The same with the spacecraft. The same with the LIDAR 
sensor, et cetera, et cetera. If you start from a big running 
start, it is much more plausible to assume this project can be 
done in a shorter timeframe. It is not an aggressive schedule 
if you don't assume you are starting from a blank sheet of 
paper, and in fact, we are also improving the rate of the 
Hubble degradation and the total picture changes completely 
when you realize that this assumption was wrong.
    If we assume the schedule can be met, the question then 
turns to the real technical risks of can we do this job? And 
all I can tell you about this is you don't stand back and say 
this is a big, complicated problem. What you do is you dive in, 
you break the problem down into pieces, and you see if you can 
solve the pieces one by one. And I believe on the chart over 
here, you can see some of the progress that is being made. One 
of the things we did is we relentlessly took a real robot 
operating on real mockup hardware at Goddard, and we have now 
executed every single task that is necessary to do the 
servicing and upgrade operations. This has actually been done. 
This is the most that we could possibly do to prove it is 
possible prior to actually going and doing it with the 
telescope.
    There are other areas of risk that have been raised. For 
example, the autonomous rendezvous. This is an interesting one. 
The Russians have been doing this for 20 years. The Air Force 
knows that this is an important capability for the United 
States. There is a mission launching next month. The spacecraft 
is actually being fueled as we sit here. This mission will 
launch. It will prove this technology works by the time of the 
critical design review of the Hubble mission, we will know 
whether this technology works.
    The Committee also asked me to comment briefly on the pros 
and cons of the robotics mission versus Shuttle. This is a big 
topic. I have one comment to make. The NAS report focuses on 
the safety advantage of a--or disadvantage of a single mission. 
The bottom line here is if we make a robot that can do this 
kind of servicing, we have changed the safety tradeoff equation 
for NASA and astronauts for the rest of time, not just this 
mission. It is a fairly significant fact.
    One last point about the robots. The robots build a 
capability that is important for the future, and for a variety 
of uses. These include the big observatories of the future of 
science. These include national security assets in orbit. And 
for sure, the exploration vision which has been explicitly 
articulated in terms of just this kind of robotic capability.
    In short, we can do this, and we think it is the right 
thing to do. Thank you. I look forward to your questions.
    [The prepared statement of Dr. Cooper follows:]
                   Prepared Statement of Paul Cooper

                Saving Hubble Robotically: A Wise Choice

                      NAS Report Overstated Risks

Executive Summary

    The mission to save the Hubble robotically began October 1, 2004, 
with a huge ``running start.'' Key elements of the system, such as 
Dextre (the dexterous robot that will actually perform the servicing 
activities), are already built. Other major subsystems are ``build to 
print'' of existing technology or require little or no development.
    Estimates of schedule--can the mission be launched before the 
Hubble degrades too far?--are key to evaluating whether the mission 
will be successful. The advisory reports (one from the Aerospace Corp. 
and one from the National Academy of Science) derived pessimistic 
schedule estimates from the faulty assumption that the program would 
begin from scratch, with a ``blank sheet of paper.'' The real situation 
clearly contradicts this. One new piece of data is the delivery date 
for the robotic system: 31 months (Firm Fixed Price with penalties for 
late delivery). This is less than half the 65 months assumed by the 
NAS. The actual facts about cost also challenge early estimates (e.g., 
robotic grapple arm is $25M versus Aerospace Corp. estimates of $700M).
    Since the mission can be launched in time to arrive before the 
telescope is dead, the question that remains is technical risk. A key 
mission task entailing some risk is initially grappling or grabbing the 
telescope following rendezvous. This grapple task will be executed 
using a robotic grapple arm and ``end effector'' (or hand). The end 
effector will re-use an actual flight unit from the Space Shuttle 
manipulator, and the grapple arm for the mission is very similar to the 
existing Shuttle arms. Over 25 years, the Shuttle manipulator has 
executed 69 missions, including 142 grapple operations, without a 
single mission failure. This track record includes grappling the Hubble 
itself on five occasions.
    In short, the NAS report significantly over-stated the risks 
associated with the robotic mission to save the Hubble.
    The NAS report recommended a Shuttle-based rescue mission for 
servicing Hubble. If the decision were a simplistic man versus machine 
choice, the best choice would be astronauts. But if one asks the 
broader question: ``How does NASA best deploy its Shuttles, astronauts, 
and robotic technology?'', risking astronaut lives to change batteries 
seems shortsighted.
    Finally, it was not within the scope of the NAS report to consider 
the value of the various mission options, beyond saving the Hubble. But 
the robotics mission has a clear advantage in this regard. For example, 
there is little of value to be learned by having astronauts do 
something they have done four times before. The capability for robotic 
servicing in space, on the other hand, is important to the future of 
science, national security and exploration.
    To be more specific, since the future of astronomy is with large 
instruments outside the Shuttle's reach, robots that can service and 
upgrade them are likely crucial to the future of astronomy. For 
national security, the ability to robotically inspect and service large 
DOD assets in orbit is important. And the Nation's exploration vision 
has already been explicitly articulated in terms of humans and robots 
working together. Robots will be necessary, for example, to assemble 
and maintain spacecraft, staging depots, and infrastructure.
    To summarize, the robotic servicing mission will be successful 
saving the Hubble, while also contributing to the future of science, 
security and exploration.

1 Introduction

    Good morning Mr. Chairman, Committee Members. It's a tremendous 
honor to be invited to be here, and it's a particular honor to be 
representing the team of extraordinarily motivated people working as we 
speak towards the Robotic Servicing Mission Critical Design Review in 
the fall.
    I am Paul Cooper; I lead the space robotics business at MDA Space 
Missions, which for 25 years has been NASA's space robotics partner.
    Let me first reinforce that saving the Hubble is an important and 
worthy goal; in fact, it is among our engineers' proudest achievements 
to have played a key role in the four earlier servicing missions, as 
well as the initial deployment of the telescope.
    Among the options for servicing the telescope, we believe that the 
robotic servicing mission, already underway, is the right choice. In 
particular, we feel that the recently released reports from the 
National Academy of Sciences and the Aerospace Corporation have 
significantly over estimated the risks associated with saving Hubble 
robotically.

2 The Robotic Servicing Mission

    I assume that the Committee may already be aware of the mission 
profile for Hubble robotic servicing, but nevertheless here's a quick 
summary:

        <bullet>  Launch of Hubble Space Telescope (HST) Robotic 
        Vehicle (HRV) on an Atlas V or Delta IV expendable launch 
        vehicle.

        <bullet>  The HRV will consist of two separate spacecraft: the 
        De-orbit Module (DM) and the Ejection Module (EM).

        <bullet>  HRV rendezvous with HST.

        <bullet>  Capture of HST using a 42-foot long Grapple Arm 
        (similar to the Shuttle Robotic Arm but slightly shorter); the 
        Grapple Arm will then be used to attach the HRV to the HST.

        <bullet>  Grapple Arm releases HST and picks up Dextre (or 
        Special Purpose Dexterous Manipulator).

        <bullet>  Dextre is used to perform servicing mission tasks:

                <bullet>  Robotically connect new battery packs to HST

                <bullet>  Robotically connect new gyros to HST

                <bullet>  Change-out Wide Field Camera

                <bullet>  Change-out Cosmic Origins Spectrograph

                <bullet>  Other servicing tasks

        <bullet>  At the conclusion of the HST Robotic Servicing 
        Mission, the EM (along with all the robotic servicing 
        equipment) will be separated from the HRV, leaving the DM 
        attached to the HST.

        <bullet>  At the conclusion of (extended) HST scientific life, 
        HRV-DM will safely de-orbit Hubble into the Pacific Ocean.

    Figure 1 shows the Hubble with the HRV attached and the robots 
deployed.
    The Hubble robotics servicing mission is also illustrated in a NASA 
movie that can be found at the NASA Goddard website (http://
hubble.nasa.gov/missions/intro.php).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


2.1 Mission Status

    As of February 1, 2005 the mission has progressed significantly, 
and is on schedule for a late 2007 launch, beginning with an October 1, 
2004 start date. The major subcontracts are in place (for the supply of 
the De-orbit Module and the Robotic System), and a large team is ramped 
up and working at speed both within and outside of NASA.
    The Mission Preliminary Design Review is scheduled for March 2005, 
with Critical Design Review to follow in early September 2005.
    These ``design'' reviews suggest that the mission is still on the 
drawing boards. But due to the heavy re-use of existing technology, 
progress is far further ahead than one might envision.
    For example, for the two major elements of the robot system, in one 
case (the use of the Space Station Dextre for Hubble instead of 
Station) the major components are already essentially complete, and 
where new hardware is being built (e.g., for the Grapple Arm), we have 
already begun cutting titanium forgings to make the new gears.
    In another example, a few weeks ago NASA Goddard received a 
deliverable from Draper: software to control the spacecraft during 
autonomous rendezvous.
    In other words, the robotic servicing mission is not a half-baked 
notional plan, but is a rapidly maturing reality being assembled from 
prior work.

3 Overall Orbital Robotics Track Record

    Figure 2 is emblematic of the trust that NASA has developed in 
space robotics: not only does it show humans and robots working 
together, but it shows one of the space program's most valuable 
assets--an astronaut--literally hanging from a robot during Extra 
Vehicular Activity (EVA).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The most well-known space robot, the Shuttle Remote Manipulator 
System, has been flying since 1981. It has performed 69 missions 
without a single mission failure. The same system has also been 
successfully used four times to grapple the Hubble Space Telescope and 
to support subsequent EVA servicing missions for the Hubble.
    This track record is particularly relevant because the robotic 
servicing mission plan calls for the use of a robotic arm nearly 
identical to the Shuttle arm, including the re-use of a actual Shuttle 
flight ``end effector'' (the ``hand'' on the end of the arm).
    More recently, new robotic systems have been developed for the 
construction and maintenance of the International Space Station, 
including Dextre, to be described momentarily. Unmanned robotic 
missions for DOD applications in Low-Earth Orbit (LEO) have also been 
developed.
    Beyond LEO, the heritage and operational reliability of the many 
robots that have been the workhorse of planetary science are relevant, 
include the current MER rovers on Mars.

4 Aerospace Corporation Report

    In our opinion, the Analysis of Alternatives report from the 
Aerospace Corporation was overly pessimistic in its view of robotic 
servicing. Table 1 summarizes our view of the difference between what 
are now known facts concerning the robotics elements, and what the 
report asserted.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


4.1 Cost

    The Aerospace Corporation report has suggested that a Hubble 
Robotic Servicing Program will cost more than US$2B, with a grapple arm 
incremental cost of approximately US$700M. The fact of the matter is 
that MDA has entered into a Firm Fixed Price Contract with NASA at 
US$154M to provide a grapple arm plus a dexterous robot and other 
accessories. (The share of the contract devoted to the grapple arm 
amounts to $25M.)

4.2 Schedule

    The Aerospace Corporation report suggested that a Hubble Robotic 
Servicing Program will take at least 66 months to execute. Again, the 
fact is that on the robotics portion of the mission, MDA has 
contractually committed to NASA to deliver the robotics systems within 
31 months, with the potential for negative financial consequences if 
delivery is late.
    As for the spacecraft portion of the mission, the Aerospace 
Corporation has drawn their schedule conclusion based on a diverse and 
not necessarily compatible data set, including a mix of manned and 
unmanned missions, U.S. and foreign Programs, and so on. As shown in 
Figure 3, a very different perspective will emerge using data points 
that reflect new spacecraft development that is not ``done from 
scratch'' but nonetheless yields a new integrated product. We believe 
that this perspective is representative of the current Hubble Robotic 
Servicing Program run by NASA Goddard, which maximizes the use of 
existing technologies and subsystems to support a ``running start'' and 
not a ``white sheet of paper'' approach. This approach suggests that a 
roughly 40 month schedule for the Program is entirely plausible, and 
not the 66 month schedule that has been suggested.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


4.3 Development Risk

4.3.1 Robot System

    The Aerospace Corporation report suggested that a Hubble Robotic 
Servicing Program has high development and mission risks. Development 
risk is defined as the risks associated with preparing the mission in 
time. Mission risk is defined as the risk associated with executing the 
mission successfully. (Although for the NAS mission risk was defined as 
the risk of failing to achieve mission objectives.)
    The overall evaluation was dominated by the estimate of the 
schedule necessary to mount the mission. In short, if the telescope has 
a high likelihood of being dead by the time the rescue mission reaches 
it, the mission is a failure.
    Because the Robot System for Hubble servicing either uses hardware 
that is already built or leans heavily on existing hardware, there is 
practically no development risk. The primary example is Dextre. A 
picture of the completed and flight-qualified Dextre, hanging in our 
Cleanroom, is shown in Figure 4. This is the actual robot that will be 
used to service the Hubble; the only planned change is to add an 
additional camera. (A copy of Dextre will be built for later use on the 
Space Station.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    For another extremely important element of the Robot System--the 
End Effector that will actually grapple the Hubble and pick up Dextre--
the plan is to re-use a Shuttle flight unit that has already 
successfully performed this critical operation on orbit dozens of 
times.
    In short, for the Robotic System, development risk is minimal. 
Hence the willingness of the contractor to enter into a Firm Fixed 
Price contract with a 31 month schedule.

4.3.2 Other Mission Elements

    Is there then some other critical mission element that is being 
developed from scratch, for which the assumed schedule of 66 months 
makes more sense? The answer, in short, is no. The de-orbit vehicle is 
also on an approximately 30 month schedule, and maximizes re-use of 
existing technology. A key sensor for the rendezvous (the ``lidar'') is 
a re-build of a sensor just delivered a few months ago for a separate 
mission. The situation is similar for basically all the key components 
of the mission, including the software for controlling the spacecraft 
during rendezvous.

4.4 Mission Risk

    The Aerospace report analyzed ``mission risk'' as the concatenated 
probability of failure of specific subsystems and mission tasks.
    As a starting point, consider the Aerospace analysis of the 
probability of mission success for the De-orbit Option using a grapple 
arm: 93 percent. A key thing to understand about the De-orbit mission 
profile is that it contains almost all the significant risks of the 
servicing mission, specifically the need to autonomously rendezvous 
with and grapple a potentially tumbling telescope.
    Once the telescope is grappled and the rescue vehicle is berthed, 
the mission risk reduces down to the risk of successfully executing the 
specific repair and upgrade operations.
    But while the Aerospace report was guessing at the likelihood of 
specific component and task failures, NASA Goddard (working in concert 
with engineers from MDA Space Missions) was systematically performing 
each operation using real hardware--that is, using the Earth-bound 
version of Dextre operating on the Hubble high fidelity mockup.
    NASA summarized this intensive risk retirement activity in this 
way: ``A space-flight qualified robot has successfully demonstrated 
that all life-extension tasks and science instrument change-outs can be 
robotically performed.'' (A comprehensive list of the tasks performed 
and the dates upon which they were executed is included in Appendix C.)
    It would be difficult to do further work to retire mission risks; 
the next logical step is to actually execute the mission. Based on 
these new facts, one can now estimate the likelihood of successfully 
executing the whole servicing operation as similar to the likelihood of 
succeeding at the de-orbit mission, e.g., in the 90 percentile range.

4.5 Summary on Aerospace Report

    I would like to summarize our reaction to the Aerospace Corporation 
Report as follows:

        <bullet>  Aerospace Corp. Reported Baseline Assessment for 
        Robotic Servicing Program: US$2B, 5.4 years, high development 
        risk, high mission risk

        <bullet>  Alternative Assessment:  US$1.3B, 3.5 years 
        plausible, little development risk, 90 percent or higher 
        probability of mission success

5 National Academy of Sciences (NAS) Report: Risk Overstated

5.1 Overall Mission Risk Appraisal

    The NAS report concluded with a remarkably pessimistic appraisal 
about the prospects for the robotic mission: an 80 percent chance of 
mission failure is asserted.
    This seems to fly in the face of everything known about the track 
record of space robotics, so how could this conclusion have been 
arrived at? The assertion is derived mainly from two guesses: a guess 
as to how long it will take to mount the mission, and a guess as to how 
slowly the Hubble will degrade, i.e., in what state will the telescope 
be when the robotic rescue mission reaches it?
    The NAS report inherited its schedule assumptions in large part 
from the Aerospace report, and the same consequences follow as 
described earlier. Since in reality the Hubble robotic rescue is 
starting from a ``running start'' (e.g., maximal utilization of 
existing technology) we can reasonably expect the mission to be 
launched before the telescope degrades to the point where it cannot be 
repaired.
    Also, continuing progress is being made in slowing the Hubble's 
rate of degradation, further mitigating the risk to mission success 
from schedule. If the risks due to schedule are removed, what remains 
as a real threat to the mission's success are technical risks.

5.2 NAS Technical Risks

    The NAS report identified a number of areas of technical concern. 
We discuss these risks, and highlight in particular the risk mitigation 
progress that has been made since the report was published.

5.2.1 Grapple Events

    The NAS report expressed concern that each grapple event was a 
source of risk, e.g., initially grappling the telescope, releasing the 
telescope, and subsequently grappling Dextre.\1\ Each event requires 
making a mechanical connection and in the case of grappling Dextre, 
establishing an electrical connection as well.
---------------------------------------------------------------------------
    \1\ National Research Council of the National Academies (2004) 
Assessment of Options for Extending the Life of the Hubble Space 
Telescope: Final Report. Page 63-66.
---------------------------------------------------------------------------
    In a nutshell, this concern is misplaced. The mission plan calls 
for the re-use of a reliable End Effector from the Shuttle robotic arm, 
proven through dozens of uses in space. Literally hundreds of grapple 
operations have been performed with identical hardware over the past 
decades. (Appendix A summarizes the performance of the Shuttle Remote 
Manipulator System.)

5.2.2 Time-delayed Control

    The NAS report expressed concern about the risks related to 
operating on-orbit robots from the ground via time-delayed control\2\. 
There is no doubt that time-delay will be present when controlling the 
robots, since for example, the signal will travel via the TDRSS data 
relay satellite.
---------------------------------------------------------------------------
    \2\ National Research Council of the National Academies (2004) 
Assessment of Options for Extending the Life of the Hubble Space 
Telescope: Final Report. Page 63.
---------------------------------------------------------------------------
    Since the report was issued, two significant developments have 
transpired that suggest the risks inherent in time-delayed control are 
less than the NAS report suggests.
    First, following a one-year review process, ground control of Space 
Station robotics recently passed the NASA Space Station Safety Review 
panel in September 2004. This process was driven by need: astronaut 
time on-orbit is scarce and valuable, and if robots can perform mundane 
tasks while controlled from the ground, on-orbit productivity will 
increase. (This same trade-off applies more broadly for the Hubble 
mission.) As one can imagine, the safety review involved an extreme in-
depth scrutiny of the risks involved with time-delayed control of on-
orbit robots. Ground control is set to be commissioned on-orbit in 
February 2005. There is no doubt that during 2005 (prior to the Hubble 
robotic mission CDR in the fall), much will be learned from operational 
experience. These lessons can be incorporated into planning for the 
Hubble mission, which uses substantially the same ground control 
system.
    Second, risk mitigation testing specifically aimed at addressing 
this question has been ongoing at Goddard. Since the NAS report, 
numerous tests of the Earth-bound version of the Dextre robot have been 
performed. Shuttle astronauts at the Johnson Space Center remotely 
operated the robot at NASA Goddard to extract the Wide Field of View 
Camera 2 (WFOC-2) and insert the WFOC-3 overcoming technical challenges 
such as control time delays of two seconds. In a separate set of tests, 
variable control time delays of up to eight seconds were generated 
during the extraction of the COSTAR instrument and replacement of the 
COS instrument. These tests independently varied the video and force 
feedback time delays. Other tests have demonstrated that astronaut 
control is achievable even in operations in which astronauts are 
provided with inadequate camera views of the worksites. Our testing 
shows that the mission is wholly feasible under the constraints of time 
delay.

5.2.3 Autonomous Rendezvous

    The NAS report highlights the risk of autonomous rendezvous as one 
of the most serious to be faced by the mission. In fact, the report 
asserts that this ``has never been done.'' \3\
---------------------------------------------------------------------------
    \3\ National Research Council of the National Academies (2004) 
Assessment of Options for Extending the Life of the Hubble Space 
Telescope: Final Report. Page 63.
---------------------------------------------------------------------------
    Russian spacecraft have been routinely executing automatic 
rendezvous and docking missions using technology developed in the early 
80's. Table 2 summarizes autonomous rendezvous and docking with Russian 
spacecraft.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The importance of autonomous rendezvous and proximity operations 
has been recognized by the U.S. space community for some time. As a 
result, there has been a significant development activity in place for 
many years, and a sequence of missions is planned to validate and 
demonstrate these capabilities. All these missions will fly prior to 
the Hubble mission, with time enough to incorporate ``lessons 
learned.'' Missions devoted to examining autonomous rendezvous and/or 
capture/docking include the XSS-11 mission for the Air Force Research 
Labs (scheduled for launch March 2005), the DARPA Orbital Express 
mission (scheduled for launch in 2006), and the DART mission.
    The initial concepts for rendezvous and capture were developed 
during the Gemini and Apollo programs. The Shuttle has demonstrated 
that these can be performed for a more general set of LEO missions and 
has developed a wide variety of approach trajectories and control 
strategies. These missions demonstrated many of the automated guidance, 
navigation and control functions required today for autonomous 
rendezvous and capture. For both Apollo and Shuttle, the rendezvous 
planning was performed on the ground, but the on-board system was able 
to target and automatically control the rendezvous burns. The final 
capture/docking phase was controlled manually by the crew. The Shuttle 
on-board GN&C is able to automatically perform many of the necessary 
rendezvous functions, including relative navigation, targeting and 
control. Attitude control is done automatically, and translational 
control is done manually based upon Rendezvous and Prox Ops Planner 
(RPOP) software that runs on a laptop computer in the cockpit.
    The crew enters data into the laptop from the hand-held radar and 
the Trajectory Control Sensor (LIDAR), and the RPOP program computes 
the burn plan. The crew manually performs the final docking maneuvers 
using the cameras and data from the vision sensors. The Hubble Robotic 
Servicing mission will require full automation of these functions, but 
the fundamental techniques for rendezvous, proximity operations, and 
capture of a stable target have been adequately demonstrated.
    The significant remaining technical issues that need to be 
addressed for the AR&C phase of the Hubble Robotic Servicing mission 
are the autonomous operations, and the relative sensing and subsequent 
capture of a tumbling target.
XSS-11
    As of Feb. 1, 2005, the XSS-11 spacecraft is being fueled for 
launch in a few weeks. The automation aspects of autonomous rendezvous 
are fully addressed with the XSS-11 mission plan, which will perform 
completely several fully autonomous rendezvous and operations in 
proximity to several uncooperative targets. The software to affect an 
autonomous rendezvous and capture has been developed and tested in a 6 
degree-of-freedom (6DOF) gantry facility at Lockheed Martin.
    A version of this software suitable for the Hubble mission 
rendezvous and proximity operations from long range into a 10 foot 
offset point has been developed by Draper Lab, and has already been 
delivered to Lockheed for the purpose of conducting simulation 
demonstrations of the autonomous Hubble rendezvous and capture.
    The XSS-11 mission relies on a laser-based Lidar vision system for 
rendezvous and docking. By detecting the reflection of a laser beam, 
the Lidar will detect features on objects that are less than half an 
inch in size from a distance of almost two miles. The same Lidar will 
be used on the Hubble Robotic servicing mission.
    The on-orbit performance of the entire XSS-11 rendezvous system, 
including sensor, will be known by the September 2005, when the 
Critical Design Review is scheduled for the Hubble robotic mission.
    In addition, extensive ground validation of the autonomous capture 
operations is ongoing for the Hubble Robotic Servicing mission. The 
6DOF proximity operations necessary to match the rotation of a tumbling 
HST have been demonstrated in a high fidelity simulation by Draper Lab. 
It should be noted that the estimated worst case rotation rate is very 
slow at 0.22 deg/second (or only 2.2 revolutions per hour).

5.2.4 System Integration

    The NAS report also highlighted the risks associated with the 
overall task of integrating and testing the entire system. Since the 
NAS fact finding sessions, the program has actually begun, and NASA 
Goddard has substantially matured its plan for System Integration. This 
plan is included as Appendix B.

5.2.5 Robotic Repair Operations Actually Performed on Hubble Mockup

    One thing that was remarkable in its absence from the NAS report 
was any discussion of the extensive efforts that have gone on at 
Goddard in the past year to prove, by having the ground test-bed 
version of Dextre actually execute the operations on the high fidelity 
mockup of Hubble, that all the operations could be executed. In other 
words, predominately since the NAS report fact finding, a space-flight 
qualified robot has successfully demonstrated that all life-extension 
tasks and science instrument change-outs can be robotically performed.
    Appendix C describes these operational tests in more detail.

5.3 Robotics' Risk Summary

5.3.1 The Robotic Mission Will Have Time and Be Flexible

    Perceptions of how the robots will operate can affect inferences 
about associated risk. Sometimes, it seems like people imagine that the 
robotic rescue mission is going to be like a car assembly operation--
that it can only be done one way and if that way fails we're stuck. 
Alternatively, people imagine that while an astronaut is driving the 
robot from on the Earth, something is going to happen really fast that 
we won't be able to deal with.
    But both these perceptions are wrong.
    Previous Shuttle-based Hubble Servicing Missions, although very 
successful, have relied on quick execution of EVA tasks on a very tight 
timeline that is counted in hours and days.
    The robots, however, won't need oxygen, and we'll have lots of 
time--weeks or months if necessary--to go slow, evaluate what's 
happening, make adjustments, make multiple attempts at operations, and 
re-plan if necessary. For example, we have two arms to use, even though 
the nominal operations plan calls for using only one most of the time.
    We have seen with the current Mars rovers a very compelling example 
of how robots can recover from problems, and do amazing things in much 
more difficult circumstances (e.g., much longer time delays for 
control) than what we are looking at for Hubble.
    In short, the robot mission will be much more flexible than people 
imagine.

5.3.2 The Next Step: Fly the Mission

    It is our opinion that the robotic risks for the Hubble robotic 
servicing mission have been largely overstated by the NAS report. Key 
identified risks in autonomous rendezvous and grapple have either 
already been largely demonstrated or are to be fully demonstrated on 
missions such as XSS-11, DART and Orbital Express. Ground control of 
Space Station robot has already passed NASA safety review and is 
scheduled for a first demonstration in February 2005. Critical Hubble 
servicing robotic operations have been tried-out on the ground using 
flight-representative robotic and Hubble mockups remotely operated over 
long distances. The key robotics risks for the mission, in our opinion, 
have hence been largely retired, and the next logical step is actually 
to fly it.

6 Alternative Mission Options

6.1 Shuttle Servicing Option

    The NAS report recommends using a Shuttle mission to service the 
Hubble. If one allows for the possibility that a robotic mission is 
likely to be successful, a robotic option becomes the preferred option.
    On this question there is no debate: ``Which is more intelligent 
and flexible, astronaut or robot, and thus more likely to succeed in 
performing Hubble servicing activities?'' Everyone would agree that an 
astronaut is more likely to be successful. This is not, however, the 
fundamental question needing to be addressed.
    The broader question is something more like: ``Given the available 
assets for use in space, including Shuttles, astronauts, robots, ELVs, 
etc., what is the best way of allocating these assets to the tasks to 
be accomplished?''
    Servicing the Hubble robotically has compelling value when 
considered in this light:

        1)  It liberates scarce resources--Shuttles and astronauts--for 
        other tasks that cannot be achieved using a robotic mission

        2)  It allows the Shuttle to be retired sooner

        3)  Astronaut lives are not risked on this mission

        4)  A capability is developed that can be used on other 
        missions (this is described momentarily)

    Astronauts changing batteries? It appears short-sighted, and 
certainly we will need other more economically appropriate alternatives 
in the long run.

6.2 De-orbit Only Option

    It is our understanding that at a minimum, a robotic de-orbit 
mission of the Hubble has to be mounted, in order to avoid an eventual 
uncontrolled re-entry of the telescope, and thus ensure public safety. 
The Aerospace Corporation report asserted that a de-orbit mission using 
a robotic grapple arm for Hubble capture has a 93 percent probability 
of mission success.
    From a robotics point of view, the key fact about a de-orbit 
mission is this: adding servicing to a de-orbit mission adds only 
relatively small incremental risk and cost. Put another way: Since the 
key mission risks of ``autonomous rendezvous and grapple'' are the same 
for the servicing and de-orbit missions, why not do the servicing too?
    This logic is particularly compelling if the telescope is dying 
anyway, and there is little to lose by trying to fix it. The servicing 
mission will only add incremental costs and small incremental risks, 
while producing very significant paybacks.

6.3 Rehosting

    Another alternative that has been proposed is rehosting the science 
instruments intended for the Hubble upgrade on another new platform 
similar to the Hubble.
    It is certainly beyond the scope of this witness to comment on the 
technical and economic challenges of building space telescopes, and the 
potential science value that may result.
    It may perhaps be useful to note, however:

    A new telescope contributes nothing to the Hubble problems--at a 
minimum, a still-expensive de-orbit-only mission must be mounted for 
Hubble. But the incremental cost of adding servicing to a de-orbit 
mission is certainly much less than the cost of developing a rehosting 
solution.
    Unlike the robotic mission, constructing a new telescope is 
unlikely to make a substantial contribution to any other space mission 
goals.

7 The Future

    Unlike the other options for servicing the Hubble, developing a 
robotic servicing capability would be extremely valuable for other 
national needs in space.

7.1 Science

    The future in astronomy is to place larger instruments well beyond 
low Earth orbit, for example at Lagrangian Points such as L2 (which is 
beyond the Moon). These distances are so far that they are beyond the 
reach of the Shuttle. Robotic servicing offers scientists the ability 
to upgrade these instruments as our knowledge of the universe unfolds. 
The Hubble Robotics Servicing Mission will provide scientists with a 
proven method for building ever better instruments.

7.2 National Security

    Akin to extending the life of the Hubble Space Telescope, the 
Department of Defense (DOD) is seeking to extend the life of critical 
military space assets by performing on-orbit servicing. The XSS-11 and 
Orbital Express missions are developing and testing the necessary 
technologies for servicing military satellites on-orbit. The DOD has 
decided to use robots for autonomous rendezvous and docking, refueling, 
repair and other tasks. The DOD will benefit from the experiences 
gained on the Hubble Robotics Servicing Mission.

7.3 Exploration

    Future Space Exploration Programs will undoubtedly need to maximize 
sustainable affordability, maximize safety, improve mission success 
effectiveness and advance the state-of-the-art with each mission. 
Future missions will also need to achieve the right balance between 
humans and robots working collaboratively, given some of the far 
mission locations and the high costs and complexity of conducting 
human-only missions. Robotics advancement will open new alternatives 
that can contribute increased safety and mission success, while 
lowering overall mission costs. NASA is already embarking on its vision 
to use humans and robots in tandem to explore the universe. Humans are 
to perform the analysis and discovery and manage dynamic environments 
while robots will complement humans by performing routine tasks such as 
the maintenance of spacecraft staging depots and infrastructure.
    More specifically, the proposed Hubble Robotics Mission will serve 
as a key stepping stone for NASA's new vision for Space Exploration, by 
acting as a precursor and testbed for effective closely coupled human 
and robotic partnerships in Exploration. Astronauts have already well 
proven themselves on previous Hubble Servicing and other manned 
missions in Low-Earth Orbit and on the Moon. Now is the right time to 
extend the reach of astronauts by introducing more sophisticated 
remotely operated robotic capabilities.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Appendix B:

 System Integration Plan for the Hubble Robotic Servicing and De-orbit 
                            Mission (HRSDM)

    HRSDM is truly a large system to design, develop, integrate, test 
and verify, within a 39-month start to launch period of performance. 
This was accommodated during selection of architecture through an 
approach that focuses on a modular, relatively independent, 
implementation. This includes:

        <bullet>  Stand alone De-orbit Module based on a proven 
        spacecraft.

        <bullet>  Existing Robot System with International Space 
        Station heritage.

        <bullet>  New GSFC developed Ejection Module with high 
        commonality with De-orbit Module spacecraft bus architecture.

        <bullet>  An evolving Ground Station made up of existing HST 
        ground equipment augmented with equipment used during HRSDM 
        elements integration and test program.

        <bullet>  Existing HST science replacement hardware ready for 
        incorporation into the Hubble Space Telescope.

    The implementation approach described above has three major 
features that will facilitate System I&T. First, each of the major 
program elements will be independently integrated, tested and verified 
against their respective requirements. During that integration and test 
process, simulators from the interfacing elements will be used for 
interface validation.
    Second, a full up System Integration and Test Program of all of the 
elements at GSFC starting January 2007 one year prior to launch, will 
validate all system interfaces and complete Element Level environmental 
test.
    Third, all of the Element Level ground station hardware and 
software that will be used to test the various elements at their 
developer's facilities, will be delivered to GSFC for final HRSDM Level 
Integration and Test and will remain at the Mission Operations Control 
Center through the Servicing Mission, as applicable, through the 
eventual De-orbit Mission.
    The GSFC existing facilities, the just-in-time deliveries of the 
HRSDM elements, and the preliminary System Level integration during 
Element I&T are major contributing factors of a rigorous, albeit short, 
implementation program. However, the principal contribution is the use 
of existing personnel experienced on four prior servicing missions who 
have demonstrated their ability to meet launch dates without 
compromising mission integrity. Building of EM in-house allows the 
personnel to get involved early throughout the EM I&T program. As 
Robotic System hardware, EM spacecraft, and HST payloads become 
available, they will be interfaced and tested along with their 
appropriate ground stations. This enables a team to start into System 
Level I&T during EM testing from September 2006 through January 2007. 
During the February 2007 through May 2007 as the other elements are 
delivered, this experienced team will integrate the elements into the 
Mission System.
    This still leaves six full months for System Level testing, mission 
simulations and requirements verifications, before delivery of the 
mission to KSC for launch.
    Throughout the mission the same trained and experienced work force 
will man the Ground Stations, operate the HRSDM Elements, service the 
HST and de-orbit the Ejection Module spacecraft.

Appendix C:

                         Hubble Mockup Testing

    Since March 2004, engineers have been testing an Earth bound 
version of Dextre to determine if all of the Hubble servicing tasks can 
be accomplished robotically under the actual operation scenario which 
includes various degrees of camera views, transmission time delays and 
variable lighting conditions. These tests are summarized below.

AT MDA

15/3/04--07/04/04

SSM BAY 1--(486 COMPUTER)

         J LATCH LOCKING FEATURE UNDONE

         J LATCHES ROTATED

         DOOR OPENED

         P9 TERMINATOR PLUG REMOVAL FROM J9

         INSTALLATION OF 1553 DATA BUS CONNECTOR ONTO J9

         DOOR CLOSED

DIODE BOX

         REMOVAL OF P6A PLUG FROM DIODE BOX

         INSTALLATION OF P6A PLUG ONTO TEMP STOW BRACKET

         REMOVAL OF P8A PLUG FROM DIODE BOX

         INSTALLATION OF P8A PLUG ONTO TEMP STOW BRACKET

AT GODDARD SPACE FLIGHT CENTRE

30/04/04--10/05/04

WIDE-FIELD CAMERA

         INSTALLATION OF GROUND STRAP TEMP STOW BRACKET

         GROUND STRAP REMOVAL FROM WIDE-FIELD CAMERA 2

         GROUND STRAP INSTALLATION ON TEMP STOW BRACKET

         WIDEFIELD CAMERA 2 REMOVAL

         WIDEFIELD CAMERA 3 INSERTION

         GROUND STRAP REMOVAL FROM TEMP STOW

         GROUND STRAP INSTALLATION ON WIDE-FIELD CAMERA 3

12/05/04--18/05/04

REMOTE DEMONSTRATION OF WIDE-FIELD TASKS FROM JSC

         CREW TRAINING @ GODDARD FOR WIDE-FIELD TASKS

         CREW TRAINING @ JSC FOR WIDE-FIELD TASKS

         CREW REMOTE DEMONSTRATION FROM JSC

         (GROUND STRAP AND WIDE-FIELD REMOVAL INSERTION TASKS, WITH 
        LATENCY--TWO SECONDS ON VIDEO, TELEMETRY INSTANTANEOUS)

19/05/04--28/05/04

COSTAR/COS TASKS

         INSTALLATION OF ``COME-ALONG'' TOOL TO RESTRAIN DOOR

         UN-TORQUE AND ROTATE LATCHES

         OPEN DOORS

         REMOVE CONNECTORS FROM COSTAR (J1, J2, J3, J4)

         INSTALL CONNECTORS ON CONNECTOR TEMP STOW PANEL (J1, J2, J3, 
        J4)

         REMOVE GROUND STRAP FROM COSTAR

         INSTALL GROUND STRAP ON C.T.P.

         CLOSE DOORS USING ``COME-ALONG'' TOOL

         ROTATE AND TORQUE DOOR LATCHES

         REMOVE ``COME-ALONG'' TOOL

18/06/04--23/07/04

COSTAR/COS TASKS--CONTINUED

         INSTALLATION OF ``COME-ALONG'' TOOL TO RESTRAIN DOOR

         UN-TORQUE AND ROTATE LATCHES

         OPEN DOORS

         INSTALL DOOR RESTRAINT

         INSTALL CONNECTOR TEMP STOW PANEL

         REMOVE CONNECTORS FROM COSTAR (J1, J2, J3, J4)

         INSTALL CONNECTORS ON CONNECTOR TEMP STOW PANEL (J1, J2, J3, 
        J4)

         REMOVE GROUND STRAP FROM COSTAR

         INSTALL GROUND STRAP ON C.T.P.

         MOVE C.T.P. TO HANDRAIL

         INSTALL B LATCH TOOL

         REMOVE COSTAR

         INSTALL COS

         REMOVE B LATCH TOOL

         INSTALL C.T.P. TO COS

         REMOVE DOOR RESTRAINT

         CLOSE DOORS USING ``COME-ALONG'' TOOL

         ROTATE AND TORQUE DOOR LATCHES

         REMOVE ``COME-ALONG'' TOOL

08/09/04--08/10/04

+V2 CONDUIT

         ATTACH CONDUIT TO NC RADIATOR

         RETRIEVE R&P CONNECTION TO DM

         RETRIVE SA UMBILICAL BRACKET

         RETRIEVE AND MATE CONNECTION TO NCS RADIATOR

WIDE-FIELD CAMERA

         INSTALL ADAPTOR PLATE TO WIDE-FIELD CAMERA

         ACCESS A LATCH

         ACQUIRE BLIND MATE CONNECTOR MECHANISM

LATENCY TESTS

         CONTROLLED TESTS OF LATENCY EFFECTS

         VIDEO AND TELEMETRY LATENCY ADJUSTED INDEPENDENTLY

         VIDEO AND TELEMETRY LATENCY TESTED FROM TWO SECONDS TO EIGHT 
        SECONDS

         TASKS PERFORMED WITH LATENCY INCLUDE: COSTAR REMOVAL/COS 
        INSERTION, -V2 DOOR LATCH BOLT ACTIVATION

VISION SYSTEM

         CONTROLLED TESTS OF VISION SYSTEM

         VISION USED TO ASSESS POSITION BY MODEL MATCHING

         -V2 DOOR LATCH SUCCESSFULLY ACQUIRED, UN-TORQUED, AND ROTATED, 
        WITHOUT ASSISTANCE OF VIDEO

29/11/04--17/12/04

V2 AFT SHROUD DOORS

         INSTALLATION OF ``COME-ALONG'' TOOL TO RESTRAIN DOOR

         UN-TORQUE AND ROTATE LATCHES

         OPEN DOORS

         CLOSE DOORS USING ``COME-ALONG'' TOOL

         ENGAGE SHEAR PLATES

         ROTATE AND TORQUE DOOR LATCHES

         REMOVE ``COME-ALONG'' TOOL

SSM BAY

         UN-TORQUE AND ROTATE J LATCHES

FINE GUIDANCE SYSTEM

         REMOVE CONNECTORS

         INSTALL CONNECTORS ON C.T.P.

DIODE BOX

         REMOVE CONNECTORS

         INSTALL CONNECTORS ON C.T.P.

COSTAR/COS

         REMOVE AND INSTALL CONNECTORS
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                       Biography for Paul Cooper
    Dr. Paul Cooper is Vice President and Deputy General Manager at MDA 
Space Missions, where he has overall responsibility for the company's 
space robotics business, including over 700 employees in five 
locations. Prior to joining MDA, Dr. Cooper was CEO and co-founder of 
Perceptual Robotics, Inc., the Chicago company that created the webcam. 
Earlier, he was a Professor of Computer Science at Northwestern 
University. Dr. Cooper's business experience includes strategic 
leadership, business development, product management, and R&D. His 
technical background includes autonomous robotics and AI, computer 
vision, and Internet software; Dr. Cooper is an author of or 
contributor to numerous patents and research papers. He holds 
Bachelor's degrees in both Electrical Engineering and Computer Science 
from the University of British Columbia, and M.S. and Ph.D. degrees 
from the University of Rochester.

    Chairman Boehlert. Thank you very much, Dr. Cooper. Dr. 
Norman.

  STATEMENT OF DR. COLIN A. NORMAN, PROFESSOR OF PHYSICS AND 
              ASTRONOMY, JOHNS HOPKINS UNIVERSITY

    Dr. Norman. Mr. Chairman and Members of the Committee, 
thank you for your invitation to appear before you today.
    There have been many striking moments during the Hubble 
project, times of tragedy associated with the Challenger and 
Columbia, character building times during the discovery of the 
spherical aberration of the mirror, and then the correction, in 
the flawless first servicing mission.
    There have been times of great discovery that have inspired 
us all: the precise establishment of the expansion rate of the 
universe, the determination of the age of the universe, a deep 
understanding of the origin and evolution of galaxies, basic 
discoveries concerning the evolution of stars, and the 
existence of massive black holes at the center of most 
galaxies. Indeed, Hubble discoveries have rewritten the 
textbooks from which our children learn.
    Each of the previous servicing missions has renewed HST and 
added significant new capabilities to the Hubble mission. The 
planned SM-4 servicing mission would be no exception. The 
scientific output of discoveries coming from Hubble has been 
remarkable over the last 15 years. There is no doubt that this 
great scientific data stream will continue as long as the 
Hubble mission itself continues.
    There are three options for continuing the Hubble servicing 
mission. Option one, a manned servicing mission, which NASA is 
very experienced at executing, and which would be carried out 
with brilliance and precision by the astronauts as they have 
done for other servicing missions. Option two, a robotic 
servicing mission that would advance important technology that 
would be extremely useful for future exploration missions of 
the solar system. Brilliant engineers are working on this. 
Option three, a free-flyer mission, to be launched on a rocket, 
that would rehost the COS and WFC3 instruments on a new 
telescope, and would add a very new wide field imager that 
would be provided by an international collaboration with Japan. 
This new Hubble observatory would be a low risk, with a highly 
optimized scientific return. The very wide field imager, with 
its one quarter of a billion pixels, would have a revolutionary 
impact on Hubble's science.
    I will now discuss this new telescope option in more 
detail. Almost a year ago, we approached NASA with the idea of 
a free-flyer option for hosting the COS and WFC3 instruments on 
a new telescope. This is essentially what we call the new car 
option, with state of the art technology. We have an 
experienced team, including four current NASA principal 
investigators. We have developed this study using the basic 
keep-it-simple principle. The Hubble Origins Probe concept is 
to replicate the design of the Hubble Space Telescope with a 
much lighter, unaberrated mirror and associated lightweight 
optical telescope, and a modern spacecraft, enabling a rapid 
path to launch, significant cost savings, and risk mitigation. 
Launch would be on an Atlas 521 rocket. The very wide field 
imager, VWFI, will be built in collaboration with our Japanese 
international partners. The cost will be borne by Japan. The 
scientific enhancement of the mission comes from the fact that 
the field of view of the very wide field imager is 17 times 
that of the Advanced Camera currently flying on Hubble, so we 
can map the heavens 17 times faster.
    The conservative estimate of the cost of the HOP project is 
approximately $1 billion, which is consistent with The 
Aerospace Corporation estimate for the project development up 
to launch. The groundbreaking science, the cutting edge 
technology generated in the development of new instrumentation, 
the ability of Hubble science to engage the interest of the 
public, and its impact on the imagination of students, makes it 
worthwhile to invest this sum of public funds to complete the 
last chapter of Hubble's remarkable legacy.
    We have developed a detailed schedule for HOP and 
reasonably estimate that from the time of the authority to 
proceed, it will take 65 months to a successful launch. There 
are three points that I would like to summarize in closing. 
Point one, the great flow of science from the Hubble Space 
Telescope will continue unabated, as long as it can be 
serviced, either by manned or robotic missions, or continued by 
a new free-flyer mission. Point two, the low risk rehost free-
flyer Hubble Origins Probe mission that I have outlined will 
also continue the great Hubble science program with its state 
of the art technology. With the inclusion of the very wide 
field imager, the scientific capabilities would be very greatly 
enhanced, and qualitatively new science can be done in some of 
the most important areas of physics and astronomy. Point three, 
HOP can address three of the most central intellectual issues 
of our age, the nature of dark energy, the nature and 
distribution of dark matter, and the prevalence of planets, 
including Earths, around other stars.
    At the beginning, I mentioned remarkable Hubble moments. 
This is another such moment. It is time to decide whether to 
proceed with the Hubble science mission with any of the three 
options before us. The decision is obvious. We must continue 
with the Hubble adventure to explore these great questions 
further, to understand more fully our remarkable universe and 
our place in it. We must do this with intense determination and 
energy and thus continue to inspire new generations with the 
wonder and thrill of exploration and discovery.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Norman follows:]

                 Prepared Statement of Colin A. Norman

    Mr. Chairman and Members of the Committee, thank you for the 
invitation to appear before you today.
    There have been many striking moments during the Hubble mission. 
There have been dark times that overshadowed us all; namely, the 
tragedy of Challenger during the pre-launch era of HST, and then more 
recently the Columbia tragedy.
    There have been character-building times during the discovery of 
the spherical aberration of the mirror and then the correction of this 
problem carried out in the flawless First Servicing Mission.
    Then, during the last 15 years, there have been the times of great 
discovery that have inspired us all. The precise establishment of the 
expansion rate of the Universe (the so-called Hubble constant), the 
determination of the age of the universe, a deep understanding of the 
origin and evolution of galaxies, basic discoveries concerning the 
origin and evolution of stars, and the existence of massive black holes 
at the centers of most galaxies. Indeed, Hubble discoveries have 
rewritten the text books from which our children learn.
    Now, in the 21st Century, astrophysics has assumed a vital role at 
the heart of physics itself and Hubble has a major role to play. The 
universe will be the laboratory in which our fundamental understanding 
of the laws of physics in the most extreme conditions is tested, and 
Hubble is already making a major contribution to this understanding.
    We now know that ordinary matter and light constitute only a small 
fraction (a few percent) of the mass and energy content of the 
Universe. The rest is called dark matter and dark energy. Dark energy 
may be associated with the cosmological constant introduced by 
Einstein. We know very little about these major components of our 
Universe. Hubble is essential to making progress in exploring the 
nature of the dark matter and dark energy.
    Each of the previous servicing missions has renewed HST and added 
significant new capabilities to the Hubble Mission. The planned Fourth 
Servicing Mission would be no exception.
    The two new science instruments scheduled for the Fourth Servicing 
Mission are the Cosmic Origins Spectrograph and the Wide-Field Camera 
3. The Cosmic Origins Spectrograph (COS) will enable highly significant 
studies of the diffuse component of the Universe from which all stars 
and galaxies were made. At least half of the ordinary matter in the 
Universe may be identified for the first time using this instrument 
with its powerful spectroscopic capability. Wide-Field Camera 3 (WFC3) 
has greatly enhanced power for discovery in the blue and the red region 
of the spectrum and will significantly enhance studies of galaxies and 
stars. Its infrared capability is essential to studies of dark energy.
    The scientific output of discoveries coming from Hubble has been 
remarkable over the last 15 years. There is no doubt that this great 
scientific data stream will continue as long as the Hubble mission 
itself continues. In addition, there has been very significant 
technical spin-off into industry in the areas of precision engineering, 
CCD development, systems engineering, large-scale software development 
and image processing, and state-of-the-art optical technology.
    There are three options for continuing the Hubble science mission:

        (1)  A manned servicing mission which NASA is very experienced 
        at executing and which would be carried out with brilliance and 
        precision by the astronauts as they have done for the other 
        servicing missions. The issues of safety have been reviewed 
        extensively since the Columbia accident and my team cannot add 
        more to that debate.

        (2)  A robotic servicing mission that would advance important 
        technology that would be extremely useful for future 
        exploration missions of the solar system. The technical 
        feasibility of a robotics mission has been addressed by the 
        recent Academy study. However, it is important to mention that 
        outstanding scientific and engineering efforts are being made 
        at Goddard Space Flight Center and elsewhere to achieve this 
        goal.

        (3)  A free-flyer mission to be launched on a rocket that would 
        rehost the COS and WFC3 instruments on a new telescope and 
        would add a new Very Wide-Field Imager that would be provided 
        by an international collaboration with Japan. This new Hubble 
        Observatory would be a low-risk mission with a highly optimized 
        scientific return. The Very Wide-Field Imager with its one 
        quarter of a billion pixels would have a revolutionary impact 
        on Hubble science.

    I will now discuss this new telescope option in more detail.
    Almost a year ago we approached NASA with the idea of a free-flyer 
option for hosting the COS and WFC3 instruments on a new telescope. 
This is essentially what we call the ``new car'' option with state-of-
the-art technology. We successfully proposed for NASA's Origins Probes 
studies program and have been pursuing this NASA-funded study since 
that time.
    We have an experienced team including four current NASA Principal 
Investigators. We have developed the study for what we call the Hubble 
Origins Probe (HOP) using the basic KISS (keep-it-simple) principle. 
The HOP concept is to replicate the design of the Hubble Space 
Telescope with a much lighter, unaberrated mirror and associated 
lightweight optical telescope and a modern spacecraft enabling a rapid 
path to launch, significant cost savings and risk mitigation. Launch 
into low-Earth orbit would be on an Atlas 521 rocket. A general summary 
of the Hubble Origins Probe Mission is given in Appendix 1. Because of 
the fast-track schedule for HOP, it would have to start the line of 
these Origins (or Universe) Probes.
    HOP will fly the instruments originally planned for the fourth 
servicing mission, namely COS and WFC3, as well as a new, very-wide-
field imager that will very significantly enhance the original science 
mission of Hubble.
    The very wide-field imager (VWFI) will be built in collaboration 
with our Japanese international partners. The cost will be borne by 
Japan. The scientific enhancement of the mission comes from the fact 
that the field of view of the VWFI is 17 times that of the Advanced 
Camera currently flying on Hubble and the VWFI is 3-4 times more 
sensitive at critical wavelengths. This means that we can map the 
heavens more than 20 times faster.
    It is important to note that the Japanese camera will be provided 
for the use of the entire astronomical community and that, as for COS 
and WFC3, time on this will be granted by a peer review system that is 
based on the merit of the proposal as is normal with Hubble time 
allocation.
    Note that the empty fourth quadrant in the field of view could host 
an additional instrument. One exciting possibility, which we have been 
discussing with our European and Australian collaborators, is an 
integral field spectrograph that could make excellent progress in 
studying super massive black holes at the center of galaxies.
    The conservative estimate of the cost of the Hubble Origins Probe 
project is approximately $1 Billion, which is consistent with the 
Aerospace Corporation estimate for the project development up to 
launch. This is discussed further in Appendix 2. The ground-breaking 
science, the cutting-edge technology generated in the development of 
new instrumentation, the ability of Hubble science to engage the 
interest of the public, and its impact on the imagination of students, 
make it worthwhile to invest this sum of public funds to complete the 
last chapter of Hubble's remarkable legacy. Now, $1 billion is a great 
deal of money in this time of large budget deficits, but that is what 
this type of space science mission costs. We argue that the Hubble 
Mission is a national treasure that both requires and is worthy of the 
investment of this level of government resources. We believe that the 
intellectual legacy of HOP would be invaluable. The investment of $1 
billion in leading edge technology, the launch of a state-of-the-art 
observatory and the excitement that comes with renewed exploration of 
our universe will ripple out over industry, NASA centers, universities, 
and grade schools as the components are designed, built and flown and 
new secrets of the universe are revealed. HOP will inspire and motivate 
young scientists and engineers, helping seed America with the human 
capital so vital for the long-term strength of our high-tech economy. 
For these reasons it is important to maintain and strengthen the 
partnership between academia and government that has been so vital to 
our exploration of space.
    We have developed a detailed schedule for HOP and reasonably 
estimate that from the time of the authority to proceed it will take 65 
months to a successful launch. This is faster than the Aerospace 
Corporation estimate of 100 months, but our team has in-depth 
experience and after an extensive analysis of the schedule we have 
concluded that the 65 months estimate is reasonable. This is discussed 
further in Appendices 3 and 4. We believe launching HOP near the end of 
this decade is feasible and of the utmost importance. We are motivated 
by our sense that great discoveries on the nature of the dark matter, 
dark energy and planetary systems around other stars are imminent and 
our belief that the HOP mission sits in a vital position in the NASA 
roadmap, serving as an essential pathfinder to the even more ambitious 
missions to map the universe planned for 2015 and beyond. The many 
young talented scientists and engineers currently associated with 
Hubble are in place, ready to meet the challenges and reap the 
challenges of HOP today. They are a pool of expertise and energy which 
could dissipate should Hubble science fade or the gap between HOP and 
HST grow too long.
    In the context of the astronomical roadmap, our goal with HOP is to 
first repair the bridge broken by the Columbia tragedy, and then drive 
over that bridge and explore current territory planned on the roadmap 
for Hubble science. Subsequently, using our newly enhanced 
capabilities, we can drive significantly further onwards to explore and 
map quite new and interesting territories.
    There are three points I would like to summarize in closing:

        (1)  The great flow of science from the Hubble Space Telescope 
        will continue unabated as long as it can be serviced either by 
        manned or robotic missions or continued by a new free-flyer 
        mission.

        (2)  The low-risk, rehost, free-flyer Hubble Origins Probe 
        mission that I have outlined will also continue the great 
        Hubble science program with its state-of-the-art technology. 
        With the inclusion of the Very Wide-Field Imager, the 
        scientific capabilities would be very greatly enhanced and 
        qualitatively new science can be done in some of the most 
        important areas of physics and astronomy.

        (3)  These Hubble-related science questions that I have been 
        discussing, including the dark matter and dark energy that 
        constitute most of the Universe, the nature of black holes, and 
        the nature and discovery of planetary systems around other 
        stars, are the subject of intense study by astronomers and 
        physicists. Clearly though, these topics are now not merely in 
        a specialized domain for astronomers only. With HOP we can 
        address three of these most central intellectual issues of our 
        age: the nature of dark energy, the nature and distribution of 
        dark matter and the prevalence of planets, including earths, 
        around other stars.

    At the beginning of my talk I mentioned striking moments during the 
Hubble mission. This is another such moment. The moment now has come to 
decide whether to proceed with the Hubble science mission with any of 
the three options before us.
    The decision is obvious. We must continue with the Hubble adventure 
to explore these great questions further, to understand more fully our 
remarkable Universe and our place in it. We must do this with intense 
determination and energy and thus continue to inspire new generations 
with the wonder and thrill of exploration and discovery.
    Further information on HOP can be found at the public HOP web site: 
www.pha.jhu.edu/hop

Appendix 1:

                       HUBBLE ORIGINS PROBE (HOP)

1. Overview

    A no-new-technology HST-class observatory with the Cosmic Origins 
Spectrograph (COS), the Wide-Field Camera 3 (WFC3) and the very wide-
field-imager (VWFI) as its core instruments can be launched to low-
Earth orbit (LEO) on an Atlas 521 during 2010 with a cost of $1 
billion. Using technology developed and perfected since HST was built 
25 years ago, we can construct the Hubble Origins Probe (HOP) with a 
much lighter unaberrated mirror and OTA than those in HST, 
significantly reducing cost. The HOP mission will be uniquely well 
suited to the study of the modern universe over the epoch where the 
majority of star and planet formation, heavy element production, black 
hole growth, and final galaxy assembly took place. COS/HOP will reach 
two magnitudes deeper than HST/STIS enabling a broad, deep science 
program: from the physics of massive star formation in local group 
galaxies to the atmospheres of giant planets. With a 100-fold increase 
in the number of background quasars available for absorption studies, 
COS/HOP will revolutionize our study of the intergalactic medium. WFC3/
HOP provides a 10-fold increase in discovery power in the Near 
Infrared (NIR), and a 100-fold increase in the ultraviolet (UV), 
enabling new areas of survey science, and addressing fundamental 
questions about the origin and evolution of galaxies, black holes, and 
planets. With its capabilities focused on high resolution imaging in 
the ultraviolet and optical parts of the spectrum, HOP will be a 
critical complement to NASA's Spitzer and JWST missions in the quest to 
understand our origins and our universe.
    As a new state-of-the-art mission, HOP provides unique 
opportunities to extend the discovery space provided by COS and WFC3 on 
Hubble. We will turn the requirement to replace the aberration-
correction optics in COS and WFC3 into an opportunity to extend the 
wavelength range of the COS down to 110 nm, enabling critical new 
science. Our Japanese partners are leading the development of a high 
throughput, Very Wide-Field Imager (VWFI) that achieves a field of view 
approximately 17 times larger than the current Advanced Camera for 
surveys (ACS) by tiling one half of the unaberrated focal plane with 
CCDs. We have a novel optical solution for correcting the astigmatism 
and field curvature in the HST-like wide-field of view Ritchey-Chretien 
design and are prototyping high throughput Hammamatsu CCDs. High-
resolution high-throughput multi-color very wide-field imaging from 
space with HOP/VWFI would enable unprecedented studies of: the origins 
of galaxy morphology; the nature of dark energy through an efficient 
search for distant type Ia SNe; the distribution of dark matter and 
measurement of cosmological parameters with weak gravitational lensing; 
the census of thousands of planetary transits per year and, via 
microlensing, detection of Earth-like planets.

2. Engineering and Technical

    We have studied the feasibility of developing and launching the HOP 
in 2010 to assure the continuity of Hubble science. The approach uses 
the simplest and lowest risk concept--a dedicated free-flyer mission 
carrying COS, WFC3 and VWFI. Cost and risk are minimized by use of 
existing inventory of satellite components and ground systems to the 
maximum extent possible. The mission is not constrained to reach Hubble 
before its demise and no Shuttle launch is required.
    To preclude complete redesign of the WFC3, the first order optical 
parameters of the optical telescope (OTA) must match those of the HST. 
The Science Instruments (SI) interface will be identical to that of 
HST. We include three Fine Guidance Systems (FGS) for fine guidance 
control in the core complement. The HOP will use a modern spacecraft 
with Spitzer heritage and will be launched into a 28.5 degree 700 km 
circular orbit by an Atlas 521. The spacecraft provides the functions 
of HST power, data handling, pointing, and communications based on 
SIRTF heritage. A de-orbit module based on TDRSS heritage is added. 
HST-quality pointing and jitter control is achieved using the HST 
approach with one HST FGS and two new simpler FGS's that use modern 
technology. A key design issue is mass reduction to control cost and 
complexity. The mass of the OTA plus SIs is reduced by nearly 50 
percent from HST. The necessary de-orbit module is a simple low-cost 
two-tank design. See Figures 1-3.

3. Cosmic Origins Spectrograph (COS) and Wide-field Camera 3 (WFC3)

    The COS gratings will be replaced because the telescope image will 
be unaberrated. This opportunity will be used to shift the short 
wavelength cutoff from 1150 A to 1100 A. By shifting to a shorter 
wavelength, significant advances in intergalactic medium studies will 
be possible.
    No major modifications of WFC3 are anticipated in the baseline 
mission. The primary changes will be the replacement of a few 
components in the optical train to correct for the unaberrated image of 
the HOP telescope. No filter changes have been base-lined.

4. Very Wide-Field Imager (VWFI)

    The nature of dark energy, the nature and large-scale distribution 
of dark matter and the demographics of extra-solar planets are 
outstanding problems for twenty first century science. Solving these 
problems requires ultra-stable, wide-field, diffraction limited imaging 
in the optical and near infrared. The HOP Very Wide-Field Imager (VWFI) 
is specifically designed to attack these and other important origins 
questions. The VWFI is a camera that will be contributed by Japan. The 
Japanese astronomy and industrial team is being led by Dr. Saku Tsuneta 
(National Astronomical Observatory), and is drawing on Japan's deep 
reservoir of experience in building instruments for space astronomy and 
ultra wide-field imagers and spectrographs for the Subaru 8m telescope.
    The Japanese design to ``pave'' one half of HOP's unaberrated focal 
plane with Hamamatsu 2K  2K CCDs is advancing very quickly. See Figure 
4.
    The VWFI will have a survey capability 17 times greater than the 
current Advanced Camera for Surveys (ACS) at all wavelengths.
    We will use this powerful new capability to detect thousands of 
transits by planets in the bulge stars, opening an exciting era of 
planetary demographics, survey for hundreds of high-z Type Ia 
supernovae to investigate the nature of dark energy, and to make large 
area weak lensing surveys to measure the large scale distribution of 
dark matter. See Figures 5-7.

Appendix 2:

                           HOP COST ESTIMATE

    For further details please see the HOP website www.pha.jhu.edu/hop. 
The HOP costs are based on a 65-month schedule and it is assumed that 
funding is available as needed. Three Fine Guidance Sensors are 
budgeted. A 15 percent fee is included. The VWFI is provided by Japan. 
Limited availability is assumed for HST-heritage: ground-handling 
equipment and facilities, test equipment and facilities, 
transportation, and storage equipment.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Appendix 3:

                              HOP SCHEDULE

    See www.pha.jhu.edu/hop for the integrated master schedule in MS 
Project.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Appendix 4:

                    COMPARISON WITH AEROSPACE REPORT

    The Hubble Space Telescope (HST) Servicing Analyses of Alternatives 
(AoA) Aerospace Report identified $2B life cycle cost (including costs 
for government oversight, mission operations and the cost of the Hubble 
Space Telescope de-orbit module) for the low-Earth orbit (LEO) free-
flyer mission to rehost the HST instruments COS and WFC3. This mission 
is equivalent to the HOP.
    The HOP project cost is approximately $1B ($991M) which includes 
only space vehicle development costs (Phases B, C & D) over a 65-month 
development span. Thus, the difference between the Aerospace ($2B) and 
HOP ($1B) costs represent inclusion of different portions of very 
similar project cost estimates.
    There are three significant differences between the Aerospace and 
HOP values. These differences are delineated in Table 1.

        1)  A major difference is that Aerospace developed total life 
        cycle cost, whereas the presented HOP cost represents only 
        project cost. Mission operations ($300M) and government 
        oversight ($200M) costs are not included in the HOP project 
        cost, but are appropriately included in total life cycle costs. 
        This accounts for approximately $500M (50 percent of the 
        difference). Mission operations costs should be the same for 
        HOP as for a refurbished Hubble Space Telescope.

        2)  The second difference is that the Aerospace rehost mission 
        cost includes costs for a Hubble Space Telescope (HST) de-orbit 
        only mission ($400M) to provide safe HST disposal at the end of 
        its science mission. This work would not be managed by the HOP 
        project office, and thus is not included in the HOP project 
        cost. This accounts for approximately 40 percent of the 
        difference. The HOP design (and project cost) does include a 
        HOP integrated de-orbit propulsion and control system that will 
        safely dispose of HOP at the end of its science mission.

        3)  The third difference is that the Aerospace estimate was 
        developed assuming a 100-month space vehicle development 
        schedule, whereas the HOP estimate was based upon a 65-month 
        development span. This accounts for approximately $100M (10 
        percent of the difference). This number was derived assuming a 
        program loading of 135 EP at $250K cost per person per year for 
        35 months.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    When compared on a project cost basis, both the Aerospace report 
and the HOP costs result in equivalent project costs of approximately 
$1B (including a 30 percent contingency).
    Note that although neither the Aerospace report nor the HOP costs 
include development costs for the proposed very wide-field imager 
(VWFI), HOP costs and schedules do include space vehicle systems 
engineering and integration associated with the VWFI.
    With regard to the 100-month Aerospace and 65-month HOP development 
schedule estimates, the HOP project office plans to execute an 
efficient 65-month space vehicle development span as possible, while 
still including appropriate schedule contingency for all major 
activities. This schedule minimizes any gap between HST and HOP and 
also avoids marching army costs associated with an extended development 
span. In the specific case of HOP a 65-month (51/2 years) development 
span for HOP is reasonable because space vehicle design, integration 
and CONOPS are being re-used from the highly successful HST.
    Besides having achievable 12-month spans between ATP and system PDR 
as well as between system PDR and system CDR, HOP's 65-month 
development span includes serial, completely independent and fully 
funded schedule reserves at the following levels: six months of 
schedule reserve in the VWFI development (program critical path); four 
months of OTA development schedule reserve; three months each of COS 
and WFC3 development reserve; three months of spacecraft assembly 
schedule reserve and four months of system-level schedule reserve 
between the end of environmental test and shipment to the launch base.
    In summary, the difference between the Aerospace and HOP cost 
presentations are primarily a matter of scope. The Aerospace Report's 
$2B life cycle cost includes costs for government oversight, mission 
operations (Phase E) and the $400M cost of the Hubble Space Telescope 
de-orbit module which are appropriately not included in the $1B HOP 
project cost.
    The Aerospace Report's 100-month schedule is significantly 
conservative and appropriate were HOP an entirely new mission being 
constructed ab initio. However, the proposed HOP is deliberately 
designed to allowed streamlined development. The HOP baseline 65-month 
(51/2 year) integrated master schedule has reasonable, 12-month spans 
between system design reviews, adequate instrument modification and 
VWFI development spans, as well as serial and fully funded schedule 
reserve for each significant activity in addition to four months of 
system-level schedule reserve.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Biography for Colin A. Norman

    Colin Norman is Professor of Physics and Astronomy at The Johns 
Hopkins University and Astronomer at the Space Telescope Science 
Institute. He works on both theoretical and observational astrophysics 
in areas including: the formation, structure, and evolution of 
galaxies; the physics of active galaxies, quasars, and starburst 
galaxies; the structure of the intergalactic medium and the 
interstellar medium; and, star formation.
    He was an undergraduate at the University of Melbourne, Australia, 
a graduate student in Theoretical Physics at Oxford as a Rhodes 
Scholar, and then elected as a Fellow of Magdalen College, Oxford. 
After his postdoctoral work at UC-Berkeley as a Miller Fellow, Dr. 
Norman joined the faculty at Leiden University as an Assistant 
Professor in 1978. In the next six years he held, in addition, 
appointments at the Institute of Astronomy, Cambridge, the University 
of Paris and the European Southern Observatory. In 1984, he moved to 
his current post in Baltimore. From 1988 through 1994 he was Head of 
the Academic Affairs Division at the Space Telescope Science Institute. 
He frequently visits the European Southern Observatory where the 
optical work for this project was done using the eight-meter telescope 
at the VLT. He is currently proposing to create a new Astrophysics 
Institute at the Johns Hopkins University.

                               Discussion

    Chairman Boehlert. Spoken like a true advocate. Thank you 
very much, Dr. Norman.
    The Chair now is pleased to recognize the Chairman of the 
Subcommittee on Space and Aeronautics, Mr. Calvert.

                           Webb versus Hubble

    Mr. Calvert. Thank you, Mr. Chairman, for giving me the 
courtesy to start early. Dr. Taylor, NASA is developing, as you 
have mentioned in your testimony, a new, larger telescope, the 
James Webb Space Telescope, which is, as you know, scheduled to 
launch in 2011.
    How do the capabilities of this Webb telescope compare to 
what we would get from the Hubble if it was serviced, or for 
that matter, the rehosting option that Dr. Norman advocates?
    Dr. Taylor. All right. The Hubble telescope is, of course, 
a 2.4 meter telescope. The James Webb telescope is six meters 
in diameter, a very much larger collecting area. The James Webb 
telescope is optimized for use in the infrared part of the 
spectrum, the near infrared, and the wavelength region is--
overlaps, but only a small amount, so the differences are 
substantial, and as I attempted to point out, the judgment of 
the Survey Committee, when this was done, was that pushing into 
this new wavelength region from space would be extraordinarily 
beneficial scientifically.
    I don't want, at all, to downplay the highly desirable, 
very important science that will still be accomplishable by a 
refurbished Hubble telescope.
    Mr. Calvert. In that vein, how disruptive would it be to 
science and to the astronomers, and the--your opinion, and the 
opinion of your committee, if the Hubble was to cease operation 
before the James Webb telescope is launched?
    Dr. Taylor. The best, by far, would be to have both, but it 
was always understood that the Hubble's time would end at about 
the time that the James Webb telescope became available, so 
simultaneous observations were never thought to be a 
likelihood. Keeping the Hubble going until that time would 
still be very desirable.

            Cost and Schedule of a Robotic Servicing Mission

    Mr. Calvert. Mr. Pulliam, Dr. Lanzerotti, in the testimony, 
Dr. Cooper stated that he believes that The Aerospace 
Corporation, National Academy reports were overly pessimistic, 
and overstate the costs of--risks of a robotic servicing 
mission. And he seems to make a strong argument--I was--I am 
also on the Armed Services Committee. I am compelled by the DOD 
portion of that, of servicing somewhere down the road, but in 
your opinion, both Mr. Pulliam and Dr. Lanzerotti, do you 
believe it is possible that NASA could meet the costs and 
schedule that Dr. Cooper laid out?
    Mr. Pulliam. Mr. Calvert, let me begin. I think it is 
important when we talk about cost, to make sure we understand 
what terms we are using. As I said in my prefatory remarks, the 
Aerospace analysis of alternatives was just that. It was not an 
assessment of any individual program. It specifically was 
excluded from our task list from NASA. It was an analytical 
survey. But that is not just throwing a dart against a 
dartboard. Our analytical results came from a database which 
has results of hundreds of systems and thousands of subsystems 
on how they really came out, not what was advertised at the 
beginning.
    So, in the process of coming up with these cost estimates 
for these various missions, we did rely on all the data that is 
available with regard to cost and schedule. With regard to how 
our costs were put together, through the issue of the $2 
billion for rehosting, say, versus a $1 billion cost, again, it 
is important to realize that the Aerospace models are all our 
life cycle costs. So, that means included in those costs are 
not only the costs of building the instruments, and the costs 
of building the spacecraft vehicle, but also included in our 
numbers are $300 million or so of operations over the course of 
the years that that module would be attached to Hubble, or that 
a new instrument would be in space. Launch vehicle costs are 
included in our costs. I haven't heard anybody talk about that. 
And in all our missions, we also include a de-orbit possibility 
for Hubble, which the minimum cost for that is about $300 
million, so that must be added. Additionally, we baseline the 
Goddard system, as they are presently developing it, in terms 
of the kind of capability. So, when you look at life cycle 
costs, and begin to take out of that the elements that might 
not be in someone else's estimate, you get closer on the 
numbers, and again, realizing that our numbers are analytical.
    Any program that looks at the results of how a program 
might be cost, or might come in on schedule, certainly, the 
elements that comprise that are in a bell curve. If certainly 
someone is going to come in under cost and under schedule, but 
I must say, we see that far less frequently than we see folks 
who do find technical challenges, and do find costs and 
schedule delays as they go through programs. So, we believe our 
analysis rightfully looks at how things have come out versus 
how they have started.
    And finally, to the issue of the grapple arm, of a contract 
of--a firm, fixed price contract that might be in the $150 
million range versus Aerospace's advertisement of $700 million. 
Well, again, our costs are life cycle costs, and are a total of 
system cost for that arm, I am not privy to the contract for 
the MDA arm. That contract had not been awarded when we 
completed our survey, so we did not look at that program at 
all, because ours was an analytical survey. But the arm to arm 
cost, in our estimate is about $285 million, versus about $150 
million. The remainder of our cost, and the $700 million, are 
for things like interface with the spacecraft, increased mass, 
increased power, software, all the things that we know happen 
when you hook up something like an arm to a spacecraft in a way 
that has not been done before.
    I congratulate the gentleman on the use of the arm, but 
operating it on the Shuttle is, in our opinion, different than 
mating it up to a new spacecraft also in development. With 
regard to the arm being delivered at the 31 month period, 
versus our estimate of 64 months, we frankly didn't find the 
delivery of the arm to be on the critical path of the 66 
months. It is the development of the interfaces and the entire 
system, and getting the spacecraft ready to go with an arm that 
drove our estimate. So, that is how we came to our conclusions.
    Mr. Calvert. Thank you. My time has expired, but Doctor, 
would you have any further comment on that?
    Dr. Lanzerotti. If I have a moment, I would like to refer--
we had a subcommittee, chaired by Mr. Rothenberg, who looked at 
the--who did many, many visits to look at the robotic 
development, and I would like to ask him, if I might, to make 
some comments related to your question.
    Mr. Calvert. The Chairman.
    Mr. Rothenberg. Thank you for the opportunity. Number one, 
I can't commend MDA more for the performance of their robotics 
to date. The Space Shuttle and Space Station. And the robot was 
never the issue. We did know from the beginning that that is 
what the project was baselining. However, I would point out 
that even in the Space Shuttle, after nine years of flying it, 
we were still fine-tuning algorithms when we released the 
Hubble. As General Bolden would remember, there were 
differences with a mass--vehicle of that mass that needed some 
fine-tuning of the algorithms on orbit. In fact, with the Space 
Station, we had a few problems up front in the initial 
deployment of the robotic arm that is up there today.
    The second point I want to make is, the XSS-10, 11 
experiment. I am well familiar with it. They briefed us. We had 
discussions with them, and indeed, the sensor on board, the 
LIDAR sensor, which is an important part of the Hubble mission, 
performs one part of the algorithm processing, one part of the 
sensor detection that feeds the algorithms for the capture of 
Hubble. However, that is a different vehicle. It is--the 
technology there is not demonstrating six degrees of freedom, 
and capture on the translation and rotation that are really 
needed for the Hubble capture, so there is work once that 
demonstration is done, on orbit, assuming that it is 
successful. We are familiar with the optic sensor, and the fact 
that it is the same sensor that MDA is proposing to use for 
Hubble, but there is development work.
    Finally, the experiments done by the Russians, they were 
generally all the robotic rendezvous and docking with Progress 
vehicles. That is all done with what is called a cooperative 
vehicle, a vehicle that actually has detection on board of an 
approaching vehicle, and closes the loop. Hubble is not a 
cooperative vehicle. It doesn't have fiduciaries on it. A 
number of complications associated with it. Finally, and 
finally, the other important point is given the time and given 
the funding in '05, that the project has, and the time limits, 
they have not received the full funding that they really need 
to make the schedule alone, so they are starting out behind the 
eight ball to begin with.
    Given all of those points, our report did consider, I 
think, almost all of the aspects, and the robot itself was not 
the issue. It was the system integration, the algorithm 
development, the validation of the algorithms, and the testing. 
If I deliver the robot at 31 months, I only have eight months 
left in which to integrate and work out all the system bugs 
with the whole rest of the system. And to us, that would seem 
like a very unreasonable, based on our experience.
    Mr. Calvert. Thank you, and thank you, Mr. Chairman. I 
just--as a comment, I certainly am intrigued by this 
technology, but it seems to be very complex. Obviously, we have 
a budgeting process, and we have a time problem. And I 
certainly look forward to--I would like to look at it from a 
DOD perspective, possibly a demonstration project of some type 
on servicing some of our DOD satellites. This may be some kind 
of way to find some additional resources to do something like 
this. But----
    Chairman Boehlert. Thank you very much, Mr. Calvert. Dr. 
Lanzerotti, once again, for the benefit of the recorder and the 
audience, would you introduce your associates for the record?
    Dr. Lanzerotti. Yes. This was Mr. Joseph Rothenberg. I 
called on him because he was the chair of our subcommittee on 
the robotics, and led that group. He is the former head of the 
NASA Goddard Space Flight Center. Thank you for allowing me to 
use my associates. They bring a certain credibility to this in 
specialized areas that I could express, but I don't have the 
same level of credibility that I believe my colleagues do.
    Chairman Boehlert. Thank you so much for introducing him, 
and it is good to see you back here. This was billed as an 
exchange of views, and I am sure that Dr. Cooper has a somewhat 
different view of the remarks just made, so I will impose on 
the Committee, and give him a couple of minutes to respond 
before we continue with Mr. Gordon.
    Dr. Cooper.
    Dr. Cooper. Thank you, Mr. Chairman, and----
    Chairman Boehlert. Everybody knows that the people we have 
here have unquestioned credibility.
    Dr. Cooper. Absolutely.
    Chairman Boehlert. And they have points of view. Where, in 
your estimation, did they go wrong?
    Dr. Cooper. Okay. You might characterize me at the moment 
as dying to respond to these points that have just been raised. 
I will start with the gentleman from The Aerospace Corporation. 
First, actually, when I first looked at the Aerospace Report, I 
was extremely pleased, because it is very important, when you 
try to analyze a mission like this, to compare it to things 
that are like it, and that is the essence of what The Aerospace 
Corporation report did. The thing is, if you look at the total 
database of all space programs, you are looking at almost 
entirely clean sheet programs that started from scratch, and 
there is almost no programs in their database that they 
compared against that were, in fact, started from the beginning 
as running start programs, and in fact, if you do the same kind 
of analysis and throw some comparables in there, such as the 
development of the Boeing 702 commercial communications 
satellite, you find a much different story about the schedule, 
and in fact, the schedule looks like 40 months if you start 
with a running start, and you have a goal to get there, it is 
not a problem at all. So, that is my first point. The second 
point that was raised just moments ago, by the--Mr. Pulliam, 
was with respect to what is included and what is not included. 
And I am pleased to tell you that in the budget that I showed 
you, it is approximately a billion dollars, the NASA project 
budget. It actually includes the launch. And with respect to 
what is included with the robotics system, and how hard is it 
to interface to the spacecraft, et cetera, I am happy to tell 
you that the $25 million I quoted includes the avionics box 
that controls the robot and interfaces with the spacecraft. So, 
in my view, it is a question of what, you know, what you 
compare to when you look at The Aerospace Corporation report 
and especially the running start story.
    Now, if I might, just a moment, turn to Mr. Rothenberg's 
comments. Boy. The first thing I want to address is the XSS-11 
mission. Mr. Rothenberg said correctly that it doesn't exactly 
test exactly what we are doing on the Hubble. However, it does 
establish a major credibility point for the space program of 
the U.S. This is an Air Force mission. In the core competence 
of can we find a spacecraft, can we find it, can we use sensors 
that are very advanced? This LIDAR thing, it can see, 
basically, something the size of half an inch from a distance 
of two miles. So once we have done this mission, we have gone a 
long way, and the few additional pieces, such as this six 
degree of freedom, essentially have to detect how the 
spacecraft is positioned relative to you. That part of it is 
not going to be done in XSS-11. However, there is already on 
the plan what is called a DTO mission, to fly that exact 
software very soon. So, again, this risk will have been retired 
far before we actually try to launch this mission and execute 
it.
    And one--a couple more comments. The funding story, it is 
true if the program runs out of money, the schedule is going to 
lengthen. At the moment, all of the components of this program 
have been running full blast, that is, there has been enough 
money, so far, that we haven't had any slowdowns, and I 
encourage the Committee, of course, to keep it that way. So, 
that has not been a factor to date
    And one last comment, which is I very much regret the fact 
that the Committee didn't come out to see the reality of Dextre 
in real life. I wish they had. Thank you for your time.
    Chairman Boehlert. That is an open invitation, I take it.
    Dr. Cooper. Oh, absolutely.

     A Hubble Servicing Mission's Effect on Other Science Missions

    Chairman Boehlert. Thank you very much, Dr. Cooper. And let 
me point out that following this hearing, we will submit some 
questions in writing to all of you. We would appreciate a 
timely response, and we will also welcome from you sort of a 
supplemental statement of--based upon this hearing, some 
additional thoughts that you think should be brought to our 
attention. The ideal situation would be to have this back and 
forth like we have right now. That is where we learn the most, 
and that is where we get out, exposed into the light of day, 
the varying points of view. But we don't have unlimited time, 
so we will make that opportunity available to all of our 
witnesses, to supplement, following this hearing, your written 
testimony, and we will make certain that all our members see 
that, and have the advantage of that input.
    Now, it is my turn. Dr. Taylor, you know, as I mentioned at 
the outset, if the Hubble servicing was going to deprive the 
science programs of more than a billion dollars, Dr. Taylor 
said he would reluctantly opt for letting Hubble die. You know, 
and that, you know, we try so very hard to say we don't have 
unlimited resources up here. Give us your best guidance, and 
Dr. Taylor, thank you so much for trying to help us get it in 
perspective. I would like to see what Dr. Lanzerotti and Dr. 
Beckwith and Dr. Norman have to say. Would you agree with that 
assessment?
    Dr. Lanzerotti.
    Dr. Lanzerotti. I am not sure I understand exactly your 
question.
    Chairman Boehlert. Well, you know----
    Dr. Lanzerotti. Mr. Chairman.
    Chairman Boehlert. Dr. Taylor tried to help us, tried to 
quantify. He said if it is going to cost more than a billion 
dollars, then maybe, because of the risk to other programs, it 
is not worth the price. If it is going to cost less than a 
billion dollars, let us go forward. I mean, we are all 
cheerleaders for Hubble.
    Dr. Lanzerotti. Okay.
    Chairman Boehlert. We all stand up and applaud when we 
think about its accomplishment, but there comes a point of 
diminishing returns, based upon costs and impact on other 
programs.
    Dr. Lanzerotti. Well, you have to recognize Dr. Taylor was 
a member of my Committee.
    Chairman Boehlert. Sure.
    Dr. Lanzerotti. And we had a unanimous opinion. And 
unanimous conclusions. And our conclusions did not get into the 
questions of the place of dying Hubble with--or a dead Hubble, 
with the Decadal Survey. We took it as given that the Decadal 
Survey of Astrophysics that was issued in 2000 or 2001, Joe, 
was--assumed Hubble Servicing Mission 4. So that the optical 
astronomy would be present to continue--optical astronomy would 
be present with the two new instruments installed in Servicing 
Mission 4, so that that optical astronomy, with the enormous 
increase of capabilities--in--that the two new instruments 
would allow, would be present during this time prior to James 
Webb telescope, so that there would be the new science, plus 
the science that would be achieved in the overlap with the 
ongoing NASA great observatories, the Chandra, the infrared 
telescope, and other missions that are up there. And so, that 
was the premise that our committee went on. We did not--our 
committee did not redo the Decadal Survey. We did not get into 
this question of----
    Chairman Boehlert. Well, forget about the Committee for a 
moment. If you will just as a scientist, I mean--the basic 
theme that he advanced, I mean, if it is going to cost more 
than a billion dollars, the impact on other science programs 
are not worth the additional costs. He guides us in that 
direction. And he would say, end it and go forward with the 
other programs. As a scientist----
    Dr. Lanzerotti. Okay. As a scientist. I am not an 
astronomer. I think one of the reasons why I was selected to 
chair this Committee was the fact that I had never used Hubble, 
didn't know anything about Hubble practically going into this. 
I have done a lot of space research on unmanned robotic 
spacecraft throughout the solar system, and mainly, and often 
around the Earth's environment, for practical purposes, when I 
was at AT&T and Lucent. As a scientist, I would say that if the 
billion dollars were going to come out of some other aspect of 
NASA's science program, such as Earth science, such as solar 
terrestrial science, then I would have a serious question about 
that.
    With regard to astronomy, I think that I would defer to the 
astronomers. As I said at the end of my testimony, if the 
Shuttle repair mission were not possible, for instance, return-
to-flight were not possible, then I would recommend that 
tradeoffs involving a rehosting mission should be reviewed by 
the astronomy community in the context of its Decadal Survey.
    Chairman Boehlert. Well, let us hear from a couple of 
astronomers. Dr. Beckwith.
    Dr. Beckwith. It is--I think, in looking at the costs, you 
have to figure out exactly how this would be paid by NASA, 
rather than looking at just a lump sum. We know from four 
servicing missions what the cost to the science budget of a 
servicing mission has been. It has been between $300 and $400 
million. It is very easy to calculate, because we know what the 
burn rate is at Goddard, and we know what the burn rate is at 
the Institute, and we know the time it takes to do the mission. 
That number is very well known. In the past, NASA has charged 
science of order $100 million to fly a Shuttle mission to 
Hubble. I believe the premise was that the Shuttle budget was 
funded at some level of order $4 billion a year to provide for 
all the infrastructure it takes to fly the Shuttle. If you flew 
the Shuttle to the station, or if you flew the Shuttle to 
Hubble, they were still going to pay for those Shuttle flights. 
That--therefore, they did not charge those costs to science. 
If, now, the idea is that we will still spend $4 billion a year 
on the Shuttle budget, and charge an additional billion dollars 
for a Space Shuttle flight to Hubble from the science budget, 
then I am not quite sure how I would come down. But that has 
never been the case in the past. It seems to me if the science 
budget is charged $300 or $400 million for the cost of a 
Shuttle servicing mission, it is well worth the cost. If the 
science budget is charged $1 to $2 billion for the cost of any 
of the options ahead of us, then I think you would have to go 
back to the community and ask for a reprioritization.
    Chairman Boehlert. Yeah, well, that is what we are trying 
to, because, as Dr. Taylor has speculated, that appears to be 
the direction they are going, on the charges.
    Dr. Taylor. But let me say, if I may, that I think Steve 
Beckwith and I are in full agreement on that point, and that 
the method of cost accounting has shifted here over five years 
or so, by a large amount, which does change the ballgame 
somewhat, and I think we have--are fully in agreement that at 
the $300 or $400 million level, we would surely go right ahead 
and do the servicing. At $1 or $1.5 or a $2 billion level, it 
is not at all so clear.
    Dr. Lanzerotti. But why charge a Shuttle servicing mission 
a billion dollars when you don't charge a billion dollars for 
every mission to the Space Station? There is going to be 25 or 
30 Shuttle flights to the space station. If you charge a 
billion dollars for each one of those, it's $30 billion. That 
is almost more than half of the NASA projected budget over the 
next five years. That--there is some accounting here that 
doesn't compute properly, if you look at it that way. So, I 
think that there is a real serious accounting issue, and it is 
not that the Space--you are not going to be charging the Space 
Station $30 billion just for a Shuttle launch, because, as I 
said, it is more than half of the NASA budget over the next 
five years. So, why charge a servicing mission a billion, if 
you are not going to do the same cost accounting for the Space 
Station?
    Chairman Boehlert. Dr. Norman, you----
    Dr. Norman. Yes.
    Chairman Boehlert.--have some words of wisdom to share with 
us?
    Dr. Norman. Perhaps not wisdom, but I will share the words.
    I would like to talk about this in the context of the 
programmatics of NASA, and as you know, there have been several 
roadmapping activities at the moment, and in the context of the 
astronomical roadmap, that we are all considering at the 
moment, our goal with the free-flyer with HOP, is essentially 
to first repair the bridge in the road that was broken by the 
Columbia tragedy, and then we wish to drive over that bridge 
with our new free-flyer, and explore the current territory that 
is planned on the current roadmap for Hubble science. This was 
laid out and expected in the Academy report, and is expected by 
everybody associated with the roadmapping activities.
    However, subsequently, we have the advantage, because of 
the astonishing very wide field imager, that we have on HOP, of 
using our newly enhanced turbocharged car, and driving 
significantly further onwards in the landscape, to explore and 
map quite new and interesting territories. Another way to look 
at this is that we are trying to complete the Hubble science 
program with this mission, but do much more. I think many of 
you know that under considerations at NASA right now, there is 
an Origins Probe line and a Beyond Einstein Probe line. These 
two have been merged in the new Administration, and we can call 
them the Universe Probe line. Where the Hubble Origins Probe, 
the free-flyer, would sit quite naturally, both in terms of 
financial, fiscal funding and programmatics, is that you would 
see it completing the Hubble science, but also, being first of 
this Universe Probe line. It would start a great series of 
discovery type missions, and it would complete the Hubble 
science. It would concentrate on these great issues that we 
all, I think, are interested in: dark matter, dark energy, the 
origin of planets, and the associated question of the origin of 
life. This is the programmatic view.
    Dr. Cooper. Well, Mr. Chairman, I was going to ask for a 
moment's indulgence on this budget question also, if I might.
    Chairman Boehlert. Dr. Cooper, the Chair has a habit of 
indulging expert witnesses.
    Dr. Cooper. Okay. So, I would certainly say that this is 
not wisdom, either, along with my colleague, Dr. Norman. 
However, there is a straightforward view of the budget question 
at the moment, which is NASA's plan, originally, which was--
strikes me as right-headed, was to split the cost of the 
robotic servicing mission 50-50 between science and 
exploration. So already, you, what, reduce the tradeoffs for 
science, if you actually have that scheme go forward. Second 
fact, and it doesn't get talked about that much, more or less, 
we have to do the de-orbit mission, and the de-orbit mission 
is, say, half a billion dollars. And you know, you can look at 
a scheme in which science, the science half pays for the de-
orbit mission, and the incremental difference, which is maybe 
half a billion, is paid for by exploration. By this funny math, 
you end up that science gets the servicing mission for free. 
So, it is a thought to debate.
    Chairman Boehlert. Creative accounting. When you referred 
earlier to your disappointment that the Committee didn't visit 
with you, I assumed you were talking about the Academy 
Committee and not this Committee.
    Dr. Cooper. Correct. Well, I would love to have either, and 
in fact, we were relatively aggressively inviting the Academy 
Committee, which we regret that they didn't come up, but you 
know, it is a magnificent thing to understand the reality of 
what can be done, and how it looks in real life. I don't know 
if the video captured it, so please do come.
    Chairman Boehlert. Let me thank all of the witnesses for 
their----
    Dr. Lanzerotti. I should make a comment. We were very 
concerned at that time. We visited Goddard several times, as I 
indicated, our subcommittee. And we were very concerned about 
the fact that at the time that the invitations came to us by 
email, largely, at least to my attention, there was a 
procurement going on, and we were very sensitive to that issue. 
And so we did not go to Canada for that purpose. It was in the 
summertime, and it would have been nice to go to Canada in the 
summer, but we thought ethically, it would be better not. But 
we did visit Goddard a number of times.
    Chairman Boehlert. Thank you very much. Mr. Cooper. Mr. 
Gordon.

                The Cost of a Shuttle Servicing Mission

    Mr. Gordon. Thank you, Mr. Chairman. Listening to the very 
interesting dialogue between Dr. Beckwith and Dr. Lanzerotti 
reminds of that famous phrase we heard a few years ago, fuzzy 
math. So, I think we need to keep that in mind. And let me 
bring people back to something I said earlier today. I want to 
just remind you. When I asked NASA Administrator O'Keefe to 
answer for the record whether the Shuttle-related costs of the 
Hubble servicing mission would come out of the science budget, 
his response was as follows, and I quote: ``This long-planned 
servicing mission is considered grandfathered in. Under this 
policy, and the projected budget for the mission was included 
in the five year budget run-out under of the Office of Space 
Flight.'' Just to put this back in perspective. Now----
    Mr. Pulliam. Thank you very much, Mr. Gordon.
    Mr. Gordon. I know this is a little bit complicated, but 
I--and so I hate to say, you know, I don't want to cut you 
back, but Mr. Pulliam, if you could just be crisp in some 
questions here. In your testimony, you stated that the cost of 
the Shuttle servicing mission is, and I--in quotations, in the 
same range as the rehost and the robotic servicing alternative. 
However, would it be accurate to say that the Aerospace did not 
derive a cost for the Shuttle servicing mission, but instead, 
simply accepted a cost estimate provided by NASA?
    Mr. Pulliam. Mr. Gordon, that is exactly correct. NASA gave 
us a $1.9 billion number, and the time for the Shuttle mission, 
to which we added $300 million for a de-orbit mission for a 
comparison across all options, and we did not analyze that 
option, nor the conditions that led to that number.
    Mr. Gordon. Thank you. And is it also accurate to say that 
Aerospace did not independently validate the cost estimate 
provided by NASA?
    Mr. Pulliam. That is correct, sir.
    Mr. Gordon. Okay. I am not criticizing you.
    Mr. Pulliam. Yes, sir.
    Mr. Gordon. This was not your----
    Mr. Pulliam. Yes, sir.
    Mr. Gordon.--your charge. I just----
    Mr. Pulliam. That is right. It is their contract----
    Mr. Gordon.--want to----
    Mr. Pulliam.--and their task, and they asked us not to do 
that.
    Mr. Gordon. And are you aware that the Government 
Accountability Office later examined the NASA cost estimate for 
a Shuttle servicing mission, and it found that, and I quote: 
``NASA could not provide documented support for key portions of 
the estimate?''
    Mr. Pulliam. No, sir. I am not aware of that.
    Mr. Gordon. Well, just if you wanted to be more aware of 
it, the source is GAO Report 05-04, page 2. And Mr. Lanzerotti, 
your committee expressed the belief that, and here, again, I 
quote: ``Careful planning for and implementation of additional 
HST unique activities to meet CAIB and NASA requirements will 
result in substantially lower actual costs to service HST, 
using the Shuttle, than those projected above. Lower than--
i.e., lower than the cost estimates provided by NASA. Would you 
like to elaborate on that?
    Dr. Lanzerotti. I would like to call on General Bolden to 
make some comments related to that, but as an introduction, let 
me say that our experience with NASA costs on the Shuttle were 
very similar to what has just been related here--I didn't know 
this before now--but by Mr. Pulliam, in terms of the NASA 
estimates and all. But we had experts on our committee, in 
terms of the--of experience with space flight. Mr. Rothenberg 
is one of those, having managed at NASA headquarters, but 
General Bolden, and some other colleagues on the Committee were 
experts at Shuttle and Shuttle costs. And General Bolden, would 
you--this is General Charles Bolden, who is a member of our 
committee.
    General Bolden. Thank you very much, Mr. Gordon. First of 
all, the points that we looked at were the fact that there are 
a number of things that were required to comply with the 
Columbia Accident Investigation Board, as well as the 
additional requirements that NASA put on themselves. Our 
finding was essentially that there is basically little, if any, 
difference between the requirements for a Hubble mission and an 
International Space Station mission, so the differential cost, 
if you will, is minimal. And I think my colleagues have said 
maybe $50 million for a Shuttle flight, of a differential cost, 
because inspection and repair, micrometeoroid analysis and 
protection from that, those things have to be done whether you 
are flying to the International Space Station, or whether you 
are doing an independent Hubble Space Telescope mission. So 
there is little difference.
    Mr. Gordon. Thank you. I guess my concern is this. The NASA 
Administrator had publicly stated that he was opposed to flying 
a Shuttle servicing mission, yet we have nothing that has 
been--independent validation of the cost, and I think we really 
have two questions here. One is, what really is the cost, and 
secondly, how should it be allocated? And we just don't have 
that good answer yet. Dr. Lanzerotti, let me ask you once 
again. Your--this committee was called upon by Administrator 
O'Keefe to do this study. Is that correct?
    Dr. Lanzerotti. Yes, that is correct, at the urging of 
Congress.
    Mr. Gordon. Have you reported back to NASA?
    Dr. Lanzerotti. Yes, we have. We----
    Mr. Gordon. Have they responded to you?
    Dr. Lanzerotti. They have not responded formally to us as 
of this date.
    Mr. Gordon. Okay. But you have given them a full response.
    Dr. Lanzerotti. We gave them--we briefed several 
Congressional committees, including some of the staff that I 
see up there. We--and then we spent an hour and a half with 
NASA briefing our report to the Administrator and his top 
staff. In December, December 8, I believe it was. Approximately 
December 8. We have not received any formal responses back from 
them, as of this date.
    Mr. Gordon. Well, that will be an interesting response. 
Again, I want to thank all of you who have helped inform us. 
You have done a good job with your background. Okay, I will--
but I think we--there are some questions that you can't answer 
that need to be answered before we can move forward. Dr. 
Taylor?
    Dr. Taylor. Mr. Gordon, I just wanted to ask for a 
clarification to be sure I am understanding correctly. But are 
you saying that Mr. O'Keefe's statement to you means that a 
Hubble servicing mission would not, definitely not be charged 
to the Science Directorate? Because if so, much of the things 
that I was talking about in my statement, and fearing might be 
the case, are moot.
    Mr. Gordon. That is correct, except for the science-related 
costs. Again, let me--but all I can do is quote to you what he 
said----
    Dr. Taylor. Right.
    Mr. Gordon.--which I will do once again.
    Dr. Taylor. Well, you did it twice very effectively, and I 
am sure I heard what you said, and it was----
    Mr. Gordon. Wish everybody else did.
    Dr. Taylor. It was----
    Mr. Gordon. Thank you so much.
    Dr. Lanzerotti. Do you have readily at hand, or perhaps Dr. 
Obermann has at hand, a date when that was?
    Mr. Gordon. Yes, sir. It was February the 27th, 2002, at a 
hearing here with NASA, and it was on page 166.
    Dr. Lanzerotti. Thank you very much.
    Mr. Gordon. Thank you. And again, thank all of you. This is 
a--it is an important question, and clearly, money is a part of 
the question, science is a part of the question, and we are 
hopefully going to get closer to bringing all that together.
    Chairman Boehlert. Thank you very much, Mr. Gordon. And it 
is a very important question, and it is one that has to be 
asked and answered to our satisfaction, and the reference you 
made to the quote was back in '02, when they were beginning 
to--changing the process of their accountings, and how they 
were going to go forward, and so we are going to have NASA up 
here on the 17th, and we are going to ask specifically that 
question, and we are going to demand a very specific answer. 
So, Dr. Taylor, you and I and everyone else will be 
enlightened. Mr. Reichert.

                          The Rehosting Option

    Mr. Reichert. Thank you, Mr. Chair. I appreciate the 
opportunity to be involved in this process as a new Member of 
Congress. It has certainly been an interesting discussion.
    Dr. Lanzerotti, you state that you have strong reservations 
regarding a plan to rehost the Hubble cameras on a new 
telescope, but Dr. Norman seems to make a solid argument for 
rehosting. Dr. Lanzerotti, can you expand on the specific 
concerns that you have with Dr. Norman's rehosting concept, and 
Dr. Norman, do you have any comments?
    Dr. Lanzerotti. Let me say first that the concept that Dr. 
Norman, Professor Norman presented here this morning were not 
ones that we completely evaluated. When he briefed the 
Committee, I don't recall that he had the new Japanese 
telescope at that time. Am I mistaken on that, or not?
    Dr. Norman. Unfortunately, you are.
    Dr. Lanzerotti. I am mistaken?
    Dr. Norman. You are.
    Dr. Lanzerotti. Okay. So I am mistaken. He must have had 
the Japanese telescope on there, but the--there is no question 
in the Committee's mind that there would be a very large, a 
significant science gap between the demise of the Hubble and 
the rehosted instrument. We were asked to look at the overall 
Hubble question, to not address Hubble prior to its demise, and 
the possible going into an unstable, let alone not useful 
state, would not be wise for the Nation at all. If the decision 
is made not to do anything with Hubble, we are going to have to 
address Hubble for de-orbit. We just can't leave it up there 
floating around without addressing the de-orbit.
    A robotic vehicle has to attach itself to Hubble at some 
point to de-orbit it. Hubble has to be in a stable state. It 
has to be in a state such that the gyros and the batteries make 
it, and particularly, the battery lifetimes, make it such that 
Hubble has to be accessed. And so, we--for one of the--for that 
reason, for one of--that is the one of the reasons why we felt 
that just concentrating on rehosting, and the science was not 
addressing the total Hubble issue, the de-orbit issue. We said, 
as I stated in my oral testimony here, and I have in my written 
testimony, that the Shuttle servicing of Hubble could emplace 
fiducials, could emplace grapples on the telescope, such that 
an ultimate de-orbit module would be much easier to attach to 
Hubble to do a controlled reentry into the atmosphere.
    A--there is no question that a rehosted Hubble or a new 
Hubble going to a different location other than low-Earth orbit 
would allow one to have more science return, because you 
wouldn't have the eclipses every orbit--every 90 minutes that 
you see around Earth, for example. That is one of the 
positives. But the Committee was concerned, as I indicated in 
my testimony, was concerned that--excuse me--excuse me--I don't 
want to contradict myself here--that rehosting would involve, 
really, a significant cost savings over a Shuttle repair 
mission, and the--we just had this little dialogue here on 
fuzzy accounting, so to speak, and we were--and we certainly 
saw the big gap in the science. There would be no overlap with 
the Chandra and the infrared telescope Spitzer, with a rehosted 
spacecraft. And so this program that has been proposed by 
Professor Norman has never really been evaluated by this 
priority-setting decadal process, and that is why I said 
personally, I would recommend the tradeoffs involving a 
rehosting mission should be reviewed by the astronomy community 
in the context of its Decadal Survey activities.
    Mr. Reichert. Dr. Norman.
    Dr. Norman. Yes, thank you very much, Mr. Reichert.
    Firstly, I would endorse an Academy review of the HOP 
project. I believe we would stand tall and strong against any 
such review. And we would like to be as soon as possible, so we 
can get going.
    The main issue, I think, here is the famous so-called gap 
between the demise of Hubble and the beginning of the HOP 
mission. Currently, we envisage a 65 month schedule from 
authority to proceed to launch. That puts us--that puts HOP 
into orbit and functioning at the end of 2010. So, the gap 
would be two or three years, as was mentioned by Mr. Pulliam in 
the Aerospace report. Okay. The analogy I would like to draw 
for you is that--imagine that you are in a car, driving at 55 
miles an hour, heading from Washington to California. Okay. 
This is Hubble. Okay. So, you are driving along. If you go 17 
times faster--this is the wide field imager capability above 
ACS--then you are going at something like 1,000 miles an hour. 
It is the difference between flying and driving. So that even 
if there is a short gap of two or three years, because of the 
factor of 17, we will complete the science that would have been 
done by Hubble in that intervening two or three years, by two 
or three years divided by 17. This is two months. So, in the 
first two months, we would overcome that.
    The second point about the gap is it may in fact be useful. 
Many of us who have used Hubble for the last 15 years have much 
data that needs thinking about, reducing, thinking about, and 
even writing those papers that are littering our desk. A gap 
of, say--let us say this could take one year or so--when the 
enormous data stream from the very wide field imager comes 
down, from the quarter of a billion pixels, which will be 
orbiting in space, we need to be ready. It would be reasonable 
to have some time to prepare for this. So, we have thought 
about this greatly on our team, and the response to this 
particular question, from Mr. Reichert, about the gap. And we 
think it would be very reasonable to have a two or three year 
gap. I think if there is a gap of five years, for example, if 
we don't get the funding that we need in the time that we need 
it, if there is a gap of five years, the risk is that we may 
lose the interest of some of the brightest young astronomers, 
the astonishing talent of young astronomers, that is working on 
Hubble today. And that is the argument, I think, for having the 
political will, the energy, and the determination to get this--
if we decide to do the free-flyer, there are other options, of 
course. But we need the political will, the energy, and the 
determination to hold our feet to the fire, and NASA's feet to 
the fire, get this done in 65 months, and get on with it.
    Thank you.
    Chairman Boehlert. Thank you very much, Dr. Norman. Thank 
you, Mr. Reichert. Mr. Lipinski.

             The Manifesting of a Shuttle Servicing Mission

    Mr. Lipinski. I would like to thank the Chairman for 
holding this hearing. It is a very interesting hearing to begin 
my Congressional career, and I look forward to working with you 
and Mr. Gordon and all of the Committee members as we go 
forward during the--during this Congress. Now, it has been 
especially interesting hearing today, 17 years ago, I was a 
young, aspiring mechanical engineer, and unfortunately, my 
hopes were dashed by The Aerospace Corporation when they 
rejected my job application. But----
    Mr. Pulliam. Oh, no.
    Mr. Lipinski. But I think I have done okay since that 
point. So, I won't grill Mr. Pulliam about that. What I wanted 
to ask about----
    Mr. Pulliam. We are hiring, sir.
    Mr. Lipinski. It is a little too late. I wanted to ask Dr. 
Lanzerotti about the availability of the Space Shuttle. NASA 
told Aerospace that it would be 31 months after authority to 
proceed that the Shuttle could be used to service Hubble. Your 
committee's report states that after discussions with NASA, you 
determined that a Hubble servicing mission should be flown ``as 
early as the seventh flight after return-to-flight without an 
impact on the International Space Station.'' So, how did you 
arrive at that conclusion?
    Dr. Lanzerotti. Yes. Thank you very much, Mr. Lipinski. I 
am pleased to answer that. I will make an introductory comment, 
then I would like to call upon General Bolden. I would like to 
make the introductory comment by saying that our committee used 
NASA information, by multiple visits to the Johnson Space 
Flight Center, but also made its own assessment by the 
credibility and the experience of the members of our committee, 
who have been involved in NASA space flight activities, both 
managing at Johnson, managing at a headquarters, and flying in 
the Shuttle, both deploying Hubble and repairing Hubble. And 
the knowledge base that they have on the experience of the 
Space Station, manufacturing and deployment and development.
    And with that, I would like to call upon General Bolden, 
who can expand more on how the Committee arrived at some of 
that.
    General Bolden. Let me try to cover two things, sir, very 
quickly. First of all, the--our estimate was approximately 18 
months to fly from the moment that the Administrator or 
somebody says okay, let us go ahead and go SM4, fly a Shuttle 
mission. That is primarily because the mission is, we say, in 
the can. It is already--the design of the mission is already 
complete. Some training was in progress. It would be a matter 
of naming a crew, and from the time the crew is named until the 
time they are ready to fly is historically about a year, about 
12 months. So, that is where we came up with the 18 months.
    Why the seventh flight? If you think about balance, the 
International Space Station needs to get to a point where it is 
aerodynamically and logistically balanced, and when we talk to 
the NASA people, the International Space Station program 
offices, at the point of mission number--the sixth flight to 
it, then it essentially is a balanced system that can take care 
of itself. It can be interrupted. It will survive everything 
else. So, that is why we said as early as the seventh mission. 
Ideally, you would like to fly the first flight out of the 
chute to Hubble, and you alleviate a lot of the concerns that 
we have about delays with batteries and gyros and the other 
kinds of things. But that was not the decision. So, the seventh 
flight gives us--gives the International Space Station program 
an opportunity to get the International Space Station in a 
balanced situation, or a stable situation, such that it is a 
nice time to take a break.
    Mr. Lipinski. Does it matter if the first Space Shuttle 
flight falls--gets pushed back further?
    General Bolden. It makes a difference if the first Space 
Shuttle flight gets pushed back, because now, you have to ask 
yourself, when does the--if we are going to say the seventh 
flight is the right place, when does that seventh flight fall? 
If the seventh flight falls in 2009, 2010, the question that we 
were challenged to answer is already moot, because our--if you 
remember, our charge was to find--to evaluate options to save 
the Hubble Space Telescope. So, that is where time is of the 
essence. If the Shuttle return-to-flight is delayed by a number 
of years, I think it is a brand new ballgame. We are not even 
talking about using Shuttle anywhere down the line, other than 
maybe the first flight, the return-to-flight flight. So, time 
is of the essence. You talk about the 2007 to 2009 timeframe, 
when you go beyond that, you know, you may as well start 
talking about a de-orbit mission, and essentially forget about 
a lot of the other things we want to do.
    Dr. Lanzerotti. Thank you, Charlie.
    Mr. Lipinski. Thank you, Mr. Chairman.

                          Rehosting Continued

    Chairman Boehlert. Thank you. Dr. Taylor, I think you 
wanted to respond to Mr. Reichert's question.
    Dr. Taylor. If it is all right, I would like to put in one 
more word to--in response to Mr. Reichert's question. I 
appreciated hearing again what Professor Norman had to say. You 
probably know that one of the ways that we scientists make 
progress is we push and shove at each other, we argue, we find 
the weaknesses in one another's arguments whenever we can, and 
then, in the end, nature makes up her mind about what is really 
the case, and we try to agree on it.
    I think what needs to be clear to you, Mr. Reichert, is 
that Hubble light, the HOP project, does not--it does some 
things extraordinarily well, it does them faster. But it does 
not do everything that the present Hubble telescope does. It 
doesn't point as well. It--there are many other things which 
Hubble does that--which HOP cannot do. And I think the--my 
evaluation of the loss of science created by the gap of three 
years or whatever it would be, between something like 2007 and 
the end of 2010, is rather more significant than Dr. Norman 
suggested.
    Chairman Boehlert. And Dr. Beckwith, I think you wanted to 
comment.
    Dr. Beckwith. Well, since we are into analogies here 
involving automobiles on the highway, I think HOP does not 
replace Hubble's capabilities. It has some things, as Dr. 
Taylor said, which are a little better, but the analogy I would 
like is you are driving down the highway at 50 miles an hour in 
a car, and you have the option of going 1,000 miles an hour in 
a motorcycle. Now, if you alone need to get somewhere fast, 
that is a very useful option. But if you want to transport your 
family from Baltimore to Washington, say, in a snowstorm, it 
may be that that speed is less important than the carrying 
capacity and the ability to stay out of the snow. So, Hubble 
has been enormously successful, because it is a general purpose 
observatory which is able to react to discoveries that we don't 
have the imagination to predict even a few years ahead of time. 
And time and again, Hubble has shown that it is built with the 
right set of characteristics to probe the cosmos in ways that, 
you know, theorists just aren't predicting. So, it is useful to 
note that in the suite of programs that NASA has, it has a mix 
of programs. It has some very small, specialized programs. It 
has medium-sized programs which are targeted at particular 
questions. The WMAP program for cosmology, the COBE program, 
some of these other programs. And it has general purpose 
observatories. The general purpose observatories have been the 
most productive of all of NASA's programs by a long, long shot, 
and so you have to think very carefully when you are making 
substitutions between that capability and a capability which is 
a little lighter, a little more specialized, and in this case, 
would be delivered many years later.
    Chairman Boehlert. Dr. Beckwith, as an aside, can I ask, in 
the examples you cited, and the one that Dr. Norman cited, what 
assumptions are you using with respect to Congress' reaction to 
my call for increased CAFE standards?
    Dr. Beckwith. I am sorry, but that is not something I am an 
expert on.
    Chairman Boehlert. Thank you. Mr. Udall.

                  Risk and a Shuttle Servicing Mission

    Mr. Udall. Thank you, Mr. Chairman. I, too, want to 
acknowledge the great work that each one of you on the panel 
has done to think creatively about where we could proceed with 
this magnificent instrument that we call Hubble. I want to also 
thank the Chairman and the Ranking Member for the 
acknowledgment they directed to me earlier in the hearing in 
regards to the resolution that we introduced last year in the 
Congress that resulted, Dr. Lanzerotti, in your panel going to 
work and coming up with your important recommendations.
    It strikes me that the tone of this hearing is that it is 
not if we are going to save Hubble, but it is how and when, and 
I hope that, in the long run, is what occurs. Mr. Chairman, it 
also seems worth noting that I don't know if we have ever held 
a hearing where we talk about saving a satellite, saving an 
instrument. Most, if not all, of the satellites are allowed to, 
or directed to fall into orbit in some way or another, and I 
think that, in its own way, speaks volumes about the importance 
of this instrument, and the great brainpower that has been 
applied to not only putting it into orbit in the first place, 
but maintaining its life cycle as long as possible.
    We have focused on budget concerns and cost accounting and 
trying to get to the heart of that, I think, it is true there 
are still some important questions that have to be answered. We 
have looked at the robotics piece in this hearing, and Dr. 
Cooper, your efforts have not gone unnoticed, and I would like 
to associate myself with Mr. Calvert. I am on the Armed 
Services Committee as well, and regardless of what happens with 
your mission here, I think there is some very important 
applications in the long run for what you are doing.
    I would like to turn to the safety arena, and direct a 
couple of questions at Dr. Lanzerotti. In the concerns cited by 
Administrator O'Keefe for canceling the servicing mission was 
crew risk, and I think your committee, Dr. Lanzerotti, took 
that issue head on, and you stated that the Shuttle crew safety 
risks of a single mission to the Space Station and a single 
Hubble servicing mission are similar, and the relative risks 
are extremely small. This is an important finding. Can you 
elaborate on why your committee believes that to be true?
    Dr. Lanzerotti. Thank you, Mr. Udall. Yes, I will. I would 
like to call upon General Bolden to give the more definitive 
technical answers. I would like to say that the Committee took 
this part of its responsibility very seriously. Human life is 
at risk. But flight--human flight in space is a very risky 
endeavor, and so, we took this very seriously. And we 
understand if the Nation goes into the direction of exploration 
beyond low Earth orbit, it is also going to be a very risky 
enterprise. We also recognized that the American public has to 
understand the risk issues related to humans flying in space. 
And so, we called upon the expertise of our members of our 
committee who have flown in space, who have managed the space 
human flights program, and we have also visited the Johnson 
Space Flight Center several times by a subcommittee to gather 
the information that we did.
    And I would like to have--if I might ask General Bolden to 
elaborate on the findings of our committee in that regard.
    General Bolden. Mr. Udall, thank you very much.
    As I mentioned before, our charge was to look at options to 
assess, to save the Hubble Space Telescope, and we were asked 
to look at the relative risks between, primarily between 
robotic, human missions. There are two risks that we concerned 
ourselves with. One is the risk to humans. So, the robotic 
mission wins out, unquestionably, hands down, because there are 
no humans involved. The other risk is one to the Hubble Space 
Telescope. And our finding there was that because of experience 
and past performance, by a small margin, a human mission, a 
Shuttle mission to Hubble, we recommended as winning out. The 
ancillary point that we were asked to look at was the 
comparative risk between the International Space Station 
mission and Shuttle to the Hubble Space Telescope. The risks 
are encountered during ascent, on orbit, primarily from 
micrometeorite, micrometeoroid damage, and then during entry.
    For all intents and purposes, the risk to a crew, whether 
you are going to the Hubble Space Telescope orbit, or whether 
you are going to the International Space Station, are the same 
during ascent. The primary difference becomes one of risk to 
the crew on orbit. In the International Space Station orbit, 
which is lower than Hubble, the--it is denser, in terms of the 
amount of debris, so there is some increased risk to a crew in 
a Shuttle in the orientation that we dock with the 
International Space Station. There is less risk from 
micrometeoroid damage, because we can choose our orientation to 
put the orbiter in a safer orientation, in terms of 
micrometeoroid debris.
    So, that leaves one other thing to be considered, and that 
is what we call a safe haven. NASA advertises that the 
International Space Station can provide approximately a 90 day 
safe haven for a crew in the event that we find that there is 
some damage. Let me add one thing. First, you have to find out 
that there is damage to the vehicle. If it is determined that 
that damage occurs before getting to the International Space 
Station, or as happened on STS-51-F, in 1985, you don't make it 
to your desired orbit, the advantage goes away with the 
International Space Station, because the crew can't get there. 
They may have been trying to get there, but they don't get 
there physically. That is a fact of life, and that has happened 
to us on a previous Shuttle mission. So there, you lose the 
advantage of the safe haven from the International Space 
Station. The question of 90 days is one that we can argue the 
point. Right now, I don't think, and our determination was that 
the International Space Station, as presently configured, and 
as presently--its reliability at present, because of its 
environmental control system, we don't think it can accommodate 
a crew of seven or more for 90 days. The Shuttle itself, if you 
determine early enough in the flight that it has problems, you 
can do a power down, something that we have practiced all the 
time, and you can get up to--maybe--you can probably squeeze 
out 30, maybe 45 days on orbit, while you mount a rescue 
mission or whatever it is. So, the relative risk between a 
mission to the International Space Station and a single mission 
to service the Hubble Space Telescope is minimal, at best. That 
was our assessment. If that is the case, then it says, you 
know, there is no human safety concern more from a Hubble Space 
Telescope mission than there is from an individual 
International Space Station mission. And if you look at 25 or 
30 International Space Station missions, then it goes out the 
window, astronomically more risky to complete the International 
Space Station.
    Mr. Udall. General, thank you, and you anticipated my 
follow-on question about safe havens, and the relative risks 
between a Hubble mission and, actually, the station itself, and 
I also want to thank you, because the Chairman is a lot more 
willing to let expert witnesses go on, particularly those who 
have served our country with distinction, then mere members of 
the Committee. So, thank you for providing with me with 
additional minutes on a very important question. So, thank you. 
Mr. Chairman.
    Chairman Boehlert. Before turning to Mr. McCaul. General, I 
would like you to clarify for the record, you said by a very 
small margin, that was the exact phrase you used, you opted for 
having astronauts do the repair rather than robotics. Can you 
amplify that?
    General Bolden. I--my reference to a very small margin was 
in terms of risk to the crew and vehicle. And that risk is 
small, because the single advantage that I think, and most of 
my colleagues think, a mission to the International Space 
Station provides is the presence, the ready presence of a safe 
heaven. If you are damaged on ascent, and you go to the 
International Space Station, the crew still has to get outside, 
inspect, determine exactly where the damage is. They have to 
have a way to either repair it--if they can't repair it, which 
is a very good probability, even going into the return-to-
flight, then you have got to get another Shuttle up to rescue 
the crew. If you go to the Hubble altitude of almost 400 miles, 
and you determine that you have a problem, you utilize the same 
tactics, techniques, and procedures for inspection that we do 
when we get to the International Space Station. And in 
determining where we need to go and make the repairs. If you 
can't repair it at the International Space Station, you can't 
repair it in the Hubble orbit. So, you know, the risk is 
minimal, if there is a difference.
    And the fact is that after the first few flights--after 
about the sixth flight or--sixth or seventh flight, when the 
second--Node 2 is placed on the International Space Station, 
your ability to inspect and repair at the International Space 
Station becomes essentially identical to that in the Hubble 
orbit, because now, you are totally dependent on the orbit--it 
is the extension of the remote manipulator system arm, the 
OBSS, you become totally dependent on the OBSS to do the 
acreage survey, the look throughout the vehicle to determine 
where the damage is, and that is no different whether you are 
in a Hubble orbit, or whether you are at the International 
Space Station.
    Chairman Boehlert. Thank you. Mr. McCaul.

                       Shuttle Servicing Options

    Mr. McCaul. Thank you, Mr. Chairman. I would like to 
welcome General Bolden, who is actually a fellow Texan, here 
today, and he brings a lot of experience, a lot of Shuttle 
missions, including to the Hubble Space Telescope. I would say 
real world experience, maybe it is out of this world 
experience, but I appreciate you being here. I have got a--it 
is actually sort of a follow-up question to Dr. Lanzerotti and 
General Bolden. In the effort to save money, we have 25 to 30 
Space Shuttle missions budgeted. Is it possible, and I know 
there is a risk involved, is it possible to have a mission that 
could--that is going to the International Space Station, go 
there and also sort of go in a detour route to the Hubble 
telescope to fix it? That is my first question.
    Dr. Lanzerotti. I think the problem there is simply one of 
Shuttle lift capability. Charlie can correct me if I am wrong 
on these, because he has flown that truck, and I haven't. But 
the Shuttle will be fully utilized, carrying up two new 
instruments, as well as all the other equipment that are needed 
for the refurbishing of the telescope. And so, there would be 
no extra cargo bay available to go to the station. Also, they 
are in very different orbits. Very different orbits. The----
    Mr. McCaul. Thank you.
    Dr. Lanzerotti. And that is also--makes it impossible, 
essentially impossible, from the point of view of celestial 
mechanics.

         The Hubble Space Telescope's Projected Life Expectancy

    Mr. McCaul. Okay. I think that answers that. My second 
question is to Dr. Norman, and it is my understanding that 
either way, if we fix the telescope, that it will still go out 
in the year 2013. Is that a correct assumption, or is that not?
    Dr. Norman. Mr. McCaul, if you could clarify that a little 
bit.
    Mr. McCaul. Well, if we send either robotic or the Shuttle 
to repair the Hubble telescope--maybe I should ask it another 
way. How long would that keep the Hubble telescope alive and 
well?
    Dr. Norman. It is a good question. I am not actually 
technically qualified to answer that, but the time between 
servicing missions is the order of three to five years, so that 
we may well have to go there again if we wish to keep it alive. 
So, that would be if we get there in 2008 this time, and I 
think you are right, the outer limit would be 2013. Yes.

                           Cost of Rehosting

    Mr. McCaul. Right. And so, we are looking at, I have heard 
estimates from $500 million to a billion dollars to fix it, and 
I--my next question is how much would it cost to just send a 
Hubble telescope with modern technology that we have today, up 
into space, with the possibility of not having to repair it 
every three to five years?
    Dr. Norman. Right. The--it costs a billion dollars to do 
the famous HOP project. We are not intending to make that 
robotically serviceable at the moment, although we may do this 
later, if we go into detail design phase. But--so, the nominal 
lifetime of this new, state of the art technology telescope 
will be five years, and therefore, it will go from 2010 to 
2015. In the meantime, of course, JWST will come online, and 
other major facilities. But it will do great work in that five 
years. If the nominal lifetime is five years, one might expect 
that it would last significantly longer, based on other NASA 
missions. And of course, if one went into the robotics issue, 
and said that robotics would, in fact, be ready by 2015, then 
that could be the first robotic servicing mission.
    Mr. McCaul. Okay. Thank you. Thank you, Mr. Chairman.
    Chairman Boehlert. Mr. Melancon. You are up. Mr. Matheson.

               The Hubble Space Telescope and Dark Energy

    Mr. Matheson. Thank you, Mr. Chairman. First, I have a 
question for Dr. Beckwith. I am interested in your thoughts 
about this--developing greater understanding of dark energy, 
and the role that you foresee Hubble being able to undertake in 
the future, based on decisions that are made on what we do with 
Hubble. If it is refurbished, how do you see how it could play 
a role in developing greater understanding for us about dark 
energy?
    Dr. Beckwith. Well, right now, there are two basic 
possibilities for dark energy. One is that is what Einstein 
envisioned in his general relativity equations. It is what is 
called a cosmological constant. It is a property of the fabric 
of space-time. And the other possibility is it is something 
else that we don't know about. Now, it if is Einstein's--if it 
is according to Einstein's theory, it is a constant. It is 
ever--it is not changing. And the easiest way to verify that or 
not is to look back very far in time and compare what the 
universe was doing a long time ago with what it is doing now. 
And Hubble is unique for doing that. That is, at very early 
times, only Hubble can actually detect and measure the 
supernovae needed to make those measurements.
    So, as we speak, Hubble is making progress on this problem. 
It will make a great deal of progress in three years, and with 
an upgraded instrument, with the Wide Field Camera 3, its rate 
will also accelerate by a big factor over what it does today, 
and so, it is entirely possible that with Hubble, you could 
rule out one of those possibilities in the next five years or 
so. Now, of course, we don't know, but that is really, I would 
say, the hope with Hubble, that we will know if it was Einstein 
or something weird. Now, if it is something weird, of course, 
we don't really know. I mean, Hubble will contribute, but 
obviously, you would have to sit back--sit down and design a 
very specialized mission for it.
    I think it would be useful, of course, if the Committee 
could establish a dark energy policy, so that we really 
understood, you know, what the Nation wanted to do on this 
problem. But in fact, I think that is going to be part of the 
science community's next Decadal Survey.
    Mr. Matheson. Would this be an example, you mentioned 
earlier that we are dealing with circumstances where things are 
unimaginable. Is this an example of those things? When Hubble 
was launched, did we have a sense that this was going to be a 
field that would be evaluated?
    Dr. Beckwith. No. There was no significant active research 
into this particular problem. The breakthrough came in 1997, 
1998, two different groups verified this within a year, 
actually, within six months of the time it was announced, 
Hubble began doing this. Hubble has now taken over an entire 
subfield of this research, and it is completely unique for 
looking back into the distant time to see--early universe to 
see how much this has changed. This is one of--I can come up 
with three very prominent examples that everybody could 
understand that didn't even become topics of research until 
Hubble was up there working. And in one case, it was Hubble 
that generated the entire topic. So, that is the power of 
Hubble.

       Aerospace Corporation Analysis Assumptions versus Reality 
                 Regarding a Robotic Servicing Mission

    Mr. Matheson. I have one other line of questioning I wanted 
to ask, and in my limited time, this may be--limited on what 
you can answer as well, as a group, but general question based 
on The Aerospace Corporation report. As I understand it, both 
the Shuttle and robotic service mission have comparable life 
cycle costs, with the data that you were given. The Shuttle's 
development time is about two and a half years. Has--will it 
proceed as a medium development risk and mission risk. The 
development time for the robotic is 5.4 years, and is--has what 
would be characterized as a higher development and mission 
risk. Now, I realize the report did not take into account the 
specific robotics work already under way in the summer of 2004, 
but--and there are recent reports not known at the time of the 
report--recent developments not known at the time the report 
was composed, that suggest the robotic mission risk and time 
was actually lower than was asserted before. And you may have 
covered this. I apologize. I was late getting into this 
hearing, so this may have been covered before I got here. If 
that is true that they are actually lower than have been 
asserted, how much risk reduction have we seen, and how much 
time has been gained on the robotic option? That would be the 
question I would throw out. I don't know who wants to answer 
that.
    Mr. Pulliam. Mr. Matheson, I would just start out----
    Mr. Matheson. Sure.
    Mr. Pulliam.--with a reiteration of what we did. The--as I 
have said before, ours--as you said, ours was an analytical 
capability assessment, and not a programmatic assessment. But 
you know, the statement was made earlier that the Aerospace 
database was fraught with clean sheet of paper exercises, and 
that this particular development is not a clean sheet of paper.
    Mr. Matheson. Right.
    Mr. Pulliam. I would say that, as I said to the Committee 
at my opening remarks, our analyses come from the analysis of 
how things come out, not how they began. So, whatever heritage 
is in whatever program gets built in to the numbers we use. So, 
I would say that the only way that the Congress would know 
that, or even others might know that, is to look specifically 
at that program. But we would be the first to congratulate 
anyone who comes in below cost and ahead of schedule.
    Mr. Matheson. Sure.
    Mr. Pulliam. But I think program assessments are the way 
one would find that out.
    Mr. Matheson. Dr. Cooper.
    Dr. Cooper. Thank you for the opportunity to respond, 
Congressman. First, a comment. You made the comment that The 
Aerospace Corporation asserted comparable costs for the 
missions. Even assuming that is true, I want to point out that 
the value outside the Hubble mission is not comparable. That 
is, there is basically nothing to be learned by sending 
astronauts to repair the Hubble. However, if we do the robotic 
mission, we are doing a lot for the space program outside 
saving the Hubble. So, the costs may be comparable, but the 
value is hugely different, which changes the value equation 
totally. And the second part of your question was basically how 
much risk has been reduced since the initial appraisal of the--
that one, the best way I can characterize that is how the 
process occurs, and the process occurs by--one of the great 
values of the NAS report is it, as you would expect, 
highlighted a number of areas of risk. And as we understand 
what the risk areas are, we work relentlessly to eliminate them 
one by one. And a number of them, we have basically disposed of 
at this point. For example, originally, there was a great deal 
of concern about the time delayed control of robotic systems in 
orbit, when the astronauts driving them on the ground. I think 
it is fair to say on the basis of--for example, NASA recently 
actually issued a safety approval, after a long scrutiny, of 
doing this for--controlling the space station robot, that we 
pretty much know that one cold. Another one that I referred to 
earlier, there is a, you know, there is a big--there is a lot 
of specific motor tasks that have to be achieved to service the 
telescope, upgrade it. That one, we have also gone a long way 
towards retiring the risk on that one.
    There is another class of risks which are harder to 
address, which are we haven't flown autonomous rendezvous. We 
haven't flown autonomous capture, and the thing I would tell 
you about that is the rest of the space community understands 
that those risks are very important for a lot of reasons, DOD 
reasons among them, and there is a whole sequence of space 
flights planned that are going to essentially relentlessly 
eliminate those risks one by one. And the net of this is, at 
the moment, our view is, by the time we come to launch this 
thing, there is nothing left for us to do but actually go up 
there and do the mission, because everything we could possibly 
think of will have been covered by that point.
    Dr. Lanzerotti. Mr. Matheson, our committee was concerned 
that some of these missions that may do these kinds of things 
for autonomous rendezvous would be long after the necessity for 
servicing Hubble.
    Mr. Matheson. Okay.
    Dr. Lanzerotti. And so we were concerned that you might not 
be able--one might not be able to service Hubble reliably with 
an uncooperative target that Hubble presents. You--basically, 
you have got a huge investment up there that is doing fantastic 
astronomy, and it could be--it is being used as a target for 
potential DOD missions or whatever else, as Mr. Cooper said. 
And our committee was concerned with using Hubble as a--just a 
target vehicle for doing other things that may be applicable 
with--downstream.
    Mr. Matheson. I appreciate that. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much. Mr. Rohrabacher.

          Value of a Robotic Servicing Mission to Exploration

    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
would like to thank Mr. Udall, who may have left the room by 
now, for inspiring this hearing, and you know, goosing us in 
the right direction a few months ago. I remember people were 
not paying the attention to this as we should, and then, Mr. 
Chairman, your personal leadership, and making sure we have a 
hearing as high a quality as we have had today, has to be 
commended. Mr. Cooper, I think the last point you made, and--
was something people should focus on, and that is your analysis 
of the value of a successful robotics mission, as compared to 
the value of another mission that would be successful. And I 
happen to believe that part of what we are doing here is 
pushing the envelope on humankind's capabilities in space. That 
is part of what we are doing. We are not just fixing the 
telescope. We are making sure that humans can do things that 
they can't do now in outer space, and there is a great deal of 
value to that, and a great deal of actually getting experience 
in doing things with robotics, so I buy that. I buy that 
argument. And I think that when we are analyzing what goes on 
here, that must be part of our decision making factor, as to 
how much it is going to be worth to humankind to have developed 
further skills in the use of robots in space.
    Let me note that the situation with the Shuttle and--has 
not exactly been defined here, and I would like to go into that 
for a moment. And the Academy report states that if the Shuttle 
can go up, and that a second Shuttle could be launched if there 
is a rescue mission that is needed. So, we have got that exit 
strategy. First of all, is an exit strategy essential for us to 
be able to use the Shuttle? That is----
    Dr. Lanzerotti. Thank you, Mr. Rohrabacher. With regard to 
your first comment about the value of--if I might----
    Mr. Rohrabacher. Yes.
    Dr. Lanzerotti.--about the values of humans and robots and 
interactions in space for exploration. You are absolutely 
right. It is a value--but it also is a value judgment in terms 
of whether you want to use Hubble, this facility that is 
operating, as a target to do that kind of practicing, in case 
of failure. I mean, one could imagine that one could launch 
something else up there to do target practice----
    Mr. Rohrabacher. Of course, there are some people, you have 
to remember, who are arguing just to bring Hubble down right 
now, and it is not worth doing all the rest of it.
    Dr. Lanzerotti. That is absolutely right. In my----
    Mr. Rohrabacher. So, they----
    Dr. Lanzerotti. In my----
    Mr. Rohrabacher. That is part of the equation.

               Safe Haven and a Shuttle Servicing Mission

    Dr. Lanzerotti. In my opening testimony, I indicated that 
indeed--remember, the Committee was agnostic on that to begin 
with. There are many members that thought that Hubble was not 
worth saving until they dealt and did the analytical analysis. 
With regard to your--but I said it is a value judgment, and 
indeed, that is a judgment that the Congress, in its wisdom, 
and the American people can decide, if Hubble should be a 
target for practice like that. With--your second point, 
however, had to do with the standby Shuttle. I would like to 
have General Bolden make a couple of comments related to that, 
but let me point out that NASA's return-to-flight implies a 
Shuttle on the launch pad for the first two launches in return-
to-flight at this point, to the best of my understanding.
    Mr. Rohrabacher. Okay.
    Dr. Lanzerotti. It is not a requirement for us to have a 
second Shuttle on the launch pad for a Hubble service. We point 
out that, since that is the case for the first two flights, and 
if NASA is concerned about a rescue, then that would not be 
unreasonable to have for our--for a Hubble mission as well. And 
General Bolden can relate to you that NASA has had two Space 
Shuttles on the pad in the past with this kind of timing.
    Mr. Rohrabacher. The question is, is if they are--cannot--
is that a prerequisite? If they are----
    Dr. Lanzerotti. No, it is not a prerequisite at all.
    Mr. Rohrabacher. Okay.
    Dr. Lanzerotti. Charlie--may Charlie?
    General Bolden. Mr. Rohrabacher, it is not a prerequisite, 
as Dr. Lanzerotti says. However, I think NASA has deemed it 
prudent, and we don't argue with that point, by what we got 
from our visits to the Johnson Space Center, the second vehicle 
on the pad causes up to a 30 day slip in the time that you 
would start preparation for a--or have another Shuttle ready to 
back into the International Space Station flow. If I may, I 
want to respectfully disagree with one of the things you just 
said, because I think it is important for people not to mix 
apples and oranges. You mentioned the fact that pushing the 
envelope--and Dr. Cooper has said that pushing the envelope is 
an important mission, or an important aspect of this mission. 
That was not in the mission objectives until today. So----
    Mr. Rohrabacher. Well, I--let me tell you, General, it has 
been in the--in our agenda since the forming of this Committee, 
and it may not be--NASA may not recognize it as part of its 
goals officially, but whatever project we are involved in 
should assume that, so I don't buy that at all.
    General Bolden. I understand. The other point to be made, 
in terms of our report is people generally tend to say that we 
oppose the robotic mission. We encouraged NASA to continue its 
development of the robotic capability. In fact, we said that 
you--that they will need the robotic capability, not only for 
the Exploration Initiative, but in order to de-orbit the Hubble 
Space Telescope. So, we think it is critical that they continue 
down the road of the development of the robotic mission. We all 
need to understand that that mission, however, has to be 
successful. And in order to optimize its chances for success, 
we feel that utilizing a proven Shuttle mission to do the 
servicing of Hubble, and also, installing fiducials, installing 
attachment configuration pieces that will enable Dr. Cooper's 
robot to be--to have a better chance of correctly and 
effectively de-orbiting Hubble, does respond to one of NASA's 
charges, which is to safely de-orbit Hubble, and lower the risk 
to the public at large.
    Mr. Rohrabacher. Let me note, if the Chairman will indulge 
me, this isn't a must do mission. Obviously, we have people 
advocating that we simply bring it down. So, it is not a must 
do mission. Where else can give a better incentive for people 
to push the envelope on technological know-how than in a 
mission, that if it fails, it is not that great a failure, 
because when people have already argued to bring it down in the 
first place.
    General Bolden. Sir, I think you misunderstood my 
statement. I--my statement is what is essential, if we are to 
comply with NASA's charge, and that is to safely de-orbit 
Hubble, it is essential that a robotic mission work, and we 
feel that flying the human servicing mission does two things. 
It optimizes, or it better enhances the probability of a 
successful robotic mission to enable us to de-orbit Hubble. 
That is----
    Mr. Rohrabacher. Right. Well----
    General Bolden. That is all----
    Mr. Rohrabacher. Well, at the same time----
    General Bolden. That is all I was saying.
    Mr. Rohrabacher. Well, at the same time, putting human life 
at risk, where we have got an option where human life is not at 
risk at all, so that becomes not a factor to be even developed. 
One more line of questioning, if I could get into, just so I 
will note that to the degree that we cannot--we don't have to 
use Shuttle, we shouldn't be using Shuttle to the degree, 
because right now, we have had these two catastrophic 
accidents. We know that there is a great deal of risk involved 
in the Shuttle. So, that is something that we have to keep in 
our mind as well. And NASA has been dragging its feet, Mr. 
Chairman, on several areas, where we are trying to refrain from 
using Shuttle unless we have to. This is one example. Another 
example is where we--for example, where the Space Station can 
be serviced with a non-Shuttle type of operation, maybe even a 
private sector operation, that we do it this way. NASA has been 
dragging its feet on that. Some people just want to dive back 
into the use of the Shuttle, as if these accidents, these 
catastrophic accidents, didn't happen. Well, let us--we can't 
move forward on that basis. And Mr. Cooper, finally, let me 
give you a chance to--you have sat there, and if you are going 
to refute or----
    Dr. Cooper. Thank you, Congressman.
    Mr. Rohrabacher.--whatever.
    Dr. Cooper. Actually, my initial reaction was you were 
doing a much more eloquent job of stating the position I 
believe than I could. However, I do want to object strongly, 
strongly to the characterization of the Hubble servicing 
mission with robots as practicing, and in fact, let me tell you 
about something. It is a DOD-funded mission called Orbital 
Express. The explicit purpose of this mission is in fact to do 
this practicing, and this practicing will have occurred prior 
to when we go up to the Hubble. There will be no practicing 
involved in this situation.
    Mr. Rohrabacher. Well, thank you very much, and Mr. 
Chairman, again, let me congratulate you for putting together 
some team here, that could look at all of the sides of this 
argument, and give us such a--the benefit of having the value 
of all of their opinions. We appreciate it.
    Chairman Boehlert. Well, thank you for contributing to 
interesting exchanges. Thank you. Ms. Jackson Lee.

                   The ``Science Gap'' and Rehosting

    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I add, 
too, my appreciation for this hearing. I think the Chairman 
well knows, and we have had some interesting exchanges between 
myself and the Chairman and other Members of the Committee. 
Over the years, my concern has been the question of safety. And 
I am--been, if you will, very keen on some of the testimony 
that we have heard this morning, and now, this afternoon, on 
questions of choice, of what you would use, but also, the 
variables between using a human Space Shuttle, versus robotic. 
Let me also acknowledge General Bolden. It is good to see you 
again. I have been a neighbor for a long time, and as you well 
know, concerns about the human space flight, for those of us 
from Texas, is personal. And particularly in the backdrop of 
the Columbia 7 tragedy, that was commemorated yesterday, I 
believe these issues are extremely important, as well as the 
science that the Hubble Space Telescope allows us to 
participate in. And so my line of questioning goes along the 
lines of choices, along with the question of the budget. And I 
do thank the Committee for the work that it has done, and I 
would hope that we would move expeditiously, because you have 
given us sort of a framework and a timeframe of how fast we 
need to move. I am looking at a calendar--we are now looking at 
the reauthorization of the Voter Rights Act of 1965. You wonder 
how that relates, but we have got to get moving, because it 
expires within a two year period. You are telling me that we 
are looking at expiration of the Hubble in its ability to 
function very shortly. So, let me ask this. On the rehosting, 
if we were to do the rehosting, there is a gap of time that it 
takes to have that implemented, what is the time--what is the 
gap of time? How long would that be, that we would be waiting, 
if we did--if we opted for the rehosting and the building, if I 
understand, of certain equipment, how long would that be? Let 
me add to, I think, an explanation that General Bolden was 
trying to give, and that is the distinction, or any sort of 
safety gap between a human Space Shuttle to the Space Station 
versus human Space Shuttle to Hubble. I would like to keenly 
understand whether--how finite that difference is, and I would 
share with my colleagues, I take issue with whether or not we 
should abandon human Space Shuttle. I absolutely believe we 
should not. If the President has announced a space exploration, 
whether or not we use a different type of equipment, human 
Space Shuttle is going to be very vital, or the human space 
opportunity is going to be very vital. Why not let us get 
additional expertise by doing the good works of securing the 
Space Station or Hubble? So if I might ask the gap on the 
rehosting, and then, can I get clearly, the distinctions of 
safety going in both directions? I would like--I will start 
with Mr. Pulliam, and then, Dr. Lanzerotti, and if you would 
yield, to also General Bolden as well.
    Dr. Lanzerotti. Yes, I intended. After I have had my little 
one minute----
    Ms. Jackson Lee. That is all right.
    Dr. Lanzerotti.--of fame.
    Ms. Jackson Lee. Mr. Pulliam.
    Mr. Pulliam. Ms. Jackson Lee, our analyses showed that 
Hubble would--probably near the end of its science life, in 
2007, 2008. We know that extraordinary measures are being taken 
to preserve power and other kinds of things to keep that 
science life going as long as it can. We analyzed that Hubble 
would be at the end of its serviceable state in 2009, with 
science ending before that.
    Our estimates for our completely rebuilt, new rehosting 
mission were in the 2011-2012 timeframe, so you know, we banded 
it very broadly by saying a two to seven year science gap. I 
can't imagine, under the analyses we did, getting much less 
than that. So, on the order of five years, I would say, would 
be about a mean on how long we think the science gap would be.
    Ms. Jackson Lee. And how great do you perceive that science 
gap to be, when I say we have five years, but how much will we 
be set back because of that?
    Mr. Pulliam. Well, I will have to defer on that one. We 
determined early on that probably in doing our analysis, we 
shouldn't make evaluations about the science. So, we went to 
what we call the science surrogate, and that is what is the 
instrument suite that one would have, realizing that these 
folks to my left will use that to the best interest of the 
Nation. So, you know, if Hubble does end its science life, and 
there is a number of years in the four, five, six year range, 
with no science at all, then I expect my colleagues to my left 
would have grave concerns about that.
    Ms. Jackson Lee. Dr. Taylor.
    Dr. Taylor. I could just point out that one of the very 
serious losses, if there were a gap as large as five years, 
would be the loss of people in the community who would need to 
find other things to do during those times, and probably would 
not be replaced. We would not, during that time, be attracting 
into doing advanced studies, new Ph.D. students in the field 
and things like that. It is very hard to turn the progress of 
that kind of a background of people off, and then turn it on 
again five years later.
    Dr. Lanzerotti. Thank you. I have--our committee would 
basically agree with the assessment of Aerospace and Dr. Taylor 
that it is of the order of five years or more of this science 
missed. Before I turn to General Bolden on the risk, I would 
like to make one comment. Dr. Cooper commented about the 
Orbital Express mission, which is late 2006. I would like to 
point out, in response to a question from Mr. Rohrabacher, who 
has to step out, I see, the Orbital Express is, again, a 
cooperative mission. It has cooperative targets, like the 
Russian missions. It does not demonstrate Hubble capability in 
its purest sense. So, I would like to get that on the record, 
as well.
    Now, with regard to risk, and some of your more detailed 
questions, I will defer to my colleague, General Bolden.

                                 Safety

    General Bolden. Thank you very much, Ms. Jackson Lee. I 
went back to my notes from our conversation with the NASA 
Orbiter Project Office, because I wanted to make sure that what 
I said is what we agree with NASA on. And when they talk 
about--when we all talk about mission risks, or risks to life, 
it comes from several sources. One is debris elimination. That 
is mainly debris from the tank or debris from anywhere else on 
the launch pad, during the launch process. Everyone agrees that 
that risk is essentially the same. There is no difference 
whether you are going to Hubble or whether you are going to the 
International Space Station. With reference to debris risk on 
orbit, that is where there is a slight difference. The Hubble 
altitude, because we can maneuver the way that we want to, and 
we can put the wing into the wind, if you will, and I am using 
very loose terms here, okay. But if you figure the debris is 
coming with the wind, in the Hubble altitude, we can put the 
wing into the wind to minimize the risk to the vehicle. The way 
that we orient the Shuttle presently to the International Space 
Station, the belly of the orbiter is into the wind. So, it is 
most--it is at its greatest exposure to debris risk on orbit 
from an International Space Station configuration. So, that 
makes ISS more risky from that standpoint.
    The next thing comes to crew rescue, if it is--well, we 
then go to inspection and repair. The inspection process that 
has been developed, and continues to be developed, will need to 
be, by NASA's own desire, will need to eventually become 
autonomous, such that it can be accomplished no matter where 
the Shuttle is, whether it is in a Hubble orbit, or whether it 
is in an International Space Station orbit. And because of the 
way that the International Space Station configuration is 
gradually being modified, there will come a day, after Node 2 
is installed on the International Space Station, that the 
Shuttle will need an autonomous inspection capability anyway, 
because Node 2 will prevent us from being able to see and reach 
things that we can reach right now, while Hubble is--while the 
Shuttle is docked to the International Space Station. So, 
inspection and repair, by NASA's own desire, will be equal, 
whether you are at the International Space Station or whether 
you are at the Hubble Space Telescope.
    The next thing is crew safety, and this is where the margin 
goes to the International Space Station. NASA says there is a 
90 day safe haven capability at the International Space 
Station. That is questionable, extremely questionable, at 
present, because of the present state of the environmental 
control system, the environmental life support system, on the 
International Space Station. So, it can go somewhere from 30 to 
90 days, where a crew can wait for a rescue mission to be 
mounted. When you power down the Shuttle, once you have 
discovered that there is a problem, you can have anywhere up to 
a 30 or 45 day period of time, where just an orbiting Shuttle 
in a Hubble Space Telescope altitude, or--could also stay with 
its own safe haven, as the Shuttle itself. This does not give 
any consideration to commercial recommendations of safe havens 
that, I think, some of your committee, or staffers have already 
seen. So, you know, the matter of providing safe havens to a 
crew is kind of open ended, but right now, the margin there 
goes to the--to being docked to an International Space Station, 
hopefully that helps.
    Ms. Jackson Lee. I thank the Chairman for his indulgence. 
Does anyone believe that this mission should be scrapped, or 
that we should not try to save the Hubble telescope? Anyone on 
this panel? So, we have a job to do. Is that correct?
    Chairman Boehlert. Thank you very much.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman Boehlert. Mr. Sodrel.

            Hubble Servicing and Its Relation to Exploration

    Mr. Sodrel. Thank you, Mr. Chairman. As a new Member of the 
Committee, I appreciate the opportunity to ask questions, and 
as a freshman here, I bring a business background. And if I 
might defend those folks that are on the low side and the high 
side of what a Shuttle costs, cost accounting is more art than 
science, unfortunately. I mean, which of the costs are fixed, 
which are variable? Of the fixed costs, how do you amortize 
them, over how many flights? What is the useful life of the 
asset? I mean, those are the kind of discussions that we have 
in business. You know, how long is this asset going to last, 
how much will we use it, and how much do we need to charge to 
each use of it? So those are not easy questions. I find that 
costs are rarely as expensive as a pessimist would have us 
believe, and they are rarely as inexpensive as the optimist 
would have us believe. So, somewhere in the middle is probably 
the cost. And my question goes somewhat to that. Did we 
consider costs--and this, to Dr. Lanzerotti. Did the Committee 
consider how the robotic mission to the Hubble would directly 
apply to future exploration missions, to the Space Station, or 
the Moon? In other words, can we amortize that cost? Is this 
something we are going to have to develop anyway, or something 
that would be useful later on? And did you consider that?
    Dr. Lanzerotti. Our committee did not consider that in 
depth. I will ask Mr. Rothenberg if he has any further 
comments, if I might. But the Committee did not consider that 
in depth. The Committee did have the feeling, and I also have 
the personal belief, that when one does the Human Exploration 
Initiative, and continues moving humans to the Moon and 
possibly to Mars, that one will have a very different model for 
robotic exploration. One will not have the model of a non-
cooperative target that was not designed for robotic servicing, 
which is the case with Hubble. And so it would--anything that 
we launch into space that we want to service robotically, and I 
am sure that we as a nation and internationally will want to do 
so, we will design that from the start with that in mind. 
Hubble is not designed for robotic servicing. There have been 
many experiences that we have had with servicing Hubble by 
astronauts, where unforeseen things have been found on Hubble. 
When they have pulled out instrument racks to replace them, 
they found a blanket in place that wasn't expected from the 
CADCAM drawings, and the astronauts could handle that. When 
one--if one--presumably, one would design a robotic mission 
from scratch, so that you wouldn't have such things like that 
arise. And so, that is--those are some of the kind of issues 
and experiences from the Shuttle servicing program that one has 
with this uncooperative target that wasn't designed in this 
way, that formed an important part of our committee's 
deliberations.
    Joe, would you like to make any further comments in this 
regard?
    Mr. Rothenberg. Just one little, further to illustrate it. 
The uncooperative target is one piece. The second is the actual 
design of the vehicle in general. For example, there is 
multiple sockets needed to be carried up for the robot to pick 
up and address multiple bolts in order to do the servicing. If 
one were designed for robotic servicing in the future, and even 
with humans, this became difficult, but one designed for 
robotic servicing, you would have all of the same bolt sizes, 
or have a minimum number of different bolt sizes, such that 
there is a minimum number of motions needed to get another 
socket, bring it up, and put it on the robot, put it on the nut 
you are particularly trying to loosen. So, you would design the 
vehicle differently, and I think that is a lesson we learned 
from even the human servicing of Hubble, where we had to carry 
up a tool suite far beyond what would normally be expected if 
you designed it for completely servicing.
    Mr. Sodrel. So, just to follow, then this is apt to be 
expense rather than an investment. It is a one time expense, 
not something that we would very likely use in the future.
    Dr. Lanzerotti. I am not--you mean, the servicing of 
Hubble?
    Mr. Sodrel. Yes. I mean the robotics involved----
    Dr. Lanzerotti. Oh, the robotics.
    Mr. Sodrel.--in Hubble.
    Dr. Lanzerotti. Joe?
    Mr. Rothenberg. No. Clearly, we will learn something. I 
mean, as we go through it, we are going to learn something of 
value. That is not the point. I think it would be--the question 
is, is the investment, if we were only doing it to learn what 
it took to do exploration, the right investment, or would you 
do it in a different way, such as using the Dexter on the Space 
Station and designing some targets and opportunities to test 
actually as you would design in the future, and buy down the 
risk of future designs.
    Mr. Sodrel. Thank you. Mr. Chairman.
    Chairman Boehlert. Thank you very much, and thank all of 
you very much for indulging us, and going a little bit beyond 
the witching hour. We will follow up with some things in 
writing, and I would urge you, if you feel that there is 
something more, in view of what took place this morning, that 
we should consider, please supplement your responses to our 
written questions with any additional comments you might care 
to make.
    But thank you once again. Hearing adjourned.
    [Whereupon, at 12:36 p.m., the Committee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Louis J. Lanzerotti, Chair, Committee on Assessment of 
        Options to Extend the Life of the Hubble Space Telescope, 
        National Research Council, The National Academies

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  You said at the hearing that having a second Shuttle on an 
adjacent launch pad ready to rescue any stranded astronauts in an 
emergency is not a prerequisite for sending a Hubble servicing mission. 
Yet NASA has told the Committee repeatedly that, to provide a 
sufficient safety margin, a rescue Shuttle must be on an adjacent 
launch pad. You also stated that General Bolden could relate past times 
when NASA has had two Shuttles on the launch pad simultaneously (which 
he was unfortunately unable to do before the end of the hearing). Yet 
NASA has told the Committee that processing two missions simultaneously 
would be risky, highly complex, and would put an ``unprecedented 
strain'' on the overall Shuttle system.

Q1a.  What is your response to NASA's assertions?

Q1b.  When has NASA had two Shuttles on the launch pad simultaneously?

A1a & b. The CAIB did not require NASA to have a second Shuttle on an 
adjacent launch pad and ready for launch to rescue stranded astronauts 
in an emergency, nor did the CAIB require a ``safe haven'' capability. 
Both of these requirements were established by NASA as its internal 
criteria for return to flight. The NRC committee believes, as discussed 
in Chapter 6, p. 84, of its final report, that following the experience 
of flying several ISS flights, there are a broad range of options for 
implementing a single HST servicing mission.
    Two of these options would not require a Shuttle rescue mission or 
a safe haven. Considerations for choosing an option include 
demonstrated success in eliminating debris during Shuttle ascent and 
the actual risk reduction provided by a rescue mission. The NRC 
Committee recognizes that the ultimate decision on implementing a HST 
servicing mission is the responsibility of NASA. However, as discussed 
in Chapter 6, p. 80, if NASA decided that an on-orbit crew rescue 
mission were needed, then a Shuttle HST servicing mission would require 
the on-pad provision. Implementation of a pad provision on a single HST 
mission was deemed manageable by the NRC Committee.
    With respect to NASA's concerns that processing two vehicles 
simultaneously ``. . .would be risky, highly complex, and would put an 
unprecedented strain on the overall Shuttle system,'' we note that NASA 
is currently processing two vehicles simultaneously for flights STS-114 
and STS-121 and historically the KSC vehicle processing teams have 
always had two or three vehicles in the processing flow simultaneously 
with no evidence of undo strain or risk. Actually the concern is for 
conduct of simultaneous launch countdowns--that period from T minus 72 
hours to launch (up to five calendar days). This concern is driven by 
the required JSC mission control center reconfiguration for a second 
launch while simultaneously controlling a flight in progress. NASA also 
expressed concern about launch crew fatigue and stress at the KSC from 
knowing that a launch delay of the rescue vehicle would likely result 
in the loss of a stranded crew. While we accept these concerns as 
legitimate, they will also be present for any rescue mission needed to 
the ISS (though the ISS provides some additional time cushion for 
preparation). Also, we believe these concerns can be mitigated by 
focused management.
    On five occasions since May 1995, there have been two space 
Shuttles simultaneously in the launch flow on adjacent launch pads at 
the KSC as follows:

         July 2001    STS-104 & STS-105

         Dec 1999     STS-103 & STS-99

         Oct 1995     STS-73 & STS-74

         July 1995    STS-70 & STS-69

         July 1995    STS-71 & STS-70

    In the first July 1995 case, STS-70 was actually launched 16 days 
after the launch of STS-71. The intervals between launches of STS-73 
and STS-74 and STS-104 and STS-105 were 23 and 29 days, respectively.

Questions submitted by Representative Bart Gordon

Q1.  Your committee's report notes that NASA has only committed to 
providing a ``safe haven'' capability on the International Space 
Station for the first two flights of the Space Shuttle after its return 
to flight. Your report also notes that ISS safe haven ``has significant 
risks due to its limited redundancy and margins.''

Q1a.  Please elaborate on the nature of the risks, and identify the 
specific changes to the current ISS baseline that would be required to 
provide a credible ``safe haven'' capability on ISS for a combined ISS/
Shuttle complement of 9-13 crew members for whatever time would be 
required to deliver another Shuttle to the ISS, as well as to sustain 
that capability through the completion of the ISS and retirement of the 
Shuttle, now scheduled for around 2010.

A1a. The concerns of the NRC Committee with respect to the risks 
inherent in the ISS ``safe haven'' are related primarily to the ISS's 
life support system. The life support system is currently certified for 
only three crew members, but after the delivery of the additional 
logistics planned for the LF1 manifest (STS-114), ISS will have the 
capability to accommodate nine crew members (two ISS and seven 
Shuttle). However due to the lack of redundancy this capability would 
not be considered robust. Since our report was issued, the Space 
Station Program (SSP) has accomplished several engineering 
reassessments and has taken action to modify the LF1 manifest to 
provide the necessary logistics to accommodate an ISS crew of nine. A 
spare ISS Carbon Dioxide Removal Assembly (CDRA) with spare parts, 
spare power cables for response capabilities for electrical failures, 
extra stowage bags to maximize collection and storage of orbiter-
produced water while still docked to ISS, extra Apollo bags for 
contingency human waste collection after the orbiter is undocked, along 
with other logistics provisions have all been added. The most recent 
SSP engineering assessment has created three ISS scenarios based on 
conceivable failures before or during a contingency crew stay. The 
first scenario (loss of CO<INF>2</INF> removal capability) is 16 days 
of stay time--very similar to that of a Shuttle orbiter at the HST. The 
second scenario (loss of O<INF>2</INF> generation capability) is 45 
days stay time. And the third scenario (exhaustion of onboard water) is 
70 days stay time.
    Another NRC Committee concern about reliance on ISS as a ``safe 
haven'' is that such reliance assumes that the damage to the orbiter 
(or any other failure) would not prevent it from achieving ISS orbit 
and docking. In fact, as demonstrated on STS-51F in July 1985, loss of 
an engine during ascent can result in a lower-than-desired orbit from 
which the ISS cannot be reached. In such an eventuality, the orbiter 
would become the ``safe haven'' and, for the planned case, the crew 
would have 18 days of stay time.
    In summary, NASA has improved the ``safe haven'' posture of the ISS 
but Shuttle failure modes do exist that would preempt a docking with 
the ISS, and there are also potential failures on-board the ISS that 
would severely limit it as a ``safe haven.''

Q1b.  If NASA decides not to continue to provide a safe haven 
capability on the ISS after the first few Shuttle flights--as currently 
appears to be the plan--would there be any practical difference in 
rescue options available for a Shuttle headed towards ISS and a Shuttle 
headed towards Hubble?

A1b. Should NASA decide not to provide a ``safe haven'' capability on 
the ISS after the first few Shuttle flights, there is still a slight 
advantage in terms of rescue capability for a flight to the ISS as 
opposed to one to the Hubble Space Telescope. As stated in our 
committee report, Chapter 6, p. 79, and during our testimony to the 
Science Committee, we agree with NASA that the ISS provides the 
preferred place to be in the event that the crew survives but the 
orbiter damage is severe enough to result in an unrecoverable vehicle. 
The ISS would afford additional time for a stranded crew over a stand-
alone orbiter and, therefore, increases the likelihood that a rescue 
can be effected by contingency means. We also agree with the current 
SSP assessment that, by the time a Hubble servicing mission is flown, 
NASA will have successfully demonstrated that it fully understands and 
has solved the problem of debris from non-MMOD1 causes and that 
therefore the requirement for a ``safe haven'' capability will have 
been reduced considerably.

Q2.  It has been asserted that the National Academies' suggestion that 
the Shuttle could be maintained on orbit for 30 days while awaiting 
rescue does not address the issue of whether it would be possible to 
sustain the crew's lives for that period of time. How do you respond?

A2. The committee naturally uses the term ``safe haven'' only to refer 
to a situation in which the crew's lives can be sustained. As stated in 
Chapter 6, p. 80, of the NRC report, the Shuttle provides a ``safe 
haven'' for the astronauts of between 17 and 30 days, depending on when 
an extreme power-down is done. If the full planned timeline for 
inspection, data processing and decision making is used, SSP analysis 
shows that 18 days are available. The NRC committee believes that the 
decision can be made earlier for some scenarios, thereby increasing the 
time on orbit.

Q3.  It has been asserted that a Hubble servicing mission would not 
have a trans-Atlantic abort site available to it. Is that correct, and 
if so, how would you address that concern?

A3. There has been misunderstanding of the trans-Atlantic landing abort 
site (TAL) capability as it relates to a Hubble servicing mission. A 
Shuttle mission to Hubble actually has excess ascent performance, due 
to the relatively light weight and due East launch profile of the 
orbiter. This actually results in an overlap of the return to launch 
site (RTLS) and abort to orbit (AOA) regions, therefore negating the 
need for a TAL capability. Nevertheless, should the SSP choose to 
insert a TAL capability in the software for a Hubble servicing mission, 
the runway at Moron, Spain, is still available for use in a TAL 
capability.

Questions submitted by Representative Mark Udall

Q1.  Some have argued that there is a large backlog of existing Hubble 
data waiting to be analyzed, and thus there would be little impact on 
science if Hubble ceased operations today. Do you agree or disagree?

A1. This question refers to the large body of data known as the Hubble 
Archive. The Hubble Archive is an invaluable science resource and 
exists because of the nature of Hubble data acquisition and the timely 
analysis and publication of the data. However, the word ``backlog,'' is 
sometimes misunderstood in the context of the archive. It implies that 
analysis of Hubble data has somehow not ``kept up'' with observations, 
so that observations have ``gotten out in front'' of analysis and 
therefore observations might be stopped with no penalty in order to let 
analysis ``catch up.'' This is not the case. In each proposal for new 
observations, the proposers must list all the previous proposals they 
have submitted and the status of the data analysis. Unproductive 
proposers (those who have received data but have not analyzed them) are 
screened out of the system. Proposers are aware that their past 
performance will be scrutinized. Since competition to gain time on 
Hubble is more intense than for any other telescope in the world, and 
because Hubble science is in itself highly competitive with multiple 
teams studying the same problem from different perspectives, Hubble 
users as a group move with exceptional rapidity to get their results 
out and published in a timely manner. This is one reason that Hubble 
productivity in terms of number of papers published and number of 
citations to those papers is by far the highest of any telescope in the 
world.
    However, once data have been analyzed for their original purpose, 
that is not the end of the data's usefulness--frequently the data can 
reanalyzed for another scientific purpose. It is in this second stage 
that the Hubble Archive plays a scientific role, to serve as a 
repository to store the data but also as a powerful search tool to 
identify and create entirely new collections of data (such archives are 
associated with other major telescope facilities as well and have 
proven essential in the achievement of new understandings as time 
passes and ideas and theories change). The reasons for reanalysis take 
two forms. First, it is a rare proposal that manages to observe all 
possible astronomical targets that are relevant to the subject. That 
would take too much time. Rather, the proposer singles out the minimum 
number of objects that will suffice to answer the precise question 
posed. Meanwhile, other proposers will have looked at other targets in 
the same family, for similar reasons or perhaps for completely 
different reasons. Thus, as time goes by, the collections of data that 
are available for studying any given problem are continually growing. 
This growth in numbers makes it possible to detect very subtle trends 
that are visible only with a very large number of objects. The process 
is analogous to sampling the population of the United States in a 
census.
    If the sample is tiny, say ten people, one might learn only that 
roughly half the population is male and half is female. With a million 
people (carefully selected to be representative) one could learn much 
more, such as the age distribution, countries of origin, employment 
figures, etc. In the same manner, the growing richness of the Hubble 
archive is enabling more and more precise questions to be asked as the 
number of objects of a given type (stars, galaxies, star clusters, 
etc.) increases from a few, to several dozen, and now in some cases to 
several hundreds of objects. The second reason for the scientific 
importance of the Archive is that a typical observation usually 
contains much more information than was needed by the original 
proposers. For example, every image that is taken contains superimposed 
objects in the background or foreground along the same line of sight. 
Likewise, nearly every spectrum contains dozens or hundreds of spectral 
features in addition to the ones that were originally targeted. This 
richness encourages scientists to go ``back to the well'' many times in 
order to draw every last bit of interesting science from the data. This 
process is vast and will continue for many years after Hubble has 
stopped operating.
    The response above leads to the second half of the question, which 
is whether the process of data acquisition has continued long enough 
and the collected samples are now sufficiently large. The answer is in 
fact no, for several reasons:

        <bullet>  The universe is constantly changing, and there are 
        many classes of objects that are time-variable. Hubble is still 
        collecting time-series data on many such classes of objects.

        <bullet>  As a telescope with incredibly broad applications, 
        Hubble is needed to work synergistically with other NASA 
        observatories. Hubble sees nearly all objects in the Universe 
        within reach of these other observatories, and Hubble is the 
        telescope that gives the highest-resolution picture showing 
        fine details. As a result, a very large fraction of the 
        proposals received for time on Hubble are being driven by 
        interesting new results from other spacecraft that now need 
        Hubble follow-up for proper interpretation. Hubble is working 
        cooperatively with the Chandra X-ray Observatory, the Spitzer 
        Infrared Observatory, the GALEX Ultraviolet Explorer, and the 
        Swift Gamma-Ray Observatory. These observatories are all much 
        younger than Hubble, and many results are coming in for the 
        first time, inspiring new Hubble projects. For example, Swift 
        just launched last November 20, 2004.

        <bullet>  The larger field of view of the ACS camera, installed 
        in 2002, enabled real surveys to be taken for the first time by 
        Hubble, covering nearby galaxies and star clusters that were 
        formerly too big for Hubble and enabling maps to be made of 
        much larger portions of the distant Universe. Demand for these 
        larger surveys has not yet abated.

        <bullet>  Most important of all, the SM-4 servicing mission 
        would install two new instruments on Hubble. Each time new 
        instruments have been installed, there is a burgeoning of new 
        ideas to explore with them. This time will be no different. One 
        of the new instruments is a combined ultraviolet/infrared 
        camera that will take images 10-50 times faster at UV and IR 
        wavelengths than the older cameras. The second new instrument 
        is an ultraviolet spectrograph that is faster by a comparable 
        factor. These enhanced capabilities will enable huge gains in 
        understanding. Together, these two instruments will essentially 
        remake the Hubble observatory, for the fourth time in its 
        history.

Q2.  How should we view Hubble--and more broadly, space science as a 
whole--in the context of the President's space exploration vision?

A2. The gains in knowledge made possible by Hubble strongly support-in 
fact enable--the President's space exploration vision. Hubble is about 
exploring: exploring the vast universe in which humanity resides. NASA 
has been, since its beginning, an agency that inspired--on a broad 
variety of fronts and in a broad variety of ways--by:

        <bullet>  Instilling admiration for American technology by 
        conducting a dazzling and daring program of firsts in space 
        exploration.

        <bullet>  Fostering the image of America as a capable, can-do 
        society that is willing to take on and conquer the most 
        difficult challenges.

        <bullet>  Educating and inspiring America and the world about 
        the colossal cosmic processes that gave rise to Earth, created 
        life, and ultimately created human beings.

        <bullet>  Unveiling our species' cosmic history and, in so 
        doing, laying key foundational knowledge for shaping our cosmic 
        future.

    Historically, the strategy used by NASA to execute this larger 
mission has been a highly successful two-pronged strategy of 
``exploration'':

        <bullet>  Exploration of the Solar System by humans, and

        <bullet>  Exploration of the Solar System (and the Universe 
        beyond) by remotely operated observatories and landers.

    Remotely operated craft complete the exploration program by 
carrying sensors that far outstrip human vision and by going places 
that humans cannot go, and the next generation of ``space robots'' will 
simply be the next step in NASA's long-term program of substituting 
machines for people, when appropriate.
    The United States space program is an integrated whole: people plus 
machines exploring space from the edge of the Earth to the edge of the 
Universe. It is inconceivable to envision a programmatically-whole NASA 
that does not pursue exploration vigorously, via both human space 
flight and remotely operated spacecraft. . .and explores not just 
within the Solar System but also beyond.
    Viewed in this context, the Hubble Telescope repair (together with 
the broad suite of other exciting scientific missions in flight and in 
planning makes perfect programmatic sense. While vigorously pursuing 
the Exploration Vision the agency must maintain its current bold and 
creative leadership in robotic exploration, from the Earth to the Sun, 
the planets, and the distant universe. Hubble--the world's most 
powerful observatory with gold-plated scientific credentials coupled 
with high name recognition and widespread public support--fits 
admirably into this vision.
    In repairing Hubble, the human and remote-spacecraft arms of the 
NASA program come together synergistically to achieve a goal that 
neither could achieve alone.

                   Answers to Post-Hearing Questions

Responses by Joseph H. Taylor, Jr., Co-Chair, Astronomy and 
        Astrophysics Survey Committee, National Research Council, The 
        National Academies

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  Should Hubble operations cease in the next two to four years, what 
will be its impact to the community of scientists since, as you point 
out, one-third of all funding for astronomy is tied to Hubble?

Q1a.  What will be its impact on the training of the next generation of 
scientists?

Q1b.  How could the impact on Hubble scientists be minimized if no 
servicing mission were to occur?

A1a & b. If the Hubble Space Telescope (HST) becomes inoperative well 
before a replacement is available, graduate students, post-doctoral 
trainees, and their mentors will lose one of the most important sources 
of astronomical information. Synergistic multi-wavelength results 
obtained nearly simultaneously with the HST and with Chandra, Spitzer, 
and ground-based facilities including the Very Large Telescope and the 
Keck Telescopes will become impossible for some years; students will 
gravitate to other fields, and US momentum and leadership will suffer.
    I believe it would be unwise, and surely a false economy, not to 
proceed with the planned SM-4 Shuttle servicing mission soon after the 
Shuttle returns to flight. But if for some reason the servicing cannot 
be accomplished, NASA should look for other ways to maintain its 
enviable and well deserved reputation for scientific leadership.

Questions submitted by Representative Bart Gordon

Q1.  You chaired the most recent Decadal Survey of Astronomy and 
Astrophysics.

Q1a.  What did that Survey assume regarding an SM-4 Hubble servicing 
mission?

Q1b.  Was it among the ``pre-requisites'' assumed by the Survey?

A1a & b. The Survey took it as given that NASA would proceed with its 
plans to keep HST in good operating condition, most likely until (or 
nearly until) the Next Generation Space Telescope is in orbit and 
operational.

Q2.  Did NASA ask any of the relevant National Academies committees or 
other appropriate representatives of the scientific community for input 
prior to its decision last year not to service Hubble?

A2. As far as I know, they did not.

Q3.  If the commitment made by NASA Administrator O'Keefe to Congress 
to ``grandfather in'' the SM-4 Shuttle servicing mission to Hubble in 
the wake of NASA's shift in its Shuttle accounting approach is 
preserved, and thus the Shuttle-related costs of the servicing mission 
are not imposed on NASA's science program,

Q3a.  Would you consider having NASA's science program pay the science-
related costs of the servicing mission (estimated to be $300-370 
million) to be consistent with the assumptions of the Decadal Survey?

Q3b.  Would you favor an SM-4 Shuttle servicing mission to Hubble if 
NASA's above-mentioned commitment to Congress is maintained?

A3a & b. I do not recall that funding details of the planned servicing 
mission were explicitly discussed by the Survey Committee. We were told 
that the necessary servicing missions were ``in the budget.''
    I am definitely in favor of an SM-4 Shuttle servicing mission, as 
soon as possible after the Shuttle returns to flight. If the stated 
commitment to Congress is maintained, there should be no adverse effect 
on other NASA science goals recommended by the Decadal Survey.

Question submitted by Representative Mark Udall

Q1.  Dr. Taylor, your testimony mentioned the importance of concurrent 
science operations by Hubble, the Spitzer Great Observatory, and the 
Chandra Great Observatory.

Q1a.  Would you please explain why that synergy is important for 
researchers?

A1a. Many of the astronomical phenomena in question are variable on 
time scales from days to years. Much of the potential of the Chandra 
Great Observatory, especially, will be lost if simultaneous (or nearly 
simultaneous) observations are not available from HST over its working 
lifetime.
    In addition, it frequently occurs that important astronomical 
targets are first identified in one wavelength region, and then studied 
even more effectively in another part of the spectrum. For that reason, 
the rate of discovery increases even more than proportionally when 
concurrent science operations are possible over a wide wavelength 
range.
                   Answers to Post-Hearing Questions
Responses by Steven V.W. Beckwith, Director, Space Telescope Science 
        Institute

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  At the current rate that Hubble data are studied, for how many 
months or years would astronomers still be analyzing new data if the 
Hubble telescope ceased operations today? Is the backlog of data 
sufficient to fill any gap between Hubble operations and those of the 
James Webb Space Telescope?

A1. The archival program is about 13 percent of the total research 
program on Hubble. If new observations were not possible, and we funded 
archival research at the same rate as new observations, all of the 
useful data analysis would be done in about one year. Of course, Hubble 
data will be used for archival purposes for many years to come but 
mostly as ancillary data to support new information coming from 
operating observatories.
    Currently, the Webb telescope is scheduled for launch in 2011, 
meaning the actual gap would be six years, if Hubble operations ceased 
today. I do not believe archival research will adequately bridge the 
gap to the launch of the Webb telescope, if Hubble operations cease 
early.
    Most of the archival programs rely on data that is only a few years 
old. If there were no more new data, we would expect even the reduced 
demand for archival research to wane over a four-year period, say.
    It is also important to realize that newly targeted Hubble 
observations conduct quite different type scientific investigations 
than archival research; the two are not interchangeable avenues to 
discovery. Hubble observes only a tiny area of the sky; it is a pointed 
telescope as opposed to a survey telescope. It typically gathers unique 
data on an object already known to be interesting, and the initial 
investigations get most of the scientific value in the first 
publications. These very small regions of the sky in the Hubble archive 
represent a minuscule section of the Universe. While well-suited to 
continuing investigations of the original peculiar object that 
motivated the data, they are generally not useful for random, 
unexpected discoveries.
    Hubble is just now beginning to make major surveys that will serve 
as a legacy for the future, but these will not be completed if the 
Hubble mission ends early, thus depriving astronomers of the most 
valuable archival data they anticipate.

Q2.  Should Hubble operations cease in the next two to four years, what 
will be its impact to the community of scientists since, as Dr. Taylor 
points out, one-third of all funding for astronomy is tied to Hubble? 
What will be its impact on the training of the next generation of 
scientists? How could the impact on Hubble scientists be minimized if 
no servicing mission were to occur?

A2. The Hubble grants program provides approximately $24 million 
dollars per year for astronomy, of which $3 million is the amount for 
archival research. The Hubble program does support almost one-third of 
all funding for astronomy. When Hubble operations cease, funding for 
archival research on Hubble will continue to support research but at a 
dramatically reduced rate compared to the total now. It would represent 
a substantial loss to astronomy.
    A second factor is Hubble's impact in motivating ground-based 
research. Hubble programs stimulate substantial uses of our nation's 
ground-based facilities such as the National Optical Astronomy 
Observatories (Kitt Peak and Cerro Tololo) and the international Gemini 
project. If Hubble ceased operations, many of those Hubble-generated 
programs and the training they provide to graduate students would 
disappear.

Questions submitted by Representative Bart Gordon on behalf of 
                    Representative Mark Udall

Q1.  Some have argued that there is a massive backlog of existing 
Hubble data waiting to be analyzed, and thus there would be little 
impact on science if Hubble ceased operations today. Do you agree or 
disagree?

A1. I disagree with the assertion that there would be little impact on 
science if Hubble ceased operations today. My analysis of our archival 
program presented above indicates that the backlog of data would take 
the equivalent of one year to analyze at the present rate of funding 
for Hubble research; we could envision funding archival research for a 
much longer period, of course, but at a reduced rate of expenditure. 
Even if we relaxed our standards for selecting archival research 
programs, we could not credibly support a scientifically compelling 
program for more than two years at the same rate as we now support new 
observational programs.
    As I have noted previously, archival research and new Hubble 
observations are not interchangeable, nor equally suited to important 
discoveries. The former generally extends our knowledge of complex 
problems in an important way, but it is the latter that most often 
leads to unexpected and ground-breaking discoveries.

Q2.  You chaired one of the Decadal Survey panels that looked at Hubble 
and the James Webb Space Telescope (JWST). Please describe how your 
panel prioritized Hubble relative to JWST.

A2. Our panel was given the task of ranking the top priorities for 
space research at wavelengths from the ultraviolet to the infrared in 
the decade from 2001 to 2010. NASA's plan for that period contained two 
important assumptions that aided our work:

        a)  The Hubble Space Telescope would be serviced at least two 
        more times (SM-3 and SM-4) and kept operational until 2010.

        b)  The James Webb Space Telescope (called the Next Generation 
        Space Telescope at that time) would be launched in 2007.

    Those were two crucial assumptions that allowed us to assign 
priorities. We expected Hubble to remain operational with planned 
instrument upgrades throughout the decade we were assigned to study. 
Therefore, we decided not to rank it in our priority list. Our 
reasoning was that any extension of its life beyond 2010 could be 
debated in the second half of the decade, when we got to see how new 
programs developed and how Hubble compared. A servicing mission could 
be carried out with only a few years lead time, making it unnecessary 
to consider Hubble right away.
    The James Webb Space Telescope was scheduled for launch in 2007. 
There would, therefore, be a three- to four-year overlap between Hubble 
and Webb. If Webb achieved all its objectives, the pressure to continue 
Hubble might be greatly reduced. If the capabilities of Webb were 
greatly curtailed, or if a failure limited its life, there would still 
be time to consider life extension for Hubble.
    Unfortunately, the launch date of the Webb telescope has now 
slipped beyond 2010, and NASA is considering an end to the Hubble 
mission in 2007 or 2008. I believe our panel would have looked at the 
priorities differently under this changed set of circumstances, and we 
would likely have made a strong statement about Hubble science given 
the impending gap that we see now.
    The importance of Hubble science in this decade was recently 
reaffirmed by two, high-level committees who examined the question: The 
HST-JWST Transition Plan Review Panel (NASA), chaired by John Bahcall, 
and The Committee on the Assessment of Options for Extending the Life 
of the Hubble Space Telescope (NRC) chaired by Louis Lanzerotti. Both 
committees strongly endorsed the scientific importance of servicing 
Hubble a fifth time through SM-4.

Q3.  If Congress or a new NASA Administrator decides to reinstate a 
Shuttle servicing mission to Hubble, what civil service and contractor 
workforce will be required to complete the mission within the required 
timetable, and how soon before the mission will they need to be in 
place? Is that workforce currently in place?

A3. It takes about two years to prepare for a servicing mission to 
Hubble, if the experienced teams are available. The good news is that 
the workforce is largely in place to support a Shuttle servicing 
mission, including people at Goddard Space Flight Center, Johnson Space 
Center, the contractor teams, and the Space Telescope Science 
Institute. Many of the critical government and contractor personnel are 
working towards a robotic servicing mission. Some additional people 
would be needed to support documentation for a Shuttle mission at 
Goddard Space Flight Center, but I believe they could be added 
relatively easily.
    It is vitally important that this workforce remain in place while 
the debate on Hubble's future continues. If we lose the key engineering 
and technical talent with decades of experience on Shuttle-based Hubble 
servicing, it will be very difficult to replace. Fortunately, key 
people at Goddard Space Flight Center, on the contractor teams, and at 
the Space Telescope Science Institute are still part of the Hubble team 
and will remain part of the team as long as they are supported and 
there is a realistic hope for Hubble servicing in the near future.

Q4.  What fraction of the science-related costs (i.e., non-Shuttle-
related costs) have already been incurred in preparing for the SM-4 
servicing mission? What remains to be done if the SM-4 servicing 
mission is reinstated?

A4. In round numbers, we have invested approximately $250 million in 
new instruments and replacement parts for SM-4. The costs to NASA space 
science of a servicing mission are typically $300 to $400 million 
spread over the next three years. By this calculation, most of the 
money for SM-4 has already been spent.
    However, the delays to SM-4 following the Columbia tragedy mean 
that the technical workforce will have to be supported for another 
three years to service Hubble. That three year delay will mean an 
additional $360 million for workforce support.

Q5.  How many requests for observing time on Hubble do you receive 
annually? What percent of those requests can be accommodated? Has the 
demand for observing time on Hubble changed over the years?

A5. The demand for telescope time in a single year is approximately six 
times that amount of time available. That demand has been steady for 
approximately the last eight years. We experienced a drop of about 25 
percent this year following the failure of the Space Telescope Imaging 
Spectrograph (STIS) in July, 2004. Even without STIS, the demand for 
time in the most recent year exceeded the available time by a factor of 
4.7. To place this value in perspective, it is a greater over-
subscription ratio than that of any other NASA observatory, past or 
present. The scientific quality of the proposals continues to be 
outstanding, and we will be turning down many proposals that are 
scientifically compelling.

                   Answers to Post-Hearing Questions

Responses by Paul Cooper, General Manager, MDA Space Missions

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  You seem to argue that many aspects of a robotics servicing 
mission are not new and therefore can be done more easily and quickly 
than the Aerospace Corporation and the National Academy of Sciences 
believe. But on the other hand, you argue that a robotic servicing 
mission is a critical opportunity to drive the development of robotic 
capabilities in space. How do you reconcile these seemingly 
contradictory arguments?

A1. 
Stepping Stone to the Future
    Although the Hubble Robotic Servicing mission will not involve 
designing and building any radically new technology, the mission will 
involve deploying and operating technology building blocks in new ways, 
in new combinations, or for the first time.
    The key thing to understand in this regard is that the Hubble 
Robotic Servicing mission is the next natural step in the gradual 
development and proving out of a set of capabilities that are crucial 
for the future--for the future of affordable space science missions, 
for the future of DOD space missions, and for the future of human and 
robotic exploration missions.
    As such, the Hubble Robotic Servicing Mission really will serve as 
``a critical opportunity to drive the development of robotic 
capabilities in space,'' while incurring the least possible additional 
operational or mission risk.
    Let me explain.
    An existing ``mind-barrier'' that NASA Architects currently face is 
to assume or not assume that they can count on remote robotic 
capabilities to conduct complex assembly and servicing tasks for future 
missions, which could impact the direction of NASA investment and 
development to support such missions. The fact of the matter is that 
even though all the key building blocks for the Hubble Robotic 
Servicing Mission already exists or have been flown, no one has yet 
been given an opportunity to put them together and demonstrate such a 
mission capability in an integrated fashion. The Hubble Robotic 
Servicing Mission would enable NASA Architects to plan differently 
(when they can start counting on similar robotics capabilities) and 
potentially save billions of dollars by not having to solely rely on 
astronauts all the time to undertake any remote assembly and servicing 
tasks, or have to develop very large launchers (only) to accommodate 
future large integrated space infrastructure. Furthermore, the 
additional benefits to DOD Space Applications (as has been suggested by 
several Congressional members at the Hearing) are also expected to be 
very significant.
    Future Space Programs will undoubtedly need to maximize sustainable 
affordability, maximize safety and improve mission success 
effectiveness. Hence it is worth underlining the value of what will be 
achieved with an operational proof of servicing the Hubble:

         For astronaut safety: Hubble robotic servicing will show that 
        an alternative to risking astronaut lives exists, particularly 
        for addressing future servicing and other mission requirements 
        that are intrinsically mundane (e.g., changing batteries) or 
        don't require astronaut talents.

         For space science: A future of affordably upgradeable and 
        serviceable large instruments.

         For DOD: Affordable assembly and servicing of large national 
        assets in orbit.

         For Exploration: The robotic assembly of human-support 
        infrastructure in advance of the human occupation, e.g., at 
        Lagrange points, on the lunar surface. An affordable 
        alternative to very heavy lift capability, e.g., the robotic 
        assembly in orbit of multi-piece spacecraft, where each piece 
        is launched with smaller and much cheaper launchers.

Aerospace Corporation and NAS Reports
    Both the Aerospace Corporation and the National Academy of Sciences 
reports appeared to have based much of their technical/risks 
assessments for the Hubble Robotic Servicing Program on ``starting from 
scratch'' assumptions. Their conclusions were significantly higher than 
the baseline Program because the Program started from technology and 
hardware already available. For example, many of the simulators already 
exist. The existing SPDM robot is being transferred from ISS (later to 
be replaced). The RMS End Effector is a flown spare from the Shuttle 
Program. The Propulsion Module hardware is from the X-38 canceled 
program. The main rendezvous Lidar sensor is a duplicate of the one to 
be launched on the AFRL XSS-11 Program by Spring 2005. The unmanned 
robotic control capability has been qualified for DARPA's Orbital 
Express Program and will be launched in 2006. Also, flight software for 
HST exists and would be easily modified. The Ground Station for HST 
already exists and is in use and, most important of all, there are over 
500 personnel who are already knowledgeable and experienced in 
servicing, checking out, and operating HST. There is very little 
technology development for this Program. The maximum effort will be 
expended in Systems Engineering Integration, Testing and Training.
    None of these factors were incorporated into the Aerospace Study 
because it was not their Charter to do so. The Vice President of 
Aerospace Corporation has subsequently gone to GSFC (February 2005) to 
see these items of hardware and was amazed with all the progress made 
and the elements of hardware at hand. Similarly, the NAS had only a 
four hour presentation on the Robotic Mission, and since NASA was in a 
procurement process for the robot, the Committee was not able to assess 
the maturity of the hardware. As a result, they had to depend on the 
Aerospace Study to form their assessment. Both Aerospace and the NAS 
members have been invited to the NASA Preliminary Design Review (PDR), 
March 21-25, 2005.

Q2.  Several comments were raised during the hearing regarding risks 
associated with the grappling arm and the dexterous robotic arm, but 
there was little discussion about other risks such as interfaces and 
autonomous docking with an uncooperative target. How serious are these 
risks, and what measures are being taken to minimize them?

A2. 
Other Risks
    Some of the other risks associated with the Hubble Robotic 
Servicing mission are summarized as follows:
    Autonomous rendezvous. The Hubble mission will arrive on the heels 
of the gradual development and testing out of rendezvous technology and 
capabilities that started originally with Apollo. Most immediately 
prior to the Hubble mission will have been the XSS-11 mission (to be 
launched in April 2005), the DART mission (2005 launch), the Orbital 
Express mission (2006 launch), a Shuttle/ISS Rendezvous DTO Mission 
(2006 launch). These missions have as a key objective the continuing 
improvement and testing of sensors and software for autonomous 
rendezvous and proximity operations. The Hubble mission will use 
similar or identical rendezvous and proximity operations technology 
components from the same suppliers. The demands of the Hubble mission 
may be marginally more difficult or complicated that the circumstances 
that will be tested out on the prior missions (e.g., possibly, in the 
worst case scenario in which Hubble is ``tumbling,'' although even in 
this case the rate of tumble would be actually very slow).
    In other words, the technical and operational risk associated with 
autonomous rendezvous technology and procedures is the smallest 
possible incremental step forward, but since the Hubble mission will be 
an operational mission and not a demonstration mission like its 
predecessors, the Hubble mission will nonetheless serve as a critical 
opportunity for advancement.
    Unmanned capture. The Hubble mission will use its grapple arm to 
perform the final capture and berthing of servicing spacecraft to the 
space telescope. Proven predecessor procedures will include:

        --  the use of an essentially identical grapple arm (the 
        Shuttle arm) to grab the grapple fixture on the Hubble

                <bullet>  the incremental step forward is astronaut 
                control from the ground instead of the adjacent Shuttle

        --  ground control of orbital robotics on Space Station 
        (demonstrated February 2005)

                <bullet>  very similar to the Hubble requirements

        --  autonomous grapple-arm capture of a target vehicle in 
        Orbital Express

                <bullet>  although the target vehicle is designed to be 
                ``cooperative,'' in some way (e.g., the grapple fixture 
                with targets) so is the Hubble

    In summary, although the unmanned capture of the Hubble will be a 
significant operational demonstration, in practice it represents the 
smallest possible step forwards over prior operations and tests.
    Dexterous Servicing with Tools. It appears that the schedule 
requirements of the Hubble mission will require Dextre's first use on-
orbit to be for the Hubble rather than the originally planned servicing 
operations on the Space Station. However, even here there is or will 
have been important prior art, including:

        --  dexterous robotic servicing operations on the Orbital 
        Express mission, including Orbital Replacement Unit swaps 
        (e.g., like Wide Field Camera)

                <bullet>  incremental step forward is the use of the 
                more capable Dextre, although the principles and 
                procedures will be similar

        --  Hubble servicing operations using tools, as performed by 
        astronauts

                <bullet>  Incremental step is having Dextre's ``hand'' 
                hold and operate the tools (controlled by astronauts), 
                instead of having the astronaut hold the tools directly

        --  Hubble robotic servicing operations, using high fidelity 
        mockup and terrestrial version of Dextre

                <bullet>  Each and every necessary operational 
                procedure has now been tested on the ground. The only 
                thing left to do is fly the mission.

    Again, in summary, although the overall achievement of robotically 
servicing Hubble will be an impressive operational step forward, we see 
that nearly all the prior risk mitigating steps that can be imagined 
will have in fact been done, and that as a result the incremental risk 
has been minimized.
Risk Mitigation Approach
    The overall Risk Mitigation Approach for the Mission has been 
developed from all of the experienced gained from satellite servicing 
missions--beginning with Solar Max Repair Mission in 1984 and 
continuing through WESTAR/PALAPA, Syncom IV, Intelsat, and then the 
four Hubble Repair Missions. Although there are many specific steps and 
test activities associated with the robotic servicing plan, it can be 
boiled down into one single formula for mission success. This formula 
was employed and maintained on the HST from the first mission through 
this specific mission and it is: ``Test, Test, and Retest. Train, 
Train, and Retrain.''
    Specifically dealing with the question of what will give us 
confidence that the mechanical systems (such as latches, berthing, pins 
and mechanisms) will fit together when robotically mated in space, the 
Project will test all mating interfaces with Hubble including Berthing 
and Latching robotic interfaces using the family of Hi Fidelity 
Mechanical Simulators in the GSFC Test Facility. These simulators have 
been validated to be accurate by virtue of the four previous Servicing 
Missions whereby each of the Critical Interfaces were employed. Master 
tooling and gages have been revalidated with the returned hardware from 
space on each of the four Servicing Missions. The Project will use this 
tooling and Hi Fidelity Simulators to check this system before shipment 
to KSC for launch.
    In addition, to reduce the risk of Approach, Rendezvous, and 
Capture in the orbit dynamics and day/night aspects, the Project is 
teamed with MSFC to conduct a series of capture Dynamics Test, Lighting 
Tests, and Grapple Tests. MSFC facilities will use the actual flight 
hardware and software elements. This will be done prior to launch as a 
key part of our Risk Mitigation effort. With increasing degrees of 
sophistication, these types of tests will first be conducted at MDA, 
then GSFSC, and finally MSFC. In a similar manner, Approach and 
Rendezvous Sensors will be tested on several earlier flights such as 
DART, XSS-11, and a Space Station DTO being conducted in partnership 
with JSC. Again, these tests are in addition to tests both at vendor's 
plants and GSFC. The consistent philosophy for all major elements of 
the Mission is ``Test, Test, and Retest.''

Question submitted by Representative Bart Gordon

Q1.  The Goddard robotic servicing project assumes that the entire 
mission (not just the robotics system) will be developed within 39 
months in order to get to Hubble before it fails. That would imply that 
the project is allowing only eight months after the robotic system is 
scheduled to show up to integrate it into the rest of the spacecraft, 
test the integrated system and software, and prepare the entire 
spacecraft for launch. Why do you believe that is sufficient time for 
such a complex set of tasks?

A1. There are two aspects to this question of schedule. The first 
aspect deals with the question of hardware development and having ample 
Integration and Test time in a 39-month program. The second question 
deals with the expected life of the Hubble Space Telescope and the 
related question that if the development cycle is delayed, will there 
be enough time to repair HST before its demise.
    Dealing with the aspect of ample development Integration and Test 
time, the following points need to be made. The major Critical Hardware 
elements selected for this Program already have been developed. In many 
cases, the hardware already exists and is being physically transferred 
to the Program. Such Critical elements as the SPDM Robot, the Grapple 
Arm, the Grapple End Effector, the Scientific Instruments, the X-38 
Propulsion Module, many software elements for the spacecraft (coming 
from the Mars Reconnaissance Orbiter Program), and components from the 
Rapid Spacecraft Development Program have been selected to hasten 
hardware build. From an Integration and Test perspective, the Program 
has taken the lessons learned from the four earlier Hubble Servicing 
Missions, and especially the first Hubble Servicing Mission--started 
and flown in less than 37 months.
    The key to all these past missions, including aspects of the Mars 
Exploration Rover Mission (36-month development and flight cycle) and 
the Mars Reconnaissance Orbiter Program, was the extensive use of 
ground test simulators. These simulators are used for all elements of 
Integration and Testing including software development, structural 
dynamics, guidance and navigation, zero G testing of robotic 
activities, etc.
    The Program is now six months old, and many of these simulators 
have been completed and are undergoing checkout at GSFC and University 
of Maryland Water Tank. Within three more months, these simulators will 
be used to check out flight software, guidance and navigation 
algorithms, flight robotic tools, spacecraft lighting, operations 
procedures, spacecraft harness layouts, etc. Six of these simulators 
have already been delivered to the GSFC I&T Facility. Through the use 
of these simulations, Integration activities will start in the next 
eight months, giving more than an 18-month Integration and Test window 
before flight.
    Dealing with this issue of Hubble life on orbit, one has to 
remember that there are two elements of HST's life--Scientific 
Operation Life Expectancy and then the Ultimate Safe Hold Life 
Expectancy. The Scientific Life Expectancy is driven by the useful life 
of the gyroscopes on board and present projections are about mid-2008 
for loss of gyroscopic precision pointing. After that the spacecraft 
can be put in a standby (safe hold mode) for another 12 months, waiting 
for replacement hardware. This extra 12 months is estimated by current 
battery life projections. Up to that point, the spacecraft can be 
serviced and returned to full science operations as was done on HST 
Servicing Mission 3A. At that time, the gyroscopes failed four months 
before the actual mission.
    The point here is that there is a contingency in Hubble's life 
expectancy to accommodate launch delays--for what ever reason. However, 
by picking a deliberately tight development schedule, we are not 
``burning up runway before take-off.'' By holding to a quick start and 
tight schedule pressures, the capability to use the contingency later, 
if and when it is really needed, has been preserved. Furthermore, it 
saves cost since it take advantage of the people knowledge and skills 
already on the Program and it holds the program run-out time to a 
minimum.
                   Answers to Post-Hearing Questions
Responses by Colin A. Norman, Professor of Physics and Astronomy, Johns 
        Hopkins University

Question submitted by Chairman Sherwood L. Boehlert

Q1.  If funding for a Hubble Origins Probe were to come at the expense 
of the timely launch of the James Webb Space Telescope or other 
priorities identified in the most recent Decadal Survey, would you 
still believe it should be funded?

A1. If the crucial decision whether to extend Hubble Science or not 
eventually came to depend on the availability of funding for the Hubble 
Origins Probe (and presumably this would only occur if manned and 
robotic servicing proved unfeasible) then the case should be peer-
reviewed thoroughly and promptly by the Academy with very careful 
consideration given to the existing Decadal Survey and its existing 
priorities.

Questions submitted by Representative Bart Gordon

Q1.  Dr. Norman, it appears that the enhanced scientific capability of 
your Hubble Origins Probe is critically dependent on the inclusion of 
the Very Wide Field Imager (VWFI).

Q1a.  Does this instrument currently exist as space-qualified hardware 
or would it have to be developed?

A1a. This instrument does not exist as space-qualified hardware, and it 
has to be developed but it is worth emphasizing that the VWFI design 
consists of space-qualified devices and highly reliable components.

Q1b.  Your proposal indicates that the Japanese would provide the VWFI. 
Has the Japanese government agreed to fund the development of the 
instrument?

A1b. The Japanese government has not yet agreed to fund the development 
of the instrument. But, our Japanese colleagues have submitted the 
mission proposal to the Japanese space agency JAXA. Our understanding 
is the JAXA will make their best effort to support the U.S.-led HOP 
mission.

Q1c.  Have the Japanese ever developed and flown a comparable imager in 
space or would this be a new development?

A1c. There have been excellent collaborations between NASA and the 
Japanese space agency especially in X-ray astronomy and in solar 
physics. A comparable imager is the 50cm diffraction-limited visible 
light telescope developed by the National Astronomical Observatory of 
Japan aboard the JAXA-NASA Solar-B mission. NASA provided the focal 
plane package for the telescope.

Q1d.  New instrument developments are typically complex undertakings. 
What amount of slack do you have in your mission schedule to 
accommodate any possible delays with the instrument?

A1d. Six months of reserve are allocated in the four-year long 
development schedule for VWFI. This is the primary slack allocated to 
accommodate possible delays in the instrument. However, there is 
another two weeks of reserve in the spacecraft-to-instrument two-month 
long integration schedule. This allows for the possibility of VWFI 
acceptance at a slightly later than nominal date. There is additionally 
four months of schedule reserve allocated in the 13-month system-level 
integration and test span. This enables late insertion of the VWFI 
during ambient functional testing or prior to space vehicle Thermal 
Vacuum/Thermal Balance testing.

Q1e.  Would you fly Hubble Origins Probe without the VWFI if the 
instrument were delayed in its development?

A1e. We would make every effort to fly HOP with the VWFI unless there 
were very significant delays, because of the very strong science 
enhancement the VWFI provides. We do not anticipate any significant 
delays.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

  Statement of The Institute of Electrical and Electronics Engineers--
                  United States of America (IEEE-USA)

                 Concerning the Hubble Space Telescope

    IEEE-USA appreciates this opportunity to share our views on the 
need for continued support of the Hubble Space Telescope for this 
hearing of the House Science Committee. As an organization of engineers 
and technical professionals, we support exploring all possible avenues 
to prolong the useful life of the Hubble telescope for the benefit of 
science and humanity.
    IEEE-USA believes that NASA's benefit and risk analyses should 
consider the future scientific value of maintaining the Hubble and that 
the public should be informed about the considerations and tradeoffs 
considered in making a final decision on a service mission to the HST. 
To this end, IEEE-USA recommends that:

        <bullet>  NASA should continue planning and preparing for the 
        SM-4 servicing mission.

        <bullet>  In consultation with other government agencies, 
        external experts, and the National Research Council, NASA 
        should strive to develop procedures, technology and equipment 
        that would allow the safe servicing of the HST.

    The Hubble Space Telescope (HST) is a 2.4-meter reflecting 
telescope, which was deployed in low-Earth orbit (600 kilometers) by 
the crew of the Space Shuttle Discovery on 25 April 1990. HST is a 
cooperative program of the European Space Agency and the National 
Aeronautics and Space Administration (NASA) to operate a long-lived 
space-based observatory for the benefit of the international 
astronomical community. HST's location above the Earth's atmosphere 
allows its scientific instruments (cameras, spectrographs and other 
sensors) to acquire high-resolution images of astronomical objects.
    The Hubble Space Telescope (HST) is a 2.4-meter reflecting 
telescope, which was deployed in low-Earth orbit (600 kilometers) by 
the crew of the Space Shuttle Discovery on 25 April 1990. HST is a 
cooperative program of the European Space Agency and the National 
Aeronautics and Space Administration (NASA) to operate a long-lived 
space-based observatory for the benefit of the international 
astronomical community. HST's location above the Earth's atmosphere 
allows its scientific instruments (cameras, spectrographs and other 
sensors) to acquire high-resolution images of astronomical objects.
    Since its launch, the Hubble telescope has provided astronomers and 
humanity with measurements that provided, among other results, 
fundamental new results in planetary science; discovery of the most 
distant object in the solar system; more accurate estimates of the age 
of the universe; better measurements of the universe's rate of 
expansion; the deepest portrait of the visible universe ever achieved 
by humankind; the discovery of new stars and dynamic phenomena in 
space; and new views of comets and black holes.
    The planned James Webb Space Telescope will eventually provide a 
new capability for scientific research, but will not launch until 2011, 
at the earliest. Prospects for continued operation of Hubble until that 
date without a servicing mission are small. The absence of the Hubble's 
extraordinary abilities would adversely impact astronomical research. 
Maintaining the Hubble will accommodate any delays in the Webb Space 
Telescope. And having both telescopes on the station until the Hubble 
concludes its mission will increase space research capacity.
    IEEE-USA is an organizational unit of the IEEE. It was created in 
1973 to advance the public good and promote the careers and public-
policy interests of the more than 225,000 technology professionals who 
are U.S. members of the IEEE. The IEEE is the world's largest technical 
professional society. For more information, go to http://
www.ieeeusa.org.

</pre></body></html>
